                         TIGTA Semiannual       Report to Congress




April 1, 2011 – September 30, 2011                                   Page 3
                                             
                         TIGTA Semiannual        Report to Congress




       Inspector General’s
       Message to Congress
It is my honor to submit this Semiannual Report to
Congress summarizing the accomplishments of the
Treasury Inspector General for Tax Administration (TIGTA)
for the reporting period of April 1, 2011 through September
30, 2011. This report highlights the most notable audits,
investigations, and inspections and evaluations performed
by TIGTA, as we continue to work diligently to provide
oversight of the Internal Revenue Service (IRS) and
protect the integrity of Federal tax administration.

During this reporting period, TIGTA’s combined audit and investigative efforts have
recovered, protected, and identified monetary benefits totaling $16.03 billion. Our Office
of Audit (OA) has completed 99 audits, and the Office of Investigations (OI) has closed
1,956 investigations over the past six months.

The Federal Government is faced with the dual tasks of reducing the deficit and
stimulating the economy. TIGTA’s work during this reporting period identified
opportunities to decrease Federal spending and increase the amount of tax revenue
collected by the IRS. We have also closely reviewed the payment of tax credits
available under the American Recovery and Reinvestment Act of 2009 (Recovery Act).

TIGTA issued several reports and I testified before the House Ways and Means
Subcommittee on Oversight regarding improper payments. For the IRS, erroneous and
improper payments generally involve improperly paid refunds, tax return filing fraud, or
overpayments to vendors or contractors.

The May 25 congressional testimony conveyed our concerns with the IRS’s
administration of refundable tax credits. Refundable credits were designed to help low-
income individuals reduce their tax burden or provide them with incentives for other
activities. Although each of these refundable credits provides benefits to taxpayers, the
unintended consequence is that they are often the targets of unscrupulous individuals
who file erroneous claims.

TIGTA also initiated an international outreach effort to heighten IRS integrity awareness
among millions of U.S. citizens living abroad, including military personnel stationed
overseas, in order to deter waste, fraud, and IRS employee misconduct. This effort will
further enhance TIGTA’s investigative ability to identify and mitigate potential corruption
in IRS operations.




April 1, 2011 – September 30, 2011                                                  Page 3
                                              
                       TIGTA Semiannual          Report to Congress
 

TIGTA’s International Program will strive to work closely with IRS personnel assigned to
foreign countries to promote the economy, efficiency, and effectiveness of an
increasingly global system of U.S. tax administration. TIGTA also seeks to partner with
the U.S. Department of State, the U.S. Department of Defense, and other Federal
agencies to integrate TIGTA’s message of integrity in Federal tax administration into a
broader framework.

TIGTA has always included work involving international tax administration as part of its
annual audit planning process. However, the amount of work conducted in this area in
any given year is always limited by other competing priorities. Recognizing the growing
importance of international tax administration, TIGTA created an International Tax
Program Strategy that established a uniform methodology to monitor the IRS’s efforts
concerning international tax administration. Since the implementation of this strategy,
TIGTA issued several reports about international tax administration that were included
in previous semiannual reports to Congress.

TIGTA’s work during this reporting period on the tax provisions of the Recovery Act
illustrates the value of providing “real-time” auditing of the IRS’s implementation of
changes in Federal tax laws. The IRS could have prevented the issuance of millions of
dollars in refunds to individuals fraudulently claiming tax credits if it had implemented
our recommendations.

TIGTA also continued its efforts to prevent procurement fraud. The Office of
Investigations’ Procurement Fraud Division conducted comprehensive investigations
involving corruption and fraud within IRS procurements, promoted fraud awareness
within the IRS procurement community, and collaborated with OA to help identify
contract fraud indicators. Strategies such as employing the use of advanced data
mining techniques and fraud indicator training, augment the efforts of this strategic
alliance and maximize resources dedicated to protecting the interest of American
taxpayers. Now in its third year of operation, TIGTA’s Office of Inspections and
Evaluations continued its review of IRS programs and operations, including the IRS’s
policy of allowing employees to use government cars to commute to and from work.

As before, I look forward to working with Congress, the Administration, and all of
TIGTA’s employees as we work tirelessly to make our Nation’s tax system more
efficient, effective, and fair.

                                        Sincerely,




                                    J. Russell George
                                    Inspector General



Page 4                                                     April 1, 2011 – September 30, 2011
 
                                   TIGTA Semiannual                         Report to Congress




                                         Table of Contents
Inspector General’s Message to Congress .................................................................                                 3

TIGTA’s Highlights ............................................................................................................           7

TIGTA’s Profile ................................................................................................................... 13
        Statutory Mandate ........................................................................................................ 13
        Organizational Structure ............................................................................................... 14
        Authorities ..................................................................................................................... 14

Promote the Economy, Efficiency, and Effectiveness of Tax Administration .... 15
        Security of the IRS ........................................................................................................    16
        Modernization of the IRS ..............................................................................................         19
        Tax Compliance Initiatives ............................................................................................         24
        Implementing Health Care and Other Tax Law Changes .............................................                                27
        Providing Quality Taxpayer Service Operations ...........................................................                       30
        Human Capital ..............................................................................................................    32
        Erroneous and Improper Payments and Credits ..........................................................                          35
        Taxpayer Protection and Rights ...................................................................................              38
        Leveraging Data to Improve Program Effectiveness and Reducing Costs ...................                                         39

Protect the Integrity of Tax Administration ................................................................ 41
        Employee Integrity Investigations .................................................................................             43
        Strategic Data Services Division ..................................................................................             46
        Employee and Infrastructure Security ..........................................................................                 48
        External Attempts to Corrupt Tax Administration .........................................................                       51

Advancing Oversight of America’s Tax System ........................................................ 59

TIGTA’s International Programs .................................................................................... 63

American Recovery and Reinvestment Act of 2009 ................................................. 67

An Organization that Values Its People ....................................................................... 71

Congressional Testimony ............................................................................................... 73

Audit Statistical Reports ................................................................................................. 79
        Reports With Questioned Costs ................................................................................... 79
        Reports With Recommendations That Funds Be Put to Better Use ............................. 80
        Reports With Additional Quantifiable Impact on Tax Administration ............................ 81

Investigations Statistical Reports ................................................................................. 85
        Significant Investigative Achievements ........................................................................ 85
        Status of Closed Criminal Investigations ...................................................................... 86



April 1, 2011 – September 30, 2011                                                                                                Page 5
                                                                       
                                 TIGTA Semiannual                      Report to Congress
 

Appendices
Appendix I – Statistical Reports – Other ..................................................................... 87
       Audit Reports with Significant Unimplemented Corrective Actions .............................. 87
       Other Statistical Reports ............................................................................................... 98

Appendix II – Audit Products ......................................................................................... 99

Appendix III – TIGTA’s Statutory Reporting Requirements .................................... 105

Appendix IV – Section 1203 Standards ........................................................................ 115

Appendix V – Implementing Section 989C of the Dodd-Frank Wall Street Reform
and Consumer Protection Act ....................................................................................... 117

Appendix VI – Data Tables Provided by the Internal Revenue Service ................ 119
       Internal Revenue Service Memorandum ...................................................................... 119
       Report of Employee Misconduct, Summary by Disposition Groups ............................. 120
       Report of Employee Misconduct, National Summary ................................................... 121
       Summary of Substantiated I.R.C. § 1203 Allegations Recorded in ALERTS ............... 122

Glossary of Acronyms ..................................................................................................... 123




Page 6                                                                               April 1, 2011 – September 30, 2011
 
                           TIGTA Semiannual               Report to Congress




                              TIGTA’s Highlights
During this reporting period, TIGTA’s combined audit and investigative efforts have
recovered, protected, and identified monetary benefits totaling $16.03 billion. Through
its vigilant work, the Office of Investigations successfully closed 1,956 cases, saving
American taxpayers more than $52.3 million in costs. In addition, the Office of Audit
completed 99 audits that identified over $15.9 billion in potential financial benefits. It is
through this type of work that TIGTA is able to effectively carry out its mission of
protecting the integrity of tax administration.


Examples of High-Profile Cases by the Office of
Investigations:
Catherine Griffin Used IRS Computers to Fraudulently Obtain First-Time
Homebuyer Tax Credits for Friends and Relatives

On June 9, 2011, in Georgia, Catherine Griffin, formerly an IRS employee, was
sentenced on one count of unauthorized use of a government computer. She was
sentenced to serve nine months in Federal prison, followed by two years of supervised
release. She was also ordered to pay a $100 court assessment and $40,516 in
restitution. 1

From approximately July 2009 to November 2009, Griffin worked as a seasonal
employee processing amended tax returns filed by taxpayers. Griffin had access to IRS
computers. For monetary gain, she changed taxpayer information in the IRS computer
systems to make it appear that individuals were eligible for the First-Time Homebuyer
Tax Credits when in fact the information she entered was fraudulent. 2

Mikalai Mardakhayeu Sentenced for Participation in an Online Tax Refund
Scheme

On June 22, 2011, in Massachusetts, Mikalai Mardakhayeu, a Belarus national, was
sentenced to 41 months in prison, two years of supervised release, and ordered to pay
$209,000 in restitution. 3

According to court records, from 2006 through 2007, Mardakhayeu and his co-
conspirators operated websites that falsely represented to be authorized by the IRS to



1
  N.D. Ga. Sentencing Doc. filed June 10, 2011.
2
  N.D. Ga. Indict. filed Feb. 22, 2011.
3
  D. Mass. Sentencing Doc. filed Jan. 19, 2011; D. Mass. Indict. filed June 23, 2010.

April 1, 2011 – September 30, 2011                                                      Page 7
                                                      
                              TIGTA Semiannual               Report to Congress
 

offer low-income taxpayers free online tax return preparation and electronic tax return
filing (e-filing). 4

After taxpayers had uploaded their tax information, co-conspirators in Belarus collected
the data and altered the returns to direct the refunds to U.S. bank accounts controlled
by Mardakhayeu and, in some cases, inflated the refund amounts. The co-conspirators
then caused the fraudulently altered returns to be e-filed with the IRS. The co-
conspirators ultimately caused the IRS and State treasury departments to deposit
approximately $200,000 in stolen refunds into bank accounts controlled by
Mardakhayeu. 5

Examples of High-Profile Reports From the
Office of Audit:
Security Over Databases Could Be Enhanced to Ensure Taxpayer Data Are
Protected

The IRS uses more than 2,200 databases to manage and process its taxpayer data.
Databases are increasingly being targeted by attackers. When the right degree of
security diligence is not applied, disgruntled insiders or malicious outsiders can exploit
security weaknesses in IRS databases and may gain unauthorized access to taxpayer
data, resulting in identity theft or fraud.

TIGTA found that non-mainframe databases containing taxpayer data were not always
configured in a secure manner and were running outdated software that no longer
received security patches or other vendor support. In addition, the IRS had not fully
implemented its plans to complete vulnerability scans of databases within its enterprise.
Also, the IRS purchased a database-vulnerability scanning-and-compliance assessment
tool without completing adequate product evaluation and testing. As a result, the IRS
spent more than $1.1 million in software licenses and support costs for a tool that was
not fully implemented.

TIGTA recommended that the IRS ensures:

      •   The security vulnerabilities identified in databases are remediated;
      •   Explicit management approvals are included in the database configuration
          building process;
      •   A strategic plan is developed to address outdated database versions;
      •   Outdated databases are upgraded, migrated to newer versions, or properly
          approved to deviate from existing standards;
      •   Database vulnerability scans are conducted as required by policies;
      •   Database vulnerability scans test all high- and medium-risk configuration
4
    D. Mass. Plea Agr. filed Jan.19, 2011; D. Mass. Indict. filed June 23, 2010.
5
    Id.

Page 8                                                                  April 1, 2011 – September 30, 2011
 
                             TIGTA Semiannual         Report to Congress



          settings; and
      •   A thorough technical product evaluation is consistently conducted and
          documented for the purchase of future software products.

The IRS agreed with these recommendations and plans to take appropriate corrective
actions. The IRS disagreed with TIGTA’s $1.1 million outcome measure related to the
licensing of the IRS vulnerability scanning tool, but TIGTA maintained the
appropriateness of the measure.
Reference No. 2011-20-044

Affordable Care Act – Efforts to Implement the Small Business Health Care Tax
Credit Were Mostly Successful, but Some Improvements Are Needed

The Patient Protection and Affordable Care Act 6 and the Health Care and Education
Reconciliation Act 7 were signed into law in March 2010. Among the credits contained in
this legislation was the Small Business Health Care Tax Credit (Credit). This Credit was
designed to encourage small employers to offer health-care insurance. In general, the
Credit is available only to small employers who pay at least one-half the cost of health
insurance coverage for their employees. The IRS’s efforts to implement the Credit were
mostly successful, but some improvements are needed.

The IRS timely completed actions to plan for and implement the Credit. The volume of
claims for the Credit has been low despite the IRS’s efforts to inform 4.4 million
taxpayers who could potentially qualify for the Credit. According to the IRS, as of mid-
May 2011, just over 228,000 taxpayers had claimed the Credit for a total amount that
exceeded $278 million. Among reasons given by industry groups and professional
organizations for the low volume was the time and effort required to claim the Credit.
The IRS plans to conduct focus groups to determine why the claim rate was so low.

Although the Credit is specifically targeted to small employers, certain taxpayers may
claim the Credit even when they have not filed employment tax returns. This occurs
because companies can enter into a contractual relationship with a Professional
Employer Organization that manages human resources. The Credit for Small Employer
Health Insurance Premiums (Form 8941) does not contain all of the data and
calculations needed to verify each step of Credit eligibility and calculation. Based on
the information that was available, TIGTA found that both taxpayers and tax
practitioners were making mistakes when completing Form 8941.

TIGTA recommended that the IRS:

      •   Track Professional Employer Organization relationships;
      •   Seek legislation to provide targeted math error authority that would enable the
          IRS to disallow the Credit when employment tax returns have not been filed;

6
    Pub. L. No. 111-148, 124 Stat. 119 (2010).
7
    Pub. L. No. 111-152, 124 Stat. 1029 (2010).

April 1, 2011 – September 30, 2011                                                   Page 9
                                                   
                             TIGTA Semiannual        Report to Congress
 

      •    Consider implementing processing criteria that would route returns that are
           obviously wrong to the Examination function before completing processing; and
      •    Ensure basic checks of arithmetical accuracy during processing.

IRS management agreed with these recommendations and stated that they plan to take
appropriate corrective actions.
Reference No. 2011-40-103

Recovery Act – Billions of Dollars in Education Credits Appear to Be Erroneous

The American Recovery and Reinvestment Act of 2009 8 amended the Hope
Scholarship Credit to provide a refundable tax credit called the American Opportunity
Tax Credit. This Credit is intended to help taxpayers offset the costs of higher
education.

As of May 28, 2010, TIGTA identified 2.1 million taxpayers receiving $3.2 billion in
education credits that appeared erroneous. Specifically:

      •    1.7 million taxpayers received $2.6 billion in education credits that appear to be
           erroneous based on IRS records.
      •    370,924 individuals were claimed as students but were not eligible for education
           credits because they did not attend the required amount of time and/or were
           postgraduate students. This resulted in an estimated $550 million in erroneous
           education credits.
      •    63,713 taxpayers erroneously received $88.4 million in education credits for
           students claimed as dependents or spouse on another taxpayer’s tax return.
      •    250 prisoners erroneously received $255,879 in education credits.

TIGTA also found that at least 1.1 million of these taxpayers (52 percent) had their tax
returns prepared by a paid preparer.

In addition, TIGTA identified that a valid Social Security Number (SSN) was required for
Federal student aid but not for education credits. TIGTA’s review identified 84,754
students who did not have valid SSNs but $103 million in education credits were
claimed for them.

TIGTA made numerous recommendations. The most significant recommendations
included that the IRS:

       •   Revise the current Form 8863 Education Credits (American Opportunity and
           Lifetime Learning Credits);
       •   Coordinate with the Department of Education to assess the feasibility of using its
           data files in tax return processing;
       •   Initiate a recovery program for erroneously paid claims;

8
    Pub. L. No. 111-5, 123 Stat. 115.

Page 10                                                       April 1, 2011 – September 30, 2011
 
                          TIGTA Semiannual             Report to Congress



    •   Coordinate with the Department of the Treasury to determine if legislation is
        needed to clarify whether the American Opportunity Tax Credit may be claimed
        for students without valid SSNs; and
    •   Be provided with math error authority to disallow associated claims for these
        credits.

IRS management agreed with almost all of these recommendations, disagreeing only
with the number of erroneous claims that TIGTA identified. However, in subsequent
communications, IRS management informed TIGTA that they had found a high
percentage of the claims TIGTA identified as erroneous. As of July 2011, IRS audit
results showed that 72 percent of the claims reviewed were erroneous, and the IRS has
proposed assessments totaling more than $2.2 million for 1,477 tax returns it has
audited so far. IRS management noted that they expect the percentage of erroneous
claims to further increase and, as a result, the IRS has increased the number of tax
returns that it plans to review with this condition in Fiscal Year (FY) 2012.
Reference No. 2011-41-083

Example of a Significant Inspection and
Evaluation Report:
A Follow-Up Evaluation of the Workers’ Compensation Program in the IRS

In 2003 and 2008, TIGTA reviewed the IRS’s Workers’ Compensation Program and
made recommendations to improve internal controls. 9 This review was conducted to
determine whether the IRS implemented corrective actions related to those
recommendations. Additionally, TIGTA assessed the IRS’s compliance with the Safety,
Health, and Return to Employment (SHARE) initiative, 10 and the Protecting Our
Workers and Ensuring Reemployment (POWER) initiative. 11

The IRS had 2,610 active workers’ compensation claims as of August 2010. New
claims for workers’ compensation as well as the total cost to the IRS of workers’
compensation have generally declined over the past five years. Total workers’
compensation costs have decreased from $46.7 million in FY 2006 to $44.8 million in FY
2010, although there was a slight increase from 2009 to 2010 due to increased medical
costs.



9
  TIGTA, Improvements Are Needed in the Process and Information Used to Manage Workers’
Compensation Claims (Reference Number: 2003-10-213, dated September 2003); TIGTA, A More
Strategic Approach Could Enhance the Workers’ Compensation Program Return-to-Work Efforts
(Reference Number: 2008-30-056, dated March 12, 2008).
10
   On January 9, 2004, President Bush established the Safety, Health, and Return to Employment
initiative for Fiscal Years 2004 - 2006. SHARE was extended through Fiscal Year 2009.
11
   On July 19, 2010, President Obama established a four-year Protecting Our Workers and Ensuring
Reemployment initiative, covering Fiscal Years 2011 through 2014.

April 1, 2011 – September 30, 2011                                                          Page 11
                                                   
                        TIGTA Semiannual            Report to Congress
 

TIGTA found that the IRS’s programs for returning injured employees to work have
been largely successful and the IRS has implemented corrective actions for all previous
recommendations. The IRS has been generally successful in meeting the goals set for
the SHARE and POWER initiatives, with the exception of the goals for timely filing of
claims.

First-line managers are a primary control in managing workers’ compensation claims
and actions, including timely filing of the initial claims. It is the responsibility of the IRS
to provide training and assistance to managers in performing duties related to workers’
compensation. Video training materials have been developed to address managers’
responsibilities for a workers’ compensation claim. However, the videos are not
universally distributed, and while the IRS plans to put the video training material on an
intranet site, a completion date has not been set.

TIGTA recommended that the IRS consider making workers’ compensation awareness
part of the annual mandatory briefings for managers.

IRS management agreed that additional training in the workers' compensation area
could be beneficial for managers. However, the curriculum for mandatory briefings is
currently full. Therefore, management plans to consider the use of alternative media for
workers’ compensation training.

TIGTA agreed with the alternative solution proposed by the IRS.
Report Reference No. 2011-IE-R006

Example of a Significant Legislation Reviewed
by the Office of Chief Counsel:
H.R. 2146, Digital Accountability and Transparency Act of 2011

TIGTA reviewed the Digital Accountability and Transparency Act of 2011, which would
create a Government-wide Federal Accountability and Spending Transparency (FAST)
Board to oversee the disbursement and use of Federal grants, loans, contracts, and
other Federal awards. This bill will require agencies and the recipients of such awards
to periodically report financial data to the FAST Board. TIGTA provided numerous
comments on the bill, suggesting that the oversight and reporting provisions of the bill
be revised to clarify the relationship between the Board and the Federal Inspectors
General, and to eliminate redundant reporting requirements. TIGTA will continue to
monitor this bill for changes that may have an impact on its mission.




Page 12                                                        April 1, 2011 – September 30, 2011
 
                         TIGTA Semiannual             Report to Congress




                                TIGTA’s Profile


T
        IGTA provides independent oversight
        of the Department of the
        Treasury’s matters involving IRS
        activities, the IRS Oversight                         Statutory Mandate
Board, and the IRS Office of Chief
Counsel. Although TIGTA is placed                         • Protect against external
organizationally within the Department of                   attempts to corrupt or threaten
the Treasury and reports to the Secretary                   IRS employees.
of the Treasury and to Congress, TIGTA                    • Provide policy direction and
functions independently from all other                      conduct, supervise, and
offices and bureaus within the                              coordinate audits and
Department.                                                 investigations related to IRS
                                                            programs and operations.
Our work is devoted to all aspects of                     • Review existing and proposed
activity related to the Federal tax system                  legislation and regulations
as administered by the IRS. TIGTA                           related to IRS programs and
protects the public’s confidence in the                     operations, and make
tax system by identifying and addressing                    recommendations concerning
                                                            the impact of such legislation
the IRS’s management challenges and
                                                            or regulations.
implementing the President’s
Management Agenda and the priorities                      • Promote the economy and
of the Department of the Treasury.                          efficiency in the administration
                                                            of tax laws.
TIGTA’s organizational structure is                       • Prevent and detect waste,
comprised of the Office of the Inspector                    fraud, and abuse in IRS
                                                            programs and operations.
General and five functional offices: the
Office of Investigations; the Office of                   • Inform the Secretary of the
Audit; the Office of Inspections and                        Treasury and Congress of
                                                            problems and deficiencies
Evaluations; the Office of Mission
                                                            identified and of the progress
Support; and the Office of Chief Counsel                    made in resolving them.
(see chart on page 14).

We conduct audits, inspections and
evaluations, and investigations designed
to:

   •   Promote the economy, efficiency, and
       effectiveness of tax administration; and
   •   Protect the integrity of tax administration.




April 1, 2011 – September 30, 2011                                                        Page 13
                                                
                             TIGTA Semiannual             Report to Congress
   


                         Organizational Structure

                                             Inspector General

                                              Principal Deputy
                                             Inspector General




                                                  Deputy
    Deputy                 Deputy                Inspector               Associate               Chief
   Inspector              Inspector             General for               Inspector             Counsel
  General for            General for            Inspections              General for
Investigations              Audit                   and                    Mission
                                                Evaluations                Support




                                         Authorities
  TIGTA has all of the authorities granted under the Inspector General Act of 1978, as
  amended. 12 TIGTA has access to tax information in the performance of its tax
  administration responsibilities. TIGTA must also report potential criminal violations
  directly to the Department of Justice. TIGTA and the Commissioner of the IRS have
  established policies and procedures delineating responsibilities to investigate potential
  criminal offenses under Internal Revenue laws. In addition, the Internal Revenue
  Service Restructuring and Reform Act of 1998 (RRA 98) 13 amended the Inspector
  General Act of 1978 to give TIGTA the statutory authority to carry firearms, execute and
  serve search and arrest warrants, serve subpoenas and summonses, and make arrests
  as set forth in Internal Revenue Code (I.R.C.) Section (§) 7608(b)(2).




  12
    5 U.S.C. app. 3 (amended 2008).
  13
    Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C.
  app., 16 U.S.C., and 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).

  Page 14                                                             April 1, 2011 – September 30, 2011
   
                         TIGTA Semiannual         Report to Congress




        Promote the Economy, Efficiency, and
         Effectiveness of Tax Administration

T
     IGTA’s Office of Audit (OA) strives to promote the economy, efficiency, and
     effectiveness of tax administration. TIGTA provides recommendations to improve
     IRS systems and operations and to ensure the fair and equitable treatment of
     taxpayers. TIGTA’s comprehensive and independent performance and financial
audits of the IRS’s programs and operations primarily address statutory mandated
reviews and high-risk challenges the IRS faces.

The IRS’s implementation of audit recommendations results in:

   •    Cost savings;
   •    Increased or protected revenue;
   •    Protection of taxpayers’ rights and entitlements; and
   •    More efficient use of resources.

Each year, TIGTA identifies and addresses the IRS’s major management and
performance challenges. OA places audit emphasis on statutory coverage required by
RRA 98 and other laws, as well as areas of concern to Congress, the Secretary of the
Treasury, the Commissioner of the IRS, and other key stakeholders.


        Audit’s Areas of Emphasis for April 2011 through September 2011

    •   Security of the IRS
    •   Modernization of the IRS
    •   Tax Compliance Initiatives
    •   Implementing Health Care and Other Tax Law Changes
    •   Providing Quality Taxpayer Service Operations
    •   Human Capital
    •   Erroneous and Improper Payments and Credits
    •   Taxpayer Protection and Rights
    •   Leveraging Data to Improve Program Effectiveness and Reduce Costs



The following summaries highlight significant audits completed in each area of
emphasis during this six-month reporting period:




April 1, 2011 – September 30, 2011                                               Page 15
                                               
                        TIGTA Semiannual          Report to Congress
 

Security of the IRS
In addition to safeguarding a vast amount of sensitive financial and personal data, the
IRS must also protect approximately 100,000 employees and more than 700 facilities
throughout the country. Attacks and threats against IRS employees and facilities have
risen steadily in recent years, and the struggling economy has provided fertile ground
for some to act out their frustration against the Government. Dissatisfaction with tax
administration is nothing new, and events such as the February 2010 attack on an IRS
facility in Austin, Texas indicates a surge of such hostility towards the Federal
Government.

Concurrent with the IRS’s monitoring of threats against its employees and facilities, the
IRS must also remain vigilant with regard to computer security, particularly as it relates
to safeguarding the privacy of confidential taxpayer information. As computer usage
continues to be inextricably integrated into core business processes, the need for
effective information-system security becomes essential to ensure the confidentiality,
integrity, and availability of data. IRS computer systems process hundreds of millions of
tax returns and contain confidential tax information for over 100 million taxpayers.

Response to Austin Incident

On February 18, 2010, a single-engine airplane was intentionally flown into the
Echelon І building in Austin, Texas. The IRS adequately prepared for and took the
necessary actions to respond to and recover from this incident, which ensured that the
IRS timely resumed normal business operations. An extended disruption to IRS
facilities could affect key processes such as assessing and collecting taxes, processing
tax returns and refunds, and responding to taxpayer inquiries.

After the Austin incident, the IRS adequately prepared for and took the necessary
actions to evacuate and protect its employees, secure taxpayer data and Federal
Government property, and timely resume business operations. Specifically, the IRS
provided extensive personnel services to assess and support affected employees’
needs. In addition, the IRS also identified temporary office space for the affected
employees, awarded several procurements to support the recovery effort in an
expedited time period, and provided the furnishings and equipment needed to resume
work after the incident.

However, TIGTA determined that emergency planning for the Echelon І building was
not complete, as none of the IRS’s business resumption plans for its eight business
units located in the building included all of the required elements. In addition, the
salvage contract used to recover documents, including taxpayer data at the incident
site, did not include all of the required security provisions and did not contain an official
designation appointing a Contracting Officers Technical Representative. However,
these issues did not have a material impact on the IRS’s response to the Austin incident
and, taken as a whole, the IRS’s preparation and response ensured that the effect of
the Austin incident on IRS employees and tax administration was minimized.

Page 16                                                     April 1, 2011 – September 30, 2011
 
                            TIGTA Semiannual               Report to Congress



TIGTA recommended that the IRS:

     •   Ensure that lessons learned relative to the business resumption plans are
         applied to the development of the new continuity plans; and
     •   Include on the lessons-learned document and the Incident-Management Plan
         template the provisions for emergency procurements.

IRS management agreed with these recommendations and stated that they have taken
or plan to take appropriate corrective actions.
Reference No. 2011-10-098

Automated Insolvency System

Bankruptcy petitions filed in Federal courts rose 32 percent in Calendar Year 2009 over
Calendar Year 2008. The IRS receives notification when a taxpayer files for
bankruptcy. The IRS inputs the taxpayer’s information into its Automated Insolvency
System (AIS) to track the legal requirements for dealing with the taxpayer and to
protect the Government’s financial interests. Unauthorized access to the AIS could
jeopardize taxpayers’ legal rights.

Although some AIS access controls were in place, such as the automatic lockout
control and password complexity settings, other required access controls had not
been implemented or were not operating effectively.

TIGTA found that many IRS employees had excessive privileges to the AIS. These
excessive privileges were due to two primary reasons. First, managers did not
ensure that duties were adequately segregated among employees to prevent and
detect unauthorized activities. Second, an inadequate role-based access control
scheme 14 was developed for the AIS. This caused managers to inadvertently grant
unneeded and excessive AIS privileges to employees.

TIGTA also found that IRS managers and user administrators were not following the
requirement to use the Online 5081 system 15 to authorize and revoke access to the
AIS. In addition, some significant actions taken on bankruptcy cases were not
logged and reported in the AIS Manager Review screen that would allow managers
to detect errors and inappropriate activities.

Therefore, TIGTA recommended that the IRS:

     •   Identify incompatible duties and implement policies to segregate those duties;


14
   System access configurations that gave conflicting privileges to individuals and did not support the
concept of least privilege or allowing only those access privileges associated with an individual’s role.
15
   This system replaces the paper Information System User Registration/Change Request
(Form 5081) with an automated, standard process. It provides automated submission, approval,
recertification, and filing of the Form 5081 on an enterprise-wide basis.

April 1, 2011 – September 30, 2011                                                                  Page 17
                                                       
                       TIGTA Semiannual         Report to Congress
 

    •   Issue a Memorandum of Insolvency to office managers requiring them to adhere
        to the new policy when assigning duties and approving AIS access rights;
    •   Define and document user requirements for the AIS based on employee job
        functions and position descriptions and submit these requirements to the
        Applications Development office in a formal work request;
    •   Issue a memorandum to managers emphasizing the requirement to use the
        Online 5081 system to authorize, revoke, and review employees’ AIS access
        authorizations;
    •   Ensure that application developers have read-only access to the AIS;
    •   Develop software to systemically create and assign passwords for new AIS
        users; and
    •   Create a role-based access control scheme for the AIS.

The IRS agreed with these recommendations and has taken or plans to take
appropriate corrective actions.
Reference No. 2011-20-046

Centralization of the Windows Environment

The IRS operates a large computer network that includes about 6,000 servers and
110,000 workstations using Windows® operating systems provided by the Microsoft
Corporation. Proper implementation of Microsoft Corporation Windows technology
simplifies system administration and provides methods to strengthen and consistently
secure computer systems. When IRS operations run efficiently and securely, taxpayer
dollars and data are preserved and protected.

The IRS had not taken actions to continue enforcing the centralization of its Windows
environment, which would simplify system administration and achieve consistent identity
and authentication management that is required by Federal regulations and IRS
enterprise architecture security principles. TIGTA found three organizations that
maintained groups of Windows servers outside of the main centralized group of
Windows servers. The IRS spent $1.2 million in contract fees to maintain obsolete
computer equipment in one of these groups, rather than spending those funds to
resolve the vulnerability.

In addition, the IRS did not ensure that all Windows computers connected to its network
were authorized and compliant with security policy, putting the IRS at risk of security
breaches. While the IRS had created standards to prevent unauthorized computers
from being connected to the network, it had not established a central controlling
authority to enforce compliance with its policy.

TIGTA recommended that the IRS ensures:

    •   An enterprise-wide Active Directory governing body is established to enforce
        Windows server-group design criteria and ensure that unauthorized Windows
        server groups are not created;

Page 18                                                  April 1, 2011 – September 30, 2011
 
                           TIGTA Semiannual               Report to Congress



     •   Planned shutdown of the noncentralized groups of Windows servers is continued
         or feasibility studies to collapse noncentralized Windows server groups are
         completed;
     •   Standards to prevent computers from being connected to the network without
         proper authorization and required compliance documentation are implemented
         enterprise-wide; and
     •   Network scanning tools are utilized to locate unauthorized computers on the IRS
         network, and adequate procedures are developed and implemented to ensure
         that they are removed.

IRS management agreed with these recommendations and stated that they plan to take
appropriate corrective actions. However, the IRS disagreed with the $1.2 million
outcome measure related to the maintenance of obsolete computer equipment. TIGTA
maintained the appropriateness of the measure.
Reference No. 2011-20-111

Modernization of the IRS
The Business Systems Modernization Program (Modernization Program or Program) is
a complex effort to modernize IRS technology and related business processes. It
involves integrating thousands of hardware and software components while replacing
outdated technology and maintaining the current tax system.

The Modernization Program has continued to help improve IRS operations and is now
designed to improve business practices with new information technology solutions.
However, project development activities have not always effectively implemented
planned processes or delivered all planned system capabilities necessary to achieve
the Program’s expectations. Managing the Program’s cost and schedule has improved
since the previous year, but more attention must be given to developing and managing
Program requirements.

Further security vulnerabilities affecting two significant systems have not yet been
resolved. The IRS revised its Modernization Program and is currently testing a
prototype 16 database concept for all taxpayer data. This new approach will require the
IRS to increase its employees’ information-technology-related skills, tools, and
operations to effectively deliver the revised Program.

Customer Account Data Engine 2

The mission of the Customer Account Data Engine (CADE) 2 Program is to provide
state-of-the-art individual taxpayer account processing and technologies to improve
service to taxpayers and enhance IRS tax administration. Once completed, the new

16
  This prototype is an approach to system development using an iterative process of discovering
requirements, designing, and building a trial model, examining the results, and repeating the process until
the desired solution is attained.

April 1, 2011 – September 30, 2011                                                                Page 19
                                                      
                       TIGTA Semiannual          Report to Congress
 

modernization environment should allow the IRS to more effectively and efficiently
update taxpayer accounts, support account settlement and maintenance, and process
refunds on a daily basis, all of which will contribute to improved taxpayer services.

CADE 2 Progress Toward Achieving Daily Processing

The IRS is closer to achieving one of its modernization goals, which is the daily
processing of taxpayer accounts. In addition, TIGTA determined that the IRS has taken
steps to address security requirements during the Daily Processing Project. However,
additional improvements and adherence to all criteria will help ensure that the CADE 2
functions as intended and that the January 2012 release date is met.

TIGTA recommended that the IRS ensure that a risk-mitigation plan is formally
developed and documented and that all open issues are addressed and closed prior to
approving milestone exits. TIGTA also recommended several other system
development process improvements.

IRS management agreed with most of these recommendations and stated that they plan
to take appropriate corrective actions. However, IRS management disagreed with the
recommendation to ensure that all open issues are addressed and closed prior to
exiting a milestone. The IRS stated that its guidance does not list specifics around what
constitutes an open issue, leaving some flexibility to make risk-based decisions on
whether a given open issue will impact efforts in the following milestones or undermine
the success of the project. However, the design meeting documentation (dated 10 days
prior to the milestone exit) indicated that the design impact of the open issues was not
known. Exiting a milestone without properly addressing critical open issues could result
in rework, potentially impact the logical or physical design, and result in unnecessary
costs.

CADE 2 Progress in Design Activities

The CADE 2 Database Implementation Project team made progress completing design
activities and addressing security and privacy controls. Despite overall progress,
improvements are needed to ensure that key activities for the Design Specification
Report, audit plan, and database trial initializations are timely, and that the Interface
Control Documents and Work Breakdown Structure comply with Enterprise Life Cycle
criteria.

TIGTA recommended that the IRS ensures:

    •   Key activities and deliverables (including security) are completed timely and, if
        not, an assessment is made to determine the impact or risk of not completing the
        required activity;
    •   The Enterprise Life Cycle guidance is kept current and includes all artifacts
        needed for projects following the Iterative Path; and


Page 20                                                   April 1, 2011 – September 30, 2011
 
                         TIGTA Semiannual        Report to Congress



   •   Several other system development process improvements are implemented to
       ensure that the CADE 2 system functions as designed when deployed into IRS
       operations.

IRS management agreed with most of these recommendations and stated that they
have taken or plan to take appropriate corrective actions. The IRS disagreed with the
recommendation to ensure that the Internal Revenue Manual (IRM) guidance for the
Enterprise Life Cycle is current and addresses the artifacts needed for the Iterative
Path. The IRS stated that the IRM is updated annually and reflects the required
artifacts. Further, the IRS indicated that when projects proceed through milestone
reviews without the artifacts identified in the IRM, they do so under a tailored plan, a
practice also outlined in the IRM.

TIGTA found that the IRS’s project tailoring plan contained the artifacts from the IRM
and was not subsequently updated to include an updated artifact based on the Iterative
Path approach. As a result, TIGTA maintains that the IRM needs to be updated to
make the guidance more effective in managing projects following the Iterative Path.
Until the IRM guidance can be revised during the next annual update cycle, the IRS
should consider sending out additional guidance based on lessons learned.

CADE 2 Additional Security Controls

The CADE 2 Program Management Office implemented guidelines to cover key
systems development processes. Due to the critical nature of the system to the IRS’s
mission, 18 enhanced security controls above those required by security guidelines
were added to the CADE 2 system to help protect data from unauthorized access,
modification, and corruption. However, improvements are still needed to ensure
Program consistency.

TIGTA recommended that the IRS:

   •   Ensure that project test plans are developed timely;
   •   Revise the IRM and other guidelines to include Program-level test plans;
   •   Develop a comprehensive Integrated Master Schedule;
   •   Identify, sufficiently trace, and control requirements and business rules in the
       requirements management tool prior to implementation of testing processes; and
   •   Use the requirements management tool to create, input, and control
       requirements to ensure that the CADE 2 system functions as designed when
       deployed into IRS operations.

IRS management agreed with most of these recommendations and indicated that
corrective actions have been completed. IRS management disagreed with the
recommendation to revise the Enterprise Life Cycle guidance, stating that it is for project
development and is not intended to provide for detailed instructions on developing a
Program-level test plan. Rather, IRS management agreed to reconcile two systems
development documents that it considers as being consistent with the purpose, scope,

April 1, 2011 – September 30, 2011                                                 Page 21
                                              
                       TIGTA Semiannual       Report to Congress
 

and timing of the Program Test Plan, and plans to maintain Program-level guidance
about the process. TIGTA agreed that this alternative approach addresses the
condition.

IRS management also stated that the finding regarding delays in developing the
Program Test Plan appeared inaccurate, citing uncertainty or unfamiliarity with the
Program Test Plan’s content was not a factor in the decision to defer delivery.
However, during TIGTA’s audit fieldwork, CADE 2 Program Management Office staff
advised that they were considering not completing the Program Test Plan, and only did
so after TIGTA brought this to the attention of the CADE 2 Director for Delivery
Management.
Reference Nos. 2011-20-109, 2011-20-110, and 2011-20-127

The IRS2GO Smartphone Application

The IRS developed the IRS2GO mobile application for the Apple iPhone® and the
Google Android® smartphones. This application was successfully released to the public
on January 20, 2011, and 147,205 iPhone users and 178,773 Android users have
registered to use the service as of May 15, 2011, and March 1, 2011 respectively.
Although the IRS2GO application is secure, enhancements in the development process
could be made for future mobile applications to ensure taxpayer privacy and security.

The IRS2GO application adequately secures data communications and does not store
sensitive or Personally Identifiable Information (PII) on the smartphone. The IRS2GO
application is available only from the Apple App Store or the Android Market.
Smartphone users should confirm that they are downloading this application from one of
these two sites.

TIGTA found that the IRS did not follow appropriate processes for using a nonapproved
programming language and open-source software in the development of the IRS2GO
application. Management was aware of the requirement to request waivers, but advised
that it made a risk-based decision not to pursue waivers in consideration of time
constraints for the project. However, the IRS could not provide any documentation of
the risk-based decision and informed us that this was an oral decision.

TIGTA also found that documents required to authorize the release of the IRS2GO
application to the public were not obtained until after the application was released.
Although the IRS2GO application did not have any significant security issues when it
was released to the public, using a system development approach that does not comply
with the Office of Management and Budget (OMB) Circular A-130 regulations increases
the risk that applications released to the public may contain security or privacy
weaknesses.

TIGTA recommended that the IRS ensures:

    •   Waivers are obtained before deployment when applicable;

Page 22                                                 April 1, 2011 – September 30, 2011
 
                         TIGTA Semiannual         Report to Congress



   •   Risk-based decisions are clearly documented; and
   •   Updates to the Plan of Action and Milestones are addressed within the
       appropriate time period.

In addition, TIGTA recommended that the IRS:

   •   Coordinate the review of open-source technologies for the approval for use in
       future application development efforts; and
   •   Ensure that all system development activities follow an approach that is
       compliant with OMB Circular A-130.

IRS management agreed with these recommendations and stated that they plan to take
appropriate corrective actions.
Reference No. 2011-20-076

Eliminating More Compliant Returns From the Audit Stream

Implementing the electronic filing (Modernized e-File) system and requiring large
corporations to use it were major accomplishments. The benefits of the Modernized
e-File system are enabling the IRS’s Large Business and International (LB&I) Division
to better meet the expectations for efficient, modernized service for the large
corporations it serves.

As envisioned in the LB&I Division’s business case, meaningful work-process
improvements have been realized in the years after large corporations were required
to e-file. Notably, these accomplishments included reducing the costs associated
with the inefficiencies of manually processing paper returns, while enhancing
customer service and increasing the availability of taxpayer information. Corporate
taxpayers also reported that e-filing had reduced the time and expense (burden) of
manually filing their tax returns and related forms.

Due to numerous process-improvement projects to enhance the Division’s audit process
for corporations, it is very difficult, if not impossible, to isolate the impact e-filing is
having on audit productivity. LB&I Division statistics show that corporate audits are
taking less time and generating more additional recommended taxes.

Although e-filing was expected to provide the LB&I Division with the capability to
eliminate more compliant taxpayers from its audit stream, this key benefit had not yet
been realized. In each of the fiscal years since mandatory e-filing was introduced for
large corporations, a higher percentage of corporate returns (roughly one out of four)
audited in the Industry Case Program were closed with no adjustment when compared
to any of the three fiscal years preceding its introduction.




April 1, 2011 – September 30, 2011                                                  Page 23
                                               
                         TIGTA Semiannual             Report to Congress
 

TIGTA recommended that the IRS:

     •   Ensure that projects take advantage of e-file data to enhance the way returns are
         identified and selected for audit;
     •   Include methodologically sound plans for evaluating project outcomes; and
     •   Assess the current methods of promoting and sharing best practices for working
         with e-file data and use the assessment, as well as the observations in this
         report, to adjust current methods, as needed, so that they better meet examiner
         needs.

IRS management agreed with these recommendations and stated that they plan to take
appropriate corrective actions.
Reference No. 2011-30-048

Tax Compliance Initiatives
Tax compliance initiatives include the administration of tax regulations, collection of the
correct amount of tax from businesses and individuals, and oversight of tax-exempt and
government entities. Increasing voluntary taxpayer compliance and reducing the Tax
Gap 17 remain the focus of many IRS initiatives. Nevertheless, the IRS faces significant
challenges in obtaining complete and timely compliance data and developing the
methods necessary to interpret the data. Even with improved data collection, the IRS
needs to develop broader strategies and conduct more research to determine which
actions are most effective in addressing taxpayer noncompliance.

Voluntary Closing Agreement Process for Public Employers

The Federal, State, and Local Governments office enters into Voluntary Closing
Agreements (Agreements) to resolve tax issues with government entities that
voluntarily come forward and report noncompliance. TIGTA’s review of the limited
number of such agreements signed to date revealed inconsistencies in their control,
processing, and monitoring, as well as in their terms and conditions. As a result,
refunds were issued to public employers that were not due refunds, and taxpayer rights
were potentially violated by inaccurately assessing interest.

To improve the system for handling these Agreements, TIGTA recommended that the
IRS:

     •   Develop guidance on how to process, review, and monitor them;
     •   Follow up with taxpayers whose rights were potentially violated;
     •   Research claims and take action to ensure that future claims are worked
         properly;
     •   Improve inventory and case management controls; and

17
  The IRS defines the Tax Gap as the difference between the estimated amount taxpayers owe and the
amount they voluntarily and timely pay for a tax year.

Page 24                                                         April 1, 2011 – September 30, 2011
 
                         TIGTA Semiannual        Report to Congress



   •   Develop guidance on how to negotiate the terms and conditions of the
       Agreements.

IRS management agreed with these recommendations and stated that they have taken
or plan to take appropriate corrective actions.
Reference No. 2011-10-042

Audit Expansion to Prior and/or Subsequent Year Returns When Substantial
Taxes May Be Owed

IRS estimates show that $197 billion of the $345 billion Tax Gap is caused by
individuals underreporting their income tax liabilities. TIGTA evaluated single-year
audits of individual returns for which the taxpayers involved agreed that they
understated their tax liabilities by more than $4,400 each. Although similar tax issues
may have existed on the returns these individuals filed for the prior and/or subsequent
tax years, the audits were not expanded to these other returns in 48 of the 100 sample
cases that TIGTA reviewed. As a consequence, opportunities may have been missed
to address the noncompliance that contributes to the Tax Gap and promote tax system
fairness among the vast majority of taxpayers who properly report and pay their taxes
year in and year out.

TIGTA identified three factors that likely contributed to its concerns with expanding
audits. First, the IRS strives to keep its audit inventories free of old tax-year returns.
As a result, tax compliance officers seldom expand an audit to a taxpayer’s prior-year
return. Second, case file documentation did not indicate that tax compliance officers
were taking full advantage of the IRS’s internal sources of information when conducting
required filing checks. Third, the IRS’s performance feedback mechanisms were not
always taken advantage of to hold tax compliance officers accountable for the quality of
their filing checks.

As a result, TIGTA recommended that the IRS provide:

   •   Detailed examples to tax compliance officers on when it would be appropriate to
       expand audits to prior and/or subsequent year returns;
   •   Information to tax compliance officers that focuses on using the IRS’s automated
       information systems to enhance the quality of required filing checks; and
   •   Additional guidance to first-line managers to improve feedback provided to tax
       compliance officers on the quality of required filing checks.

IRS management agreed with these recommendations and stated that they plan to take
appropriate corrective actions.
Reference No. 2011-30-084




April 1, 2011 – September 30, 2011                                                Page 25
                                              
                       TIGTA Semiannual         Report to Congress
 

Reducing Processing Time Between Balance Due Notices

The notice stream is the least costly of the IRS’s three-phase approach to collecting
unpaid taxes. While the notice stream collects billions of dollars in delinquent taxes
annually, reducing the time between notices could result in millions more being
collected annually. If the IRS does not effectively pursue collection of unpaid tax
through the notice stream, it could create an unfair burden on the majority of taxpayers
who fully pay their taxes on time.

During FY 2010, the IRS sent approximately 21.9 million balance due notices to
individuals to try to collect approximately $67.9 billion in 11.6 million balance due
modules. More than one-half of the 11.6 million balance due modules that entered the
notice stream were closed as fully paid or an installment agreement was established,
but only 16.5 percent of the total assessment amount was collected. By a wide margin,
the first notice (the Master File notice) closed the most modules, collected the most
money, and generated the most taxpayer responses.

Balance due modules not resolved after the first notice is issued continue in the notice
stream, and the taxpayers receive various sequences of notices. While the statutory
requirement to provide notice of a balance due is met with the Master File notice, the
IRS may send up to three reminder notices. The IRS allows 35 days between notices
for the taxpayer to respond, but TIGTA’s analysis showed that the time between notices
can be reduced to reflect taxpayer response times. As these balance due modules
progress within the notice stream, the probability of collection diminishes. TIGTA
estimated that by reducing the time between notices by seven days, the notice stream
could potentially collect an additional $363 million each year. However, a study
analyzing the impact of reducing the time would be needed to quantify the benefits. In
addition, taxpayers could potentially save $1.8 million each year in interest payments.

TIGTA’s analysis of the 11.6 million balance due modules that entered the notice
stream in FY 2010 also showed that taxpayers with more than one delinquency were
not always consistently treated in the notice stream. As a result, the IRS may not use
collection resources most effectively.

TIGTA recommended that the IRS consider reducing the time between each notice by
seven days and consider establishing a business rule to address taxpayers with more
than one balance due module entering the notice stream at the same time.

IRS management agreed with the recommendations and said that they plan to take
appropriate corrective actions. However, IRS management stated that 35 days
between notices was necessary to process taxpayer inquiries and correspondence.
The report noted that the IRS had controls in place to prevent the next notice from being
sent when taxpayers’ correspondence was being processed.

IRS management also disagreed with the outcome measures, stating that while it may
be appropriate to consider private collection curves when reviewing the IRS’s collection

Page 26                                                   April 1, 2011 – September 30, 2011
 
                              TIGTA Semiannual              Report to Congress



process, the IRS has enforcement tools not available to private industry. It was unclear
why the IRS referred to its enforcement tools because collection rates in private industry
are higher than in the IRS. Further, the IRS’s Office of Research had reported that the
probability of collection diminishes as taxpayers’ balance due accounts age.
Reference No. 2011-30-112

Implementing Health Care and Other Tax Law Changes
Each filing season 18 tests the IRS’s ability to implement tax law changes made by
Congress. Most individuals file their income tax returns and contact the IRS with
questions about specific tax laws or filing procedures during the filing season. Correctly
implementing late tax law changes remains a significant challenge because the IRS
must often act quickly to assess the changes and determine the necessary actions to:

       •   Ensure that all legislated requirements are satisfied;
       •   Create new or revise various tax forms, instructions, and publications;
       •   Revise internal operating procedures; and
       •   Reprogram the major computer systems used for processing returns.

Congress frequently changes tax laws, so some level of change has become a normal
part of the IRS’s operating environment. Although the IRS has generally been able to
adapt and react to tax law changes, new laws do have a major impact on how the IRS
conducts its activities, determines resource requirements, and progresses toward
meeting its strategic goals. While the IRS has recognized the increasing complexity of
tax administration in formulating its strategic plan, it has also acknowledged the
impossibility of predicting with 100 percent accuracy the timing and extent of the impact
of tax law changes. As such, the IRS will continue to face significant challenges in its
efforts to respond quickly, accurately, and effectively to tax law changes.

Planning Efforts for the Implementation of the Affordable Care Act and the Health
Care Reform Legislation

On March 23, 2010, the Patient Protection and Affordable Care Act was signed into law
and later amended on March 30, 2010, by the Health Care and Education Reconciliation
Act (hereafter referred to together as the Affordable Care Act). It contains significant
changes to the Nation’s health-care system.

Modernization and Information Technology Services organization

The IRS’s Modernization and Information Technology Services (MITS) organization was
effectively planning the information technology work needed to implement the Affordable
Care Act. The information technology work needed to implement the Affordable Care
Act provisions will assist in providing taxpayers with the subsidies and tax credits needed
to cover the cost of their health-care coverage as well as provide the capability to

18
     The period from January 1 through April 15 is when most individual income tax returns are filed.

April 1, 2011 – September 30, 2011                                                                 Page 27
                                                        
                       TIGTA Semiannual          Report to Congress
 

administer multiple tax provisions designed to raise revenue to offset the cost of health-
care reform.

The MITS organization planned an effective approach to address the information
technology work needed to implement the Affordable Care Act provisions. For example,
it determined the Affordable Care Act’s impact on its organization, created a new
organization called the Associate Chief Information Officer Affordable Care
Act – Program Management Office, and obtained staffing and funding. A Program
Governance Board Charter was approved and a governance plan was prepared.
However, the governance plan did not include escalation procedures for unresolved
issues or critical decisions.

Therefore, TIGTA recommended that the IRS ensure that the MITS organization’s
Affordable Care Act – Program Management Office governance plan is updated to
include escalation procedures to timely address unresolved issues and critical
decisions.

IRS management agreed with the recommendation and stated that they plan to take
appropriate corrective action.

Tax Exempt and Government Entities Division

The IRS’s Tax Exempt and Government Entities (TE/GE) Division had also completed
most of its initial planning activities for the Affordable Care Act and was working on
implementation activities. TIGTA did not identify any concerns relating to the
methodology that the TE/GE Division used to monitor and coordinate its planning
efforts. Effective planning was critical to ensuring the TE/GE Division’s readiness to
implement this legislation.

The TE/GE Division established an internal Executive Steering Committee and five
implementation teams to oversee the planning for the Affordable Care Act. Team
meetings were held on a monthly basis to discuss progress, issues were identified,
and actions were planned. Significant action items and progress were also
documented in a consolidated monthly status report. The TE/GE Division had
completed most of its initial planning activities and was working on implementation
activities for the Affordable Care Act provisions that went into effect in Tax Year
2010.

TIGTA made no recommendations in this report. IRS management reviewed the report
before it was issued and offered clarifying comments and suggestions, which have
been taken into account.
Reference Nos. 2011-20-105 and 2011-10-085




Page 28                                                    April 1, 2011 – September 30, 2011
 
                         TIGTA Semiannual        Report to Congress



Taxpayers Filing Tanning Excise Tax Returns

The legislation signed into law in March 2010 contains revenue provisions anticipated to
generate $438 billion in the form of new taxes, fees, and penalties. One of these new
taxes is an excise tax on indoor tanning services (tanning tax) which became effective
on July 1, 2010, and is 10 percent of the amount paid for tanning services. The tax is
paid by the person receiving the service and is collected by the service provider. The
tanning tax is due and payable quarterly.

The IRS developed an outreach plan, updated the excise tax form and instructions, and
made preparations for receiving and processing tax returns with the tax. In addition, the
IRS developed a plan for dealing with noncompliance, including initiating audits and
issuing notices to taxpayers who may potentially owe the tax.

The number of taxpayers filing tanning services excise tax returns was much lower than
expected. According to IRS documents, in April 2010, the Indoor Tanning Association
estimated that 25,000 businesses were providing indoor tanning services. However, the
actual number of businesses liable for the tax had been difficult to determine with any
degree of accuracy. Identifying these businesses was one of the more challenging tasks
the IRS faced when implementing this provision. For the first three applicable quarters,
the number of Federal excise tax forms reporting tanning taxes averaged approximately
10,300.

The IRS could have taken more timely actions to contact tanning businesses who may
have owed the tax. By the time the notices were issued, tanning excise tax returns had
been due for three quarters. Late filing of these returns results in the taxpayer owing the
unpaid tax, plus interest and penalties. In addition, the information used to identify these
businesses appeared incomplete. Furthermore, TIGTA advised the IRS that the notice
did not contain some pertinent information, which the IRS added before mailing the
notices. Finally, the publication containing information about excise tax requirements
was not updated until more than a year had passed since the provision became
effective.

TIGTA recommended that the IRS:

   •   Perform further analyses of the data sources used, including records with
       incomplete address information, to determine whether a large number of tanning
       businesses were not identified;
   •   Monitor the results from the notice mailing to determine whether additional data
       sources are warranted; and
   •   Update the excise tax publication to include tanning tax information.

IRS management agreed with these recommendations and stated that they have taken
or plan to take appropriate corrective actions.
Reference No. 2011-40-115


April 1, 2011 – September 30, 2011                                                 Page 29
                                              
                          TIGTA Semiannual            Report to Congress
 

Providing Quality Taxpayer Service Operations
In July 2005, Congress requested that the IRS develop a five-year plan, which included
an outline of how the IRS would improve the service that it provides to taxpayers as well
as a detailed list of which services it should provide. The IRS developed the Taxpayer
Assistance Blueprint which focuses primarily on services that support the needs of
taxpayers who file or should file the Form 1040 series tax returns. 19 The Blueprint
includes performance measures, service improvement initiatives, and an implementation
strategy for improving future service investment decisions. The IRS has begun
implementing the Blueprint, but much of its implementation depends on the availability of
future funding.

The Department of the Treasury and the IRS recognize that the delivery of effective
taxpayer service has a significant impact on voluntary tax compliance. By answering
taxpayers’ questions to assist them in correctly preparing their tax returns, the IRS can
reduce the need to send notices and correspondence when taxpayers make errors.
Taxpayer service also reduces unintentional noncompliance and lessens the need for
future collection activity. The IRS continues to focus on the importance of improving
service by emphasizing it as a main goal in its strategic plan, including seeking
innovative ways to simplify or eliminate processes that unnecessarily burden taxpayers
or government resources.

Quality Responses When Corresponding About Tax Issues

In November 1998, the IRS issued Policy Statement P-6-12 requiring employees to
initiate a response to taxpayer correspondence within 30 calendar days. Although most
responses to taxpayers’ correspondence tested were accurate, they were not timely.
When taxpayers’ issues are not addressed timely, taxpayers receive interim letters.
However, none of the systemically issued interim letters provided taxpayers with any
information specific to their accounts, and the content was not clear regarding what
taxpayers needed to do.

TIGTA conducted two statistical samples and one judgmental sample from three IRS
functions as part of this review. The information gathered showed that most taxpayers
do not receive quality responses to their correspondence. For example:

     •   Of 73 correspondence cases sampled from the Accounts Management function,
         only 14 taxpayers (19 percent) received timely and accurate responses.
     •   Of 48 correspondence cases sampled in the Automated Underreporter Program,
         all 48 taxpayers received accurate responses, but only 27 of 48 taxpayers (56
         percent) received their responses timely.


19
  The Form 1040 series tax returns include any IRS tax forms that begin with “1040” such as the
U.S. Individual Income Tax Return (Form 1040), U.S. Individual Income Tax Return (Form 1040-A), and
Income Tax Return for Single and Joint Filers With No Dependents (Form 1040EZ).

Page 30                                                          April 1, 2011 – September 30, 2011
 
                         TIGTA Semiannual        Report to Congress



   •   Of 73 correspondence cases from the Field Assistance Office, only six taxpayers
       (8 percent) received timely and accurate responses.

In addition, TIGTA found that the IRS did not always send required interim letters that
must be sent to taxpayers if a response cannot be issued within the 30 calendar days.
Also, cases were not properly categorized, suspensed, or linked; and the quality review
process did not ensure the following of all procedures. TIGTA also found that the IRS
was not following Policy Statement P-6-12 guidelines and had not implemented any
measures or processes to monitor and evaluate Policy Statement P-6-12
correspondence to ensure that taxpayers receive timely responses to their
correspondence.

TIGTA recommended that the IRS:

   •   Clarify instructions to ensure that employees follow procedures;
   •   Revisit Policy Statement P-6-12 guidelines to ensure that they reflect the IRS’s
       current procedures and expectations;
   •   Complete the study of the interim letters; and
   •   Update quality review procedures to include a review of correspondence
       category codes and a determination as to whether cases should have been
       suspensed and/or linked.

IRS management generally agreed with these recommendations but did not agree with
the outcome measures claimed in the report, stating the projections were based on
non-representative samples. However, these were random samples from the defined
universe of cases. As such, TIGTA believes that they are representative. The five-year
projections were, in fact, forecasts. This type of forecasting is used by the Federal
Government in many circumstances.
Reference No. 2011-40-058

Problems in the Volunteer Program

The Volunteer Program plays an important role in achieving the IRS’s goal of improving
taxpayer service and facilitating participation in the tax system. It provides no-cost
Federal tax return preparation and electronic filing directed toward underserved
segments of the population of individual taxpayers, including low-income to moderate-
income, elderly, disabled, and Limited-English-Proficient taxpayers. However,
preparing accurate tax returns remains a challenge for the Volunteer Program.

The accuracy rates for tax returns prepared at Volunteer Program sites decreased
sharply from the 2010 Filing Season. Of the 36 tax returns volunteers prepared for
TIGTA auditors, only 14 (39 percent) were prepared correctly. Tax returns were
prepared incorrectly because volunteers did not follow all guidelines. For example,




April 1, 2011 – September 30, 2011                                                Page 31
                                              
                          TIGTA Semiannual              Report to Congress
 

volunteers did not always use the intake sheets 20 correctly. For three of the 22
incorrectly prepared tax returns (14 percent), volunteers knowingly modified the facts
that the auditors presented.

The IRS has implemented an extensive quality review process, but it has limitations and
may not be providing reliable results. Unlike TIGTA’s visits, when auditors pose as
taxpayers and visit a volunteer tax preparation site to have a tax return prepared, during
the IRS’s Quality Statistical Sample Reviews, volunteers are aware that IRS staff are
onsite to review the tax returns that they are preparing.

Current steps and processes do not ensure the integrity of volunteers who have access
to taxpayers’ PII, such as SSNs, driver’s licenses, and home addresses. The IRS does
have a process to help ensure that willful acts of fraud occurring at Volunteer Program
sites can be reported, but improvements are needed.

TIGTA recommended that the IRS:

     •   Evaluate the Quality Statistical Sample Review process to ensure that it is the
         best use of resources;
     •   Include anonymous shopping visits as part of the quality review process;
     •   Improve controls over Volunteer Standards of Conduct (Form 13615);
     •   Develop a process to ensure that all volunteers are following the guidance
         focusing on the integrity of the Volunteer Program and the security of taxpayer
         information;
     •   Revise the Intake/Interview and Quality Review Sheet (Form 13614-C) and the
         1-877-330-1205 telephone line scripts to advise taxpayers on how to obtain
         refund information;
     •   Review the IRS fraud hotline procedures to determine best practices; and
     •   Ensure that telephone and email contacts are effectively controlled.

IRS management agreed with these recommendations and stated that they have taken
or plan to take appropriate corrective actions.
Reference No. 2011-40-094

Human Capital
Human capital is the Federal Government’s most critical asset. At a time when the
Federal Government is preparing for increased retirements and taking on such
challenges as health-care reform, the recruitment of new employees and retention of
existing employees plays a key role in ensuring the maintenance of a quality workforce
capable of meeting the needs of the American public. Like many Federal agencies, the

20
  Beginning with the 2010 Filing Season, the IRS mandated that all Volunteer Program sites that
received grant funding use the Intake/Interview and Quality Review Sheet (Form 13614-C). The Form
13614-C guides volunteer tax return preparers through taxpayer interviews and allows them to gather all
necessary information to prepare accurate tax returns.

Page 32                                                             April 1, 2011 – September 30, 2011
 
                         TIGTA Semiannual        Report to Congress



IRS is faced with the major challenge of replacing existing talent caused by a large
number of retirements expected over the next several years. Of approximately 100,000
employees, including 9,100 managers that the IRS employs, more than half have
reached age 50 and can retire within 10 years. In addition, 39 percent of IRS
executives are already eligible for retirement. Replacing these employees represents a
significant challenge since many possess unique skills and institutional knowledge that
will be difficult to replace.

The IRS’s challenge of having the right people in the right place at the right time is
made more difficult by many complex internal and external factors. The work performed
by IRS employees continually requires greater expertise as tax laws become more
complex, manual systems used to support tax administration become computer-based,
and attempts by taxpayers and tax practitioners to evade compliance with the tax laws
become more sophisticated. The IRS must also compete with other government
agencies and the private industry for the same human resources, which becomes more
complicated as younger generations of employees move between jobs more frequently
than employees in the past. Further, budget constraints, legislative changes, and
economic shifts can create unforeseen challenges for the IRS in addressing its long-
term human capital issues.

Challenges With Attrition and Workload Demands for Revenue Officer Staffing

Revenue officers (RO) have a direct impact on the IRS’s ability to meet its mission by
collecting the appropriate amount of tax due. The IRS’s Small Business/Self-Employed
(SB/SE) Division added 1,515 new ROs during a nine-month period, but it still struggles
to keep pace with attrition and workload. If the IRS does not have a sufficient number of
qualified ROs to collect delinquent taxes, it could create an unfair burden on the majority
of taxpayers who fully pay their taxes on time.

To effectively plan its workforce, an organization must determine the size of the
workforce needed to meet organizational goals and identify gaps between current and
future workforce needs. However, when estimating the staffing levels of ROs, the IRS
does not determine the number needed to address the available workload. Instead, the
IRS bases the RO staffing level primarily on a budget figure. The IRS believes there is
more than enough inventory to justify staffing increases. However, the IRS does not
know when hiring additional ROs will no longer be needed.

The IRS’s FY 2009 budget justification projected that the RO hiring initiative would allow
88,000 additional delinquent account closures, resulting in $333.6 million in additional
revenue for FY 2011. However, the IRS does not compare actual results to the original
projections, as would be consistent with guidance from the OMB. As a result, it is
unknown if the IRS realized all or part of the additional revenue, and the IRS lost an
opportunity to collect information that could help improve future budgets.




April 1, 2011 – September 30, 2011                                                 Page 33
                                              
                        TIGTA Semiannual          Report to Congress
 

TIGTA recommended that the IRS:

    •   Establish rules for optimizing staffing levels for ROs to address Collection’s
        potentially collectible inventory; and
    •   Develop methods to track actual results with projected benefits in future budget
        justifications.

IRS management agreed to review Collection’s workload and resource levels to
improve future resource allocation and staffing decisions. IRS management also stated
that they initiated efforts last year to determine the actual revenue collected from
specific enforcement initiatives proposed in FY 2009. However, this information was not
shared with TIGTA during the review. As a result, TIGTA did not assess whether those
efforts addressed the recommendation.
Reference No. 2011-30-039

Additional Actions Should Be Taken to Better Monitor Hiring Timelines and for
the Administration of Recruitment and Retention Incentives

Hiring Timelines

Human Capital Office management has taken steps to reduce hiring timelines through
system improvements and the use of hiring timeline tools and has created performance
goals and measures for individual steps in the hiring process for all hiring categories.
As a result, the IRS reported that the timelines for hiring employees from outside the
Government for the various single open positions (versus large group hirings)
decreased from 157 calendar days in June 2009 to 130 calendar days for FY 2010.

While improvements had been made, the Human Capital Office management’s
implementation of a new computer system to increase efficiency did not provide easy
access to inventory reports, and hiring timeline tools were not used in all offices to fully
achieve their benefits. Further improvements in these areas could help Human Capital
Office management further reduce hiring timelines to compete for potential employees
with the unique skills needed to replace those who are retiring or leaving for other jobs.

TIGTA recommended that the IRS complete programming for web-based, time-in-
process reports and provide guidance to ensure that Human Capital Office branch
offices understand the use and benefits of tools developed to reduce hiring timelines.

IRS management agreed with the recommendations and has taken or plans to take
appropriate corrective actions.

Recruitment and Retention Incentives

To assist in its workforce planning efforts, the IRS, like other Federal agencies, has the
flexibility to use payment compensation in the form of recruitment and retention
incentives to attract and retain a high-quality workforce. Specifically, the IRS can offer

Page 34                                                     April 1, 2011 – September 30, 2011
 
                          TIGTA Semiannual             Report to Congress



recruitment incentives to attract new employees for positions that are difficult to fill, and
retention incentives to retain employees with unusually high or unique qualifications.

Since FY 2008, IRS management has improved their administration of the use
of recruitment and retention incentives; however, procedures are not adequate to
ensure compliance with all Federal and internal guidelines. Additional improvements
will provide assurance that the IRS uses recruitment and retention incentives effectively
and only in circumstances where they are needed, preventing a potential waste of
Government funds.

TIGTA recommended that the IRS strengthen manual controls to ensure that Federal
and internal guidelines are met, and develop a methodology to assess the impact of the
use of recruitment and retention incentives in helping the IRS to meet its long-term
workforce planning goals.

IRS management agreed with the recommendations and stated that they have taken or
plan to take appropriate corrective actions.
Reference Nos. 2011-10-089 and 2011-10-107

Erroneous and Improper Payments and Credits
As defined by the Improper Payments Information Act of 2002, 21 an improper payment
is any payment that should not have been made or was made in an incorrect amount
(including overpayments and underpayments) under statutory, contractual,
administrative, or other legally applicable requirements. It includes any payment to an
ineligible recipient, any payment for an ineligible service, any duplicate payment,
payments for services not received, and any payment that does not account for credit
for applicable discounts. For the IRS, erroneous and improper payments generally
involve improperly paid refunds, tax return filing fraud, or overpayments to vendors or
contractors.

The Administration has emphasized the importance of reducing improper payments.
In November 2009, the President issued Executive Order 13520, which included a
strategy to reduce improper payments by increasing transparency, holding agencies
accountable and creating strong incentives for compliance. 22 Recently, the Improper
Payments Elimination and Recovery Act of 2010 23 placed additional requirements on
Federal agencies to reduce improper payments.




21
   Pub. L. No. 107-300, 116 Stat. 2350.
22
   Executive Order 13,520, 74 Fed. Reg. 62201 (Nov. 25, 2009).
23
   Pub. L. No. 111-204, 124 Stat. 2224.

April 1, 2011 – September 30, 2011                                                    Page 35
                                                    
                        TIGTA Semiannual         Report to Congress
 

Purchase Card and Fleet Card Programs

Purchase Card Program

From September 1, 2007 through March 31, 2009, the IRS made more than 174,000
purchases totaling more than $80 million using purchase cards. However, the IRS does
not have the necessary controls in place to ensure that:

    •   Improper and abusive purchases do not occur;
    •   Any such transactions are promptly detected; and
    •   Appropriate corrective action is taken.

While some controls were working as intended, overall management controls were not
effective to ensure the appropriate use of IRS purchase cards. TIGTA found violations
of applicable laws and regulations, including purchases made without necessary
approvals and verification of funding, purchases that were potentially split into two or
more transactions to circumvent micro-purchase limits, and purchases made from
improper sources. In addition, the IRS did not have a policy to provide guidance for
establishing an appropriate span of control over the number of purchase cardholders
assigned to approving officials.

Until management controls are effectively strengthened, implemented, and enforced,
the IRS will continue to be at risk for noncompliance with applicable laws and
regulations, and the IRS cannot ensure that improper and abusive purchases do not
occur. In addition, if such purchases do occur, the IRS cannot ensure that the
transactions are promptly detected and that appropriate corrective actions are taken.

TIGTA recommended that the IRS:

    •   Emphasize to cardholders that split-purchase transactions will not be tolerated;
    •   Emphasize the importance of preparing an order log prior to purchase;
    •   Improve oversight reviews by using data analysis techniques to identify potential
        split-purchase transactions;
    •   Expand oversight reviews to include evaluating the requirement for purchasing
        office supplies from contract vendors and preferred sources; and
    •   Develop and implement guidance for determining an appropriate span of control
        for approving officials.

IRS management agreed with these recommendations and stated that they have taken
or plan to take appropriate corrective actions.

Fleet Card Program

Fleet cards are used to purchase fuel and minor vehicle repairs and maintenance
related to fleet vehicles leased by the IRS. The IRS’s SB/SE Division’s Fuel
Compliance Fleet Card Program (Fleet Card Program) lacks sufficient management

Page 36                                                    April 1, 2011 – September 30, 2011
 
                         TIGTA Semiannual        Report to Congress



oversight and internal controls to prevent, detect, and deter waste, fraud, and abuse.
Without adequate internal controls, IRS management risks losing track of the vehicles
and assigned fleet cards. Management also cannot be assured that fuel and repair
charges incurred are only for official business and risks paying for inappropriate vehicle
expenses.

IRS management’s oversight and internal controls over the Fleet Card Program were
not effective and did not ensure that all transactions were appropriate and legitimate.
Although TIGTA did not identify specific transactions indicative of waste, fraud, or abuse
of the fleet cards, TIGTA determined that the SB/SE Division did not retain adequate
documentation to justify that all transactions charged to the fleet cards during the audit
period were appropriate and legitimate.

TIGTA recommended that the IRS develop and implement formal fleet card policies,
procedures, and management controls in compliance with OMB Circular A-123,
Appendix B, Improving the Management of Government Charge Card Programs; the
Standards for Internal Control in the Federal Government; and IRS vehicle inventory
procedures. In addition, these policies should prevent the use of fleet cards for home-
to-work transactions unless authority has been obtained in accordance with Treasury
Directive 74-06 and Federal regulations.

IRS management agreed with these recommendations and stated that they plan to take
appropriate corrective actions.
Reference Nos. 2011-10-075 and 2011-10-125

Erroneous Investment Theft Loss Deductions

Federal law, along with associated regulations, procedures, and rulings, provides
taxpayers with tax relief for investment theft losses. The IRS estimates that more than
19,200 taxpayers filed Tax Year 2008 tax returns claiming a combined total of more
than $8 billion in property income casualty and theft deductions. TIGTA’s review
identified that taxpayers may be erroneously claiming investment theft loss deductions.
Revenue losses associated with potentially erroneous deductions could be substantial.

Based on TIGTA’s review of a statistically valid sample of 140 electronically filed Tax
Year 2008 tax returns on which taxpayers reported an investment theft deduction,
TIGTA estimated that 1,788 of 2,177 taxpayers (82 percent) may have erroneously
claimed deductions totaling more than $697 million, resulting in revenue losses totaling
approximately $41 million. The potential revenue loss estimate was conservative in that
it only represented electronically filed tax returns for one year.

TIGTA recommended that the IRS:

   •   Revise the Form 4684 to include additional information on these deductions; and
   •   Establish a Compliance Initiative Project to measure noncompliance for such
       claims.

April 1, 2011 – September 30, 2011                                                 Page 37
                                              
                            TIGTA Semiannual               Report to Congress
 

IRS management agreed with these recommendations and stated that they plan to take
appropriate corrective actions.
Reference No. 2011-40-124

Taxpayer Protection and Rights
The IRS must ensure that it balances tax compliance activities against the rights of
taxpayers to receive fair and equitable treatment. The IRS continues to dedicate
significant resources and attention to implementing the taxpayers’ rights provisions of
RRA 98. In general, the IRS has improved its compliance with these statutory taxpayer
rights provisions. However, TIGTA audits continue to show that there are
circumstances in which the IRS can better protect taxpayers’ rights.

Appropriate Notification to Some Taxpayers When Personally Identifiable
Information Was Inadvertently Disclosed

Taxpayers need to be assured that the IRS will promptly notify them of inadvertent
disclosures 24 of their PII so they can take the necessary steps to protect themselves
from identity theft or other harm. The IRS has many processes and regulations that
protect taxpayer information, but there are times when taxpayer information is
inadvertently disclosed.

TIGTA reviewed a statistical sample of 98 case files of incidents reported as inadvertent
disclosures in FYs 2009 and 2010, and found that not all taxpayers were properly
and/or, timely notified of disclosures.

     •   Five of 98 incidents (5 percent) were closed and taxpayers were not properly
         notified of the disclosures because IRS employees reporting the disclosures did
         not document the identity of the individuals whose PII had been disclosed.
     •   Ten of 98 incidents (10 percent) were closed and taxpayers were not properly
         notified of the disclosures.
     •   Twenty of the 27 incidents (74 percent) in the 98 incidents sampled that required
         taxpayer notification were not sent timely. TIGTA considered notifications timely
         if taxpayers were sent notifications within 45 days of the date when the incident
         was reported to or identified by the IRS. The notification letters in the sample
         averaged 86 days.



24
   The IRS has many processes and regulations that protect taxpayer information, but there are times
where taxpayer information is inadvertently disclosed. For example, an employee could inadvertently
include Jane Smith’s tax return in an envelope with Mary Smith’s tax return and send it to Mary – thus
inadvertently disclosing Jane’s Personally Identifiable Information to Mary. Alternatively, at the taxpayer’s
request, the IRS could fax a copy of the taxpayer’s tax return but use an incorrect fax number. When
inadvertent disclosures happen and the risk of identity theft or other harm is likely, taxpayers need to be
assured that the IRS will promptly notify them so they can take the necessary steps to protect themselves
from identity theft or other harm.

Page 38                                                                April 1, 2011 – September 30, 2011
 
                              TIGTA Semiannual              Report to Congress



In addition, TIGTA’s reconciliations performed on the four systems the IRS uses to
capture disclosure-incident-related information identified 815 missing incident reports. 25
As a result, TIGTA recommended that the IRS:

      •   Educate employees on the importance of obtaining sufficient information on
          individuals whose PII was disclosed;
      •   Revise procedures to include tax account information in the PII definition and
          instruct the Incident Management Program to forward disclosure incidents to the
          IRS’s Identity Theft Program for victims of identity theft;
      •   Implement a timeliness measure that includes the time the incident is processed
          by other IRS offices or functions before it is reported to the Computer Security
          Incident Response Center; and
      •   Implement sufficient controls, including a management information system, to
          ensure that all incidents are accurately documented and considered.

IRS management agreed with these recommendations and stated that they have taken
or plan to take appropriate corrective actions.
Reference No. 2011-40-054

Leveraging Data to Improve Program Effectiveness and Reduce Costs
While the IRS has made progress in using its data to improve program effectiveness
and reduce costs, this area continues to be a major challenge. The IRS lacks a
comprehensive, integrated system that provides accurate, relevant, and timely financial
and operating data that can be used to evaluate performance measures, productivity,
and the associated costs of IRS programs. In addition, the IRS cannot produce timely,
accurate, and useful information needed to make day-to-day decisions, hindering its
ability to address financial management and operational issues.

Improvements Are Needed to Control Costs and Improve Building Security With
Outsourced Office Support Services

In November 2006, the IRS awarded a contract with a maximum value of approximately
$90 million to a private contractor to perform support-service functions, including
storage and management, throughout IRS facilities. Overall, TIGTA found that the IRS
expends time and resources storing items it has not clearly determined to be of future
use and has ineffective controls over credentials, such as identification badges issued
to contractor employees. As a result, the IRS may be paying more for its support-
service needs than is necessary and its facilities may be at risk for unauthorized
access.

TIGTA determined that the IRS should take additional steps to ensure that support-
services are managed in a more cost-effective and secure manner. Specifically, the
IRS should evaluate the cost effectiveness of storing rather than disposing furniture

25
     These were disclosure incidents - inadvertent disclosure of taxpayer information.

April 1, 2011 – September 30, 2011                                                       Page 39
                                                         
                        TIGTA Semiannual         Report to Congress
 

and equipment when it has not been clearly determined to be of future use.

In addition, TIGTA determined that controls should be improved to ensure that
contractor employees no longer have access to IRS locations after their separation from
employment. The IRS could not confirm that 116 of the 124 employees (94 percent)
separated from the contractor since the initiation of the contract returned their
identification badges and building access cards as required. As a result, the security of
IRS facilities and Federal Government assets may have been compromised.

TIGTA recommended that the IRS:

    •   Review all items currently in storage to identify items for possible disposal;
    •   Maintain documentation regarding the reason for storage for all future items
        placed into warehouse storage;
    •   Establish criteria to guide future decisions regarding whether items should be
        placed into storage;
    •   Ensure that the IRS retains flexibility to implement potential cost savings
        identified as a result of inventory reviews or changes to storage policies;
    •   Incorporate into existing procedures the required exit procedures regarding
        separating contractor employees; and
    •   Reconcile Contractor Security Lifecycle Program records to a quarterly listing of
        separated employees provided by the support-services contractor.

IRS management agreed with these recommendations and stated that they plan to take
appropriate corrective actions.
Reference No. 2011-10-086




Page 40                                                    April 1, 2011 – September 30, 2011
 
                         TIGTA Semiannual        Report to Congress




  Protect the Integrity of Tax Administration

T
     IGTA is statutorily mandated to protect the integrity of Federal tax administration
     and to provide independent oversight of matters involving IRS activities, the IRS
     Oversight Board, and the IRS Office of Chief Counsel. TIGTA’s Office of
     Investigations (OI) accomplishes this important responsibility by conducting a
comprehensive investigations program. Specific strategies, tools, and techniques
detect waste, fraud, and abuse while protecting the integrity of the Federal tax system,
as well as the IRS’s ability to collect trillions of dollars in revenue each year for the
Federal Government.

                             Performance Model




As illustrated above, OI uses a performance model to measure its effectiveness, guide
activities, and demonstrate its accomplishments to stakeholders. This performance
model clearly identifies the three primary areas of OI’s investigative focus: employee
integrity; employee and infrastructure security; and external attempts to corrupt tax
administration. The outer triangles further identify the components of each investigative
area. The model is a valuable tool that allows OI to strategically focus its activities
around its core mission. In addition to quantifying productivity, the model also produces
reliable data for determining other organizational needs, such as budget, training, and
human capital. It also helps OI management define strategic goals and develop

April 1, 2011 – September 30, 2011                                                 Page 41
                                              
                          TIGTA Semiannual         Report to Congress
 

innovative investigative initiatives. The performance model workload distribution graph
below illustrates the balance of work for FYs 2009, 2010, and 2011.


                     Performance Model Workload
                             Distribution
                            FYs 2009-2011
     60                                                                     Employee 
                                                                            Integrity
     50                                            52%
             50%
                                 47%                                        Employee & 
     40
                                                                            Infrastructure 
     30                                37%                                  Security
                   30%                                   31%                External Attempts
     20
                         20%
                                             16%               17%
     10

      0
              FY2009               FY2010            FY2011


Through the use of this performance measure, OI executives and senior managers are
able to set and adjust goals for each field division while considering the operational
conditions unique to each specific field division. Each field division contributes its
individual performance results to the organization's overall goals, allowing each
employee within that division to play an integral part in the agency's overall success.

During this reporting period, OI processed 4,748 complaints and opened 1,800
investigations. OI’s casework also resulted in 1,956 closed investigations.




Page 42                                                        April 1, 2011 – September 30, 2011
 
                            TIGTA Semiannual             Report to Congress



Employee Integrity Investigations
Employee misconduct undermines the
IRS’s ability to deliver taxpayer service, to              Integrity/Fraud Awareness
enforce tax laws effectively, and to collect
taxes owed. Many of OI’s criminal and                      To heighten integrity
administrative investigations are based on                 awareness and to provide a
allegations or information indicating that                 deterrent effect against waste,
IRS employees have engaged in                              fraud, abuse and misconduct,
misconduct. Misconduct by IRS                              TIGTA conducts integrity
employees manifests itself in a variety of                 awareness presentations for
ways, including extortion, bribery, theft,                 IRS employees. These
taxpayer abuses, false statements, and                     outreach initiatives by OI have
financial fraud. OI’s strategies to promote                proven to be very effective in
employee integrity include both proactive                  producing positive results and
                                                           are an integral part of its
and reactive investigative programs
                                                           operational strategy. The
designed to achieve high-impact, results-                  outreach allows TIGTA to
oriented quality investigations. As                        educate and have contact with
illustrated in the performance model                       large segments of the IRS
workload distribution graph, 52 percent of                 workforce regarding the
TIGTA’s current investigations involve                     prevention of fraud in the tax
alleged employee misconduct.                               system. During this reporting
                                                           period, TIGTA provided
The following cases are examples of                        presentations to more than
employee integrity investigations                          18,115 IRS employees.
conducted during this reporting period:

IRS Revenue Officer Pled Guilty to
Stealing Approximately $160,000 in
Taxpayer Funds

On June 24, 2011, in New York, Fern Stephens, an IRS Revenue Officer, pled guilty to
one count of mail fraud. 26 Stephens was employed by the IRS from January 9, 1984
through December 2010. 27

As a Revenue Officer, Stephens was responsible for collecting taxes from individuals
and corporations. As a condition of employment, Stephens was required to sign an
annual certification stating that she would not access tax records in IRS databases
other than in connection with her official duties.

From March 2003 through November 2010, Stephens used her official position to steal
taxpayer funds held by the IRS by devising a scheme involving an IRS database.
Stephens made false computer entries that documented purported requests to transfer

26
     S.D.N.Y. Crim. Docket Minute Entry dated June 27, 2011.
27
     S.D.N.Y. Indict. filed Dec.13, 2010.

April 1, 2011 – September 30, 2011                                                           Page 43
                                                      
                             TIGTA Semiannual   Report to Congress
 

corporate or business-entity tax refunds or payments. Because of Stephens’ actions,
the IRS issued checks, wires, and credits to Stephens’ relatives and close associates.
Stephens caused about 20 fraudulent credit transfers, from approximately 14 taxpayer
victims, to be sent to eight of her relatives or close associates. 28

Monica Hernandez Indicted for Making and Subscribing a False Income Tax
Return, Wire Fraud, and Aggravated Identity Theft

On April 14, 2011, in California, Monica Hernandez was indicted on three counts of
making and subscribing a false income tax return, six counts of wire fraud, and one
count of aggravated identity theft.

Hernandez was an employee of the IRS and worked as a part-time data entry clerk. 29
As part of her duties, Hernandez entered taxpayers’ information into the IRS’s computer
system.

During the course of her employment with the IRS, Hernandez stole and/or
misappropriated taxpayers’ information listed on various IRS forms, including Form
1099-B (Proceeds From Broker and Barter Exchange Transactions). This particular
form lists a taxpayer’s income received and withholdings withheld from interest and
dividend earnings. Hernandez falsified and forged Forms 1099-B to reflect her own
personal information. Although, in most cases, Hernandez did not submit the falsified
1099-B forms with her own tax returns, she used these forms to obtain large tax
refunds. As a result of her fraud, Hernandez was able to obtain refunds from the IRS in
the amount of $175,144. 30

From about February 2010 until June 2010, Hernandez used another scheme to
defraud the IRS. She filed a new series of fraudulent tax returns, similar to the ones
she filed for herself claiming excessive withholdings. This time, Hernandez used other
individuals’ personal information, instead of her own, to obtain large refunds. She
acquired taxpayers’ personal information from Internet websites. Some of the taxpayers
whose identities Hernandez used to file the tax returns were deceased at the time the
returns were filed. In addition, Hernandez filed false tax returns using a relative’s
information and opened a bank account in the relative’s name in order to deposit the
refund check obtained from the false return. 31

Hernandez illegally acquired and removed from an IRS Service Center 68 separate
taxpayers returns. These returns were received by the IRS but had not been entered
into the IRS’s computer system. After illegally removing these tax returns from the IRS,
Hernandez proceeded to electronically file the fraudulent tax returns for her own benefit
by using the identification of some of these taxpayers. These returns were filed from
California to IRS locations throughout the United States. Any refunds generated from

28
   S.D.N.Y. Indict. filed Dec.13, 2010.
29
   E.D. Cal. Indict. filed Apr. 14, 2011.
30
   Id.
31
   Id.

Page 44                                                   April 1, 2011 – September 30, 2011
 
                         TIGTA Semiannual             Report to Congress



these fraudulent returns were generated outside of California and transferred across
State lines and eventually back to California. 32

Roxane Posada Sentenced for Theft of Public Money

On May 19, 2011, in California, Roxane Posada, an IRS employee, was sentenced for
theft of Government funds. She was sentenced to serve three years of supervised
probation and ordered to pay $4,995 in restitution to the IRS. Posada was also ordered
to perform 250 hours of community service and to pay a $25 special assessment. 33

On about January 4, 2009, and November 5, 2010, Posada stole money while serving
as an IRS Human Resource Specialist. Posada knowingly and willfully falsified her time
records and received unearned compensation in the amount of $4,995. 34

Gina Browning Sentenced for Theft of Internal Revenue Funds

On May 27, 2011, in Rhode Island, Gina Browning was sentenced on one count of
stealing Government funds. She was ordered to pay a $5,000 fine, restitution in the
amount of $423, and a $25 assessment. 35

According to court documents, Browning, while serving as an IRS employee, filed
activity reports in which she falsely claimed to have performed work. Browning falsely
claimed a total of $423 in reimbursable expenses to which she was not entitled. 36

Patricia Serbera-Robledo Sentenced for Conspiracy to Defraud the United States

On July 22, 2011, in California, Patricia Serbera-Robledo was sentenced on one count
of conspiracy to defraud the United States. She was sentenced to serve 36 months of
probation. She was also ordered to pay $13,167 in restitution and a $100
assessment. 37

From March 2005 through June 2007, Abel Robledo, who was incarcerated at the
Corcoran State Prison, and Patricia Serbera-Robledo, who was employed by the IRS,
conspired to defraud the United States by preparing and submitting or causing to be
submitted individual Federal tax returns to the IRS in the names of prisoners. These
returns contained false and fictitious information. The income tax returns also claimed
false wage and withholding amounts based on purported hourly earnings by the
prisoners at the State minimum wage or higher, and claimed false Federal income tax
32
   E.D. Cal. Indict. filed Apr. 14, 2011.
33
   E.D. Cal. Sentencing Doc. filed May 19, 2011.
34
   E.D. Cal. Plea Agr. filed Apr. 29, 2011.
35
   D.R.I. Crim. J. filed May 27, 2011.
36
   D.R.I. Plea Agr. filed Mar. 15, 2011. There is a minor discrepancy between the Plea Agreement and
the Criminal Judgment. The Plea Agreement specifies that Ms. Browning made false claims for
reimbursable expenses in the amount of $423. The Criminal Judgment, however, orders Ms. Browning to
pay $423 in restitution.
37
   E.D. Cal. J. filed July 28, 2011.

April 1, 2011 – September 30, 2011                                                         Page 45
                                                   
                          TIGTA Semiannual              Report to Congress
 

withholdings that did not exist. Once Abel Robledo, Patricia Serbera-Robledo and
others received the fraudulent tax refund checks, they presented them to the IRS for
payment. The IRS issued tax refunds totaling over $13,000 based on these fraudulent
income tax returns. 38

IRS Employee Sentenced for Embezzlement and Theft

On August 31, 2011, in Ohio, Vonda Edmonds was sentenced on one count of
embezzlement and theft. She was sentenced to serve two years of probation, and
ordered to pay $3,915 in restitution and a $100 special assessment. 39

From about September 27, 2005 until about October 27, 2005, in the Southern District
of Ohio, Edmonds, an employee of the IRS, embezzled taxpayers’ payments to the IRS
in the amount of $3,915. 40

Strategic Data Services Division

The protection of confidential taxpayer information is of critical importance to
America’s taxpayers. Unauthorized access (UNAX) of tax information undermines
the taxpaying public’s trust in IRS to safeguard confidential tax information in its
custody.

The Strategic Data Services Division (SDS), formerly known as the Strategic
Enforcement and Data Integrity Division, has a unique mission in not only
supporting OI, but also supporting the data and information needs of TIGTA’s
Office of Audit and Office of Inspections and Evaluations. The SDS group is
responsible for identifying possible fraudulent activities and control weaknesses in
IRS operations, including detecting potentially unauthorized accesses to electronic
taxpayer records maintained within IRS computer systems.

As an integral part of OI’s employee integrity program, SDS proactively identifies
IRS employees who access and/or disclose private taxpayer information. IRS
employees who are found to have committed UNAX violations are subject to
Federal prosecution, termination of employment, or other disciplinary action. OI
initiated 234 UNAX investigations between April 1, 2011 and September 30, 2011.

The following cases are examples of UNAX investigations conducted during this
period:




38
   E.D. Cal. Indict. filed Nov.18, 2010.
39
   S.D. Ohio Crim. Sentencing Minutes filed Aug. 31, 2011.
40
   S.D. Ohio Indict. filed Oct. 5, 2010.

Page 46                                                          April 1, 2011 – September 30, 2011
 
                           TIGTA Semiannual               Report to Congress



Vandetta Y. Logan Sentenced for the Unauthorized Inspection of Return
Information

On April 22, 2011, in Michigan, Vandetta Y. Logan pled guilty to one count of
unauthorized inspection of return information. She was sentenced to two years of
probation and ordered to pay a $25 assessment. 41

According to court documents, Logan worked as an Individual Taxpayer Advisory
Specialist for the IRS in Saginaw, Michigan. On December 17, 2009, Logan
inspected her brother’s Federal tax account without authorization. 42

IRS Employee Cheryl Nelson Sentenced for Unauthorized Access of Federal
Taxpayer Information

On June 2, 2011, in Pennsylvania, Cheryl Nelson pled guilty to one count of exceeding
authorized access on a government computer. Nelson was sentenced to 12 months of
probation and ordered to pay a $500 fine and a $25 assessment. 43

According to court documents, on or about February 16, 2006, Nelson, an IRS
employee, intentionally accessed a protected computer without authorization and
exceeded her authorized access by obtaining information about a taxpayer. 44

IRS Employee Sentenced for Unauthorized Access of Federal Tax Information

On June 2, 2011, in California, Alice Rodriguez was sentenced on one count of
unauthorized computer access. She was ordered to perform 75 hours of community
service, to serve one year of probation, and to pay a $750 fine and a $25 assessment. 45

According to court documents, on or about April 21, 2010, Rodriguez, while serving as
an IRS employee, intentionally accessed electronically stored Federal tax information
on the IRS’s electronic system. Rodriguez was not authorized to access this
information. 46




41
   E.D. Mich. J. filed Apr. 22, 2011.
42
   E.D. Mich. Plea Agr. filed Jan. 13, 2011; E.D. Mich. Crim. Compl. filed Nov. 5, 2010.
43
   E.D. Pa. J. filed June 2, 2011.
44
   E.D. Pa. Info. filed Feb. 10, 2011.
45
   E.D. Cal. J. filed June 2, 2011.
46
   E.D. Cal. Plea Agr. filed May 26, 2011.

April 1, 2011 – September 30, 2011                                                         Page 47
                                                       
                        TIGTA Semiannual          Report to Congress
 

Employee and Infrastructure Security
TIGTA is committed to protecting
approximately 100,000 IRS employees and
more than 700 facilities throughout the
country. IRS employees are entrusted with
                                                             IRS SECURITY
promoting tax compliance and enforcing the
tax code. With those responsibilities come             Historically, IRS buildings
challenges and potential dangers.                      and operations have been
                                                       targets of those who
Office of Investigations continued to enhance          advocate violence against
its method for categorizing and prioritizing           the Federal Government.
threats against IRS employees, facilities, and         Since TIGTA has the
critical infrastructure by refining                    statutory responsibility to
communications between OI and IRS senior               investigate threats to IRS
management. OI and IRS strengthened                    personnel and facilities, it
partnerships to effectively mitigate current and       dedicates significant
                                                       attention to detecting and
future threats directed against the IRS and its
                                                       investigating threats from
employees. For example, OI enhanced its                both foreign and domestic
partnerships with the IRS Office of Physical           sources. Since the
Security and Emergency Preparedness, the               beginning of FY 2011, OI
Office of Online Fraud Detection and                   has investigated 1,416 threat
Prevention, the Situational Awareness                  related incidents.
Management Center, the Office of Privacy, the
Computer Security Incident Response Center,
and the Treasury Operations Center, to
become a more cohesive threat mitigation
team. As a result, the IRS Threat Information
and Critical Incident Response Initiative (TIRC) emerged and has proven to be an
effective mechanism to review and disseminate threat information to IRS stakeholders
in support of TIGTA’s critical employee-safety mission. The TIRC serves as a central
focal point for the timely and efficient sharing of threat information, thereby allowing the
IRS to take appropriate mitigation actions.

When performing their official duties, IRS employees routinely interact with taxpayers.
Contact with taxpayers can become stressful or confrontational and possibly result in
violence. On May 2, 2011, OI assumed the sole responsibility for all armed escorts of
IRS employees to ensure that IRS employees are able to safely perform their jobs
without fear of physical attack. This was once a shared responsibility with the IRS
Criminal Investigation. The number of armed escorts OI provided for FY 2011
increased 159 percent since FY 2010.

Effective August 1, 2011, OI, in collaboration with the IRS Office of Employee Protection
(OEP), improved the strategies used for assessing ongoing risks that taxpayers may
pose to IRS employees and strengthened the IRS’s Potentially Dangerous Taxpayer
(PDT) program. The PDT program helps the IRS identify taxpayers who present a

Page 48                                                     April 1, 2011 – September 30, 2011
 
                             TIGTA Semiannual             Report to Congress



potential danger to employees attempting to perform their official duties. Additionally,
the Caution Upon Contact (CAU) designation was put in place to identify taxpayers who
did not reach the PDT threshold, but warranted caution upon contact by IRS employees.
OI referred 807 cases to OEP during this reporting period which resulted in 575 of the
cases reviewed receiving PDT or CAU designations.

OEP is responsible for the overall operation, management, and oversight of the PDT
and CAU programs. As part of the new strategy, OI initiates follow-up investigations to
reassess a taxpayer’s ongoing potential to endanger IRS employees and reports results
of OI’s threat and assault investigations to OEP for renewal determination.

To further support OI’s proactive threat investigative function, particularly relating to
emerging anti-tax and anti-government groups, OI has a full-time presence at the
Federal Bureau of Investigation’s (FBI) National Joint Terrorism Task Force and the
Domestic Terrorism Operations Unit. These representatives serve as OI’s national
criminal intelligence coordinators for all threat information developed by the FBI and
other law enforcement officials within the task force which has the potential to directly
impact IRS personnel, facilities, or critical infrastructure.

Moreover, the Internet remains a convenient and easily accessible avenue for the public
to vent their frustration or anger against the IRS. For example, following the tragic event
in February 2010, when an individual flew his aircraft into an IRS building in Austin,
Texas and killed himself and an IRS employee, OI observed an increase in hostile and
threatening comments towards the IRS in online message boards and various other
Internet-based forums. As a result of this increase in Internet activity, OI’s investigative
inventory also increased to address these emerging potential threats to the IRS.

The following cases are examples of employee and infrastructure security investigations
conducted during this period:

Michael Higginbotham Sentenced for Assaulting a Federal Agent With a Deadly
Weapon and Using a Firearm in the Commission of a Crime of Violence

On June 22, 2011, in California, Michael Higginbotham was sentenced on one count of
assault on a Federal officer with a deadly weapon. He was sentenced to serve a term
of five years in Federal prison and a subsequent term of three years of supervised
Federal probation upon his release. He was also ordered to pay a mandatory special
assessment fine of $100. In addition, Higginbotham was ordered to perform 20 hours of
community service per week as directed by the United States Probation Office when he
is not employed at least part-time and/or enrolled in an educational or vocational
program. 47

On about August 4, 2010, Higginbotham, with another individual brandished a 12-gauge
shotgun and intentionally used force to commit an assault on an IRS Criminal

47
     N.D. Cal. Sentencing Doc. filed June 22, 2011.

April 1, 2011 – September 30, 2011                                                  Page 49
                                                       
                           TIGTA Semiannual             Report to Congress
 

Investigation special agent while the agent was engaged in the performance of official
duties. Higginbotham knowingly used, carried, and brandished the firearm during and in
relation to a crime of violence, in violation of Federal law. 48

Aaron Johnson Sentenced for Threatening to Damage an IRS Facility

On July 13, 2011, in Missouri, Aaron Johnson pled guilty to one count of threatened use
of explosives. He was sentenced to time served, two years of supervised release, and
ordered to pay a $100 assessment. 49

According to court documents, on April 14, 2010, Johnson called a facility managed by
the IRS in St. Louis, Missouri, and threatened to “blow up” the facility. Johnson
admitted that he willfully made the threat by using a mobile telephone. 50

Don Asheim Pled Guilty for Mailing a White Powdery Substance Accompanied by
Hostile Statements to the IRS

On June 10, 2011, in Illinois, Don Asheim pled guilty to engaging in conduct in violation
of Federal law. 51

According to court documents, on about April 30, 2010, Asheim placed a white powdery
substance in an envelope addressed to the attention of a specific individual at the IRS.
Enclosed in that same envelope was Asheim’s tax bill, which he altered to remove his
personally identifiable information in an attempt to conceal his identity. Asheim also
wrote various hostile and profane statements on the tax bill and placed it in outgoing
mail. 52

Carole Cotton Pled Guilty to Assault on a TIGTA Special Agent

On August 10, 2011, in Florida, Carole Cotton pled guilty to one count of assault on a
Federal Officer. 53

On May 12, 2011, Cotton telephoned the IRS regarding a collection letter she received.
During the phone call, Cotton threatened to shoot anyone who stepped onto her
property. 54

On May 18, 2011, a TIGTA special agent went to Cotton’s residence to question her
about the telephone statement that she made. The TIGTA special agent identified
himself as a Federal agent with the Department of the Treasury. Cotton responded,

48
   N.D. Cal. Plea Agr. filed Mar. 23, 2011.
49
   E.D. Mo. J. filed July 13, 2011.
50
   E.D. Mo. Plea Agr. filed Apr. 19, 2011.
51
   C.D. Ill. Minute Docket Entry dated June 13, 2011.
52
   C.D. Ill. Indict. filed Oct. 19, 2010.
53
   S.D. Fla. Plea Agr. filed Aug. 11, 2011.
54
   S.D. Fla. Crim. Compl. filed May 19, 2011.

Page 50                                                          April 1, 2011 – September 30, 2011
 
                           TIGTA Semiannual                 Report to Congress



“hold on let me go get my gun.” She then turned to reenter her home. Cotton was then
restrained until she calmed down. She was later allowed back into her home
accompanied by TIGTA agents. However, once she entered her home, Cotton went to a
cabinet and removed a golf club and threw the golf club at the agent. Cotton was then
taken into custody. 55

Lonnie and Karen Vernon Indicted for Conspiracy to Kill a Federal Judge and IRS
Employee

On March 17, 2011, in Alaska, Lonnie and Karen Vernon (“The Vernons”) were indicted
for multiple counts of various Federal offenses, including conspiracy to kill a United
States District Court Judge and an employee of the IRS, while such officer and
employee were engaged in the performance of their official duties. 56

According to the indictment, in July 2009, the United States filed a civil tax case against
the Vernons alleging that they owed $118,000, as a result of failing to pay taxes to the
IRS over the course of several years. The Vernons filed a counterclaim against the
United States as part of their civil tax case. In response, the Federal District Court
issued an order granting the United States’ motion and dismissed the Vernons’
counterclaim. In that order, the District Court also advised the Vernons of a possible
foreclosure sale of their property to satisfy the tax due to the IRS. 57

Between February 4 and March 10, 2011, the Vernons committed numerous overt acts
in furtherance of the conspiracy, including expressing a continued interest in purchasing
a silencer and hand grenades. Lonnie Vernon stated that he planned to use the
silencer to kill an IRS employee. The Vernons offered to trade Karen Vernon’s jewelry
in exchange for the grenades. The Vernons also purchased and received a pistol
equipped with a silencer and received three hand grenades, not knowing at the time
that they were inert. 58

External Attempts to Corrupt Tax Administration
TIGTA’s statutory law enforcement mandate requires investigating external attempts to
corrupt or interfere with the administration of Internal Revenue laws. External attempts
to corrupt tax administration impede the IRS’s ability to collect revenue and undermine
the public’s confidence in fair and effective tax administration. Examples of these
investigations include bribes offered by taxpayers to compromise the integrity of IRS
employees, the use of fraudulent IRS documents to commit crimes, impersonation of
IRS officials, and corruption of IRS programs through procurement fraud.

On October 1, 2010, OI made an organizational change that created the Procurement
Fraud Division (PFD). Previously, procurement fraud was investigated by a smaller
55
   S.D. Fla. Crim. Compl. filed May 19, 2011.
56
   D. Alaska Superseding Indict. filed Mar. 17, 2011.
57
   Id.
58
   Id.

April 1, 2011 – September 30, 2011                                                 Page 51
                                                         
                             TIGTA Semiannual        Report to Congress
 

group housed within a larger division. The organizational change represents an
increased focus and desire to expand the program’s capabilities and reach. During this
reporting period, the PFD conducted comprehensive investigations involving corruption
and fraud within IRS’s procurements, while promoting fraud awareness within the IRS
procurement community.

The PFD continued its collaborative efforts with TIGTA’s Office of Audit (OA) in
furtherance of its FY 2011 strategic initiatives. These initiatives promote enhanced
communications with TIGTA’s OA to help identify contract fraud indicators. Strategies
such as employing the use of advanced data mining techniques and fraud indicator
training, augment the efforts of this strategic alliance and maximize resources dedicated
to protecting the interest of American taxpayers.

The PFD proactively developed a pilot program that will increase its presence at IRS
Regional Procurement Centers. The PFD mission will extend to the field divisions,
where half of all contracting activities occur, by developing and transitioning seasoned
field agents to effectively work procurement fraud investigations at the local level. The
intended result is better communication with IRS procurement staff, closer exposure to
the procurement process, and the ability to respond more quickly to procurement fraud
indicators in the field.

In addition, to increase visibility and promote fraud awareness within the procurement
community, the PFD recently created an innovative quarterly newsletter that was
targeted toward and distributed to over 3,000 IRS procurement staff employees during
this reporting period. The PFD continues to successfully pursue high-impact cases
which have resulted in large monetary recoveries. For example, in FY 2011 the PFD’s
investigations resulted in over $49 million in monetary recoveries for the United States
Government.

The following cases are examples of procurement fraud investigative work performed
during the reporting period:

Default Judgment was Approved Under the Civil False Claims Act Against
Controlled Quality Corporation of Maryland

On June 23, 2011, in the District of Columbia, a Default Judgment was approved under
the Civil False Claims Act against Controlled Quality Corporation (CQC) of Maryland.
CQC provided printing services to the IRS related to IRS Service Center newsletters. 59

CQC submitted false invoices of over $1 million on an IRS printing contract. These
transactions involved the Government Printing Office (GPO) located in Washington,
D.C., and payments were made with United States funds. Keith Slade was the owner of



59
     Bankr. D.D.C. Default J. filed June 23, 2011.

Page 52                                                       April 1, 2011 – September 30, 2011
 
                            TIGTA Semiannual               Report to Congress



CQC, a defunct company that was privately held by Slade and formerly located in
Bethesda, Maryland. 60

The GPO contracts with vendors in a variety of A 17-M Programs. 61 One A 17-M
Program allows for the procurement of color-copying/duplicating services as
requisitioned from the GPO by various government departments and agencies through
a multiple vendor listing. This program allows government agencies the opportunity to
select a vendor from the agreement and allows for a streamlined method of procuring
short-run, quick turnaround. Quantities ordered with the GPO program ranged from one
to three thousand copies per order or larger. Vendor billing by the contract would be set
by a schedule of prices submitted by each participating vendor. CQC was one of the
vendors and had been a participant in the GPO A 17-M vendor program since 2001.

On June 9, 2001, CQC entered into an agreement with GPO to prepare and duplicate
various documents for government “customer agencies” in the A 17-M Program. The
IRS was one of those customer agencies. According to the terms of the contract, CQC
stated the company had its own equipment, would not subcontract the work, and would
be paid a fixed price per leaf 62 as specified in the “Schedule of Prices” CQC agreed to
in the A 17-M Program. The invoices contained inflated prices and 100 percent of the
work was performed by subcontractors. However, CQC prepared and certified
vouchers for payment attesting that they alone had prepared and performed the work.
The Federal Government paid CQC approximately $499,782, while CQC paid their
subcontractor approximately $61,678 for the work performed. The defendants are liable
for approximately $1,499,346 (3 x $499,782), plus a penalty of up to $11,000 for each of
the 28 false claims ($308,000) that were submitted to the Federal Government. 63

Darlene Mathis-Gardner Sentenced for Participating in a Conspiracy to Defraud
the United States and Making False Claims on a Government Contract

On July 13, 2011, in Washington, D.C., Darlene Mathis-Gardner was sentenced for
participating in a conspiracy to defraud the United States and for providing false
information and documents to U.S. General Services Administration (GSA) contracting
officers to obtain an award of a contract. She was sentenced to 18 months
imprisonment, 36 months of probation, and ordered to pay $389,738 in restitution to
Immigration and Customs Enforcement. 64

According to court documents, Mathis-Gardner learned of a GSA contract solicitation for
certain interior design and project management services. From about March 2007 until
60
   D.D.C. Civil Compl. filed Oct. 31, 2007.
61
   The A 17-M is a GPO contract. The A 17-M contract specifies that the contractor will be subject to all of
the provisions, specifications, etc. of GPO Publication 310.1 and 310.2, which prohibit the subcontracting
of the “predominant function” of the contract. The contract identifies the scope of the specifications, or
the predominant function, to be copying and duplicating work.
62
   A “leaf” is an 11” x 17” sheet of paper that is folded and stitched together to create multiple pages (4 -
8.5” x 11”) of a newsletter or other publication.
63
   D.D.C. Civil Compl. filed Oct. 31, 2007.
64
   Department of Justice Press Release dated July 31, 2011.

April 1, 2011 – September 30, 2011                                                                 Page 53
                                                       
                           TIGTA Semiannual        Report to Congress
 

June 2007, Mathis-Gardner conspired and agreed to submit false information and
documents to GSA officials regarding the background and qualifications of her
company’s employees in order to convince GSA to award the contract to her company.
Based on the false information and documents, GSA awarded the prime contract, worth
approximately $1.3 million, to Mathis-Gardner and her company. 65

From June 2007 through January 2009, Mathis-Gardner also provided false information
to subordinates for them to use in preparing invoices. As a result, these invoices
contained information that materially overstated the number of work hours performed on
the contract. These invoices were subsequently presented to GSA for payment. 66

The following are additional examples of cases involving external attempts to corrupt tax
administration conducted during this reporting period:

Rene Coleman Sentenced for Bribing an IRS Employee

On April 27, 2011, Rene Coleman was sentenced to 18-months incarceration and two
years of supervised release for bribing a public official. Coleman was also ordered to
pay a $100 special assessment and to cooperate with the IRS with respect to any tax
liability owed for 2008 and 2009. 67

According to court documents, Coleman was indicted for offering a total of $3,100 to an
IRS employee so that the employee would use her official position to reduce Coleman’s
tax liabilities. 68

Kenneth Hua Sentenced for Impersonating an IRS Employee and Mail Fraud

On July 18, 2011, in Hawaii, Kenneth Hua was sentenced on two counts of mail fraud
and one count of impersonating a government official. Hua was sentenced to 17-months
imprisonment, three years of supervised release, and ordered to pay $19,250 in
restitution. 69

Hua provided tax and accounting services to individuals for a fee under the business
name of “Tri-Y-Enterprizes.” From about September 2007 to January 2008, Hua, a.k.a.
Kenneth Yoshishige, attempted to defraud taxpayers by falsely impersonating an IRS
employee using the name of Jon Nishimura. 70

In 2007, Hua told a taxpayer that she was being audited by the IRS and that he was one
of only two independent auditors working for the IRS in the State of Hawaii. In fact, the
individual was not being audited by the IRS and Hua was not an employee. Hua told

65
   D.D.C. Plea Agr. filed Apr. 18, 2011.
66
   D.D.C. Stat. of Offenses filed Apr, 18, 2011.
67
   S.D. Miss. Crim. Doc. dated May 4, 2011.
68
   S.D. Miss. Indict. filed Sep. 10, 2010.
69
   D. Haw. Sentencing Doc. filed July 18, 2011.
70
   D. Haw. Indict. filed Apr. 10, 2010.

Page 54                                                     April 1, 2011 – September 30, 2011
 
                            TIGTA Semiannual           Report to Congress



the taxpayer that the IRS was going to charge her a fee for the audit but his fees were
cheaper. The IRS does not charge any fees for audits.

On March 19, 2008 and June 2, 2008, Hua told the taxpayer that he sent documents to
the IRS through the U.S. Mail on her behalf, when he did not send any documents.
Between September 2007 and December 2007, the taxpayer paid Hua approximately
$19,250 for services he had not rendered. 71

Elaine Wagner Sentenced for Possessing False Papers to Defraud the United
States

On June 3, 2011, in Illinois, Elaine Wagner was sentenced on one count of possessing
false papers to defraud the United States. Wagner was ordered to pay a $100
assessment, sentenced to two-years probation, and ordered to perform 150 hours of
community service. 72

Samuel and Elaine Wagner owed the IRS approximately $223,087 for tax years 2000,
2007, and 2008. The Wagners created a false document purporting to be from the IRS
to the Bank & Trust Company, indicating that the IRS accepted an offer-in-compromise
agreement regarding their Federal tax liability. 73

Ronald Hoodenpyle Pled Guilty for Failing to Surrender on Charges of Filing a
False Lien

On July 24, 2011, in Colorado, Ronald Roy Hoodenpyle pled guilty to one count of
failure to surrender for service of sentence. 74 He was sentenced to three-months
imprisonment to be served consecutively with the undischarged term of imprisonment,
one year of supervised release, and ordered to pay a $100 assessment. 75

According to court documents, on June 17, 2010, Hoodenpyle was originally convicted
of filing a false lien against an IRS revenue officer’s house, for which he was sentenced
to 12-months imprisonment. 76

On October 29, 2010, Hoodenpyle was ordered to surrender to serve his sentence at
the Big Spring Federal Correctional Institution in Big Spring, Texas. Hoodenpyle did not
report as ordered. Instead, he made preparations to go into hiding.

On November 8, 2010, Hoodenpyle was arrested in Grand Lake, Colorado. At the time
of his arrest, Hoodenpyle had almost $1,300 in U.S. currency, along with a false photo
identification in the name of one of his associates. Officers found within his car, among

71
   D. Haw. Indict. filed Apr. 10, 2010.
72
   C.D. Ill. Sentencing Doc. filed June 3, 2011.
73
   C.D. Ill. Crim. Compl. filed Oct. 21, 2010.
74
   D. Colo. J. filed July 24, 2011.
75
   Id.
76
   D. Colo. Plea Agr. filed Apr. 8, 2011.

April 1, 2011 – September 30, 2011                                                Page 55
                                                    
                           TIGTA Semiannual               Report to Congress
 

other items: a book entitled, “How to Create a New Identity;” a prepaid cell phone as
well as a receipt indicating that the phone had been purchased in Arizona on November
2, 2010; two boxes of handgun ammunition; and a to-do list that included selling a truck
and furniture. 77

Myran Butler Pled Guilty to Misusing the Department of the Treasury’s Symbol

On June 15, 2011, in Utah, Myran Butler pled guilty to one count of misusing the
Department of the Treasury’s symbol. 78

According to court documents, Butler knowingly used, in connection with a business
activity, the words, “Department of the Treasury,” or the “Internal Revenue Service” in a
manner that could be reasonably interpreted as falsely conveying that such business
activity was approved and authorized by the Department of the Treasury or the IRS. 79

Butler falsely made and provided a client an IRS Form 668-D (Release of Levy/Release
of Property From Levy). He fraudulently created this form by using an official form
involving another person. This form contained the forged signature of an IRS tax
specialist. Butler also provided this form to his client as proof that proceedings with the
IRS had been completed. 80

Thanh Viet Jeremy Cao Pled Guilty to Filing False Liens Against United States
Officials/IRS CI Employees

On June 7, 2011, in Nevada, Thanh Viet Jeremy Cao pled guilty to six counts of filing a
false lien or encumbrance against a United States officer or employee. He was
detained pending sentencing. 81

According to court documents, beginning about February 2007 and continuing until at
least July 2010, Cao was involved in various matters involving Federal agencies,
including the United States Securities and Exchange Commission, the United States
Attorney’s Office for the Southern District of California, the United States Secret
Service, and the IRS. Cao was specifically under investigation by the IRS’s CI Division
pertaining to tax returns he prepared and caused to be filed with the IRS for himself and
clients that claimed large refunds on Federal individual and corporate income tax
returns, based upon fictitious income tax withholdings.

In response to these various proceedings and investigations, Cao filed and caused to
be filed 22 liens and encumbrances against the real and personal property of United
States officers or employees affiliated with the courts or agencies involved in those
proceedings and investigations, including four IRS CI employees. With respect to the

77
   D. Colo. Plea Agr. filed Apr. 8, 2011.
78
   D. Utah Stat. by Defendant in Advance of Plea of Guilty filed June 15, 2011.
79
   D. Utah Misdemeanor Info. filed Feb. 23, 2011.
80
   D. Utah Stat. by Defendant in Advance of Plea of Guilty filed June 15, 2011.
81
   D. Nev. Detention Order Pending Sentencing filed June 7, 2011.

Page 56                                                              April 1, 2011 – September 30, 2011
 
                            TIGTA Semiannual       Report to Congress



IRS-CI lien victims, Cao filed or caused to be filed a “UCC Financing Statement” on or
about December 31, 2008, and an “Affidavit of Obligation/Commercial Lien” on or about
January 6, 2009. Cao knew when these lien documents were filed that the documents
falsely claimed that each of the IRS-CI lien victims were “debtors” to him in the amount
of at least $100,000. 82

Kathryn Turner Sentenced for Endeavoring to Corruptly Influence the
Administration of the Internal Revenue Code

On August 4, 2011, in California, Kathryn Turner pled guilty to one count of endeavoring
to corruptly influence administration of the Internal Revenue Code. 83 Turner was
sentenced to imprisonment for a term of time served and three years of supervised
release, with the condition of six-months home detention with a monitoring device. In
addition, Turner was ordered to pay a $100 assessment and $30,000 in restitution. 84

Beginning about February 1, 2006 and continuing up to February 17, 2006, Turner sent
falsely made, altered, forged, and counterfeited copies of Form 668-D (Release of
Levy/Release of Property From Levy) to representatives of businesses that possessed
funds that had been levied by the IRS for back taxes. This action caused the
businesses to then release the funds back to Turner instead of holding the funds
pursuant to the IRS levy. 85




82
   D. Nev. Plea Agr. filed June 7, 2011.
83
   S.D. Cal. J. filed Aug. 4, 2011.
84
   Id.
85
   S.D. Cal. Indict. filed Jan. 25, 2011.

April 1, 2011 – September 30, 2011                                              Page 57
                                                
          TIGTA Semiannual   Report to Congress
 




Page 58                               April 1, 2011 – September 30, 2011
 
                             TIGTA Semiannual             Report to Congress




         Advancing Oversight of America’s Tax
                      System

T
      IGTA’s Office of Inspections and Evaluations (I&E) provides responsive, timely,
      and cost-effective inspections and evaluations of challenging areas within the
      IRS, providing TIGTA with additional flexibility and capability to produce value-
      added products and services to improve tax administration. Its work is not a
substitute for audits and investigations; in fact, its findings may result in subsequent
audits and/or investigations.

The Office has two primary product lines: inspections and evaluations.

The purpose of inspections is to:

         •   Provide factual and analytical information;
         •   Monitor compliance;
         •   Measure performance;
         •   Assess the effectiveness and efficiency of programs and operations;
         •   Share best practices; and
         •   Inquire into allegations of waste, fraud, abuse, and mismanagement.

The purpose of evaluations is to:

         •   Provide in-depth reviews of specific management issues, policies, or programs;
         •   Address government-wide or multi-agency issues; and
         •   Develop recommendations to streamline operations, enhance data quality, and
             minimize inefficient and ineffective procedures.

The following summaries highlight some of the significant activities I&E has engaged in
during this six-month reporting period:

Inspection of the IRS’s Home-to-Work Programs

This review was initiated at the request of the Assistant Secretary for Management and
Chief Financial Officer of the Department of the Treasury. The report presents the
results of our inspection to determine the IRS’s compliance with Title 31 United States
Code (U.S.C.) Section (§) 1344, Passenger Carrier Use, and Treasury Directive 74-06,
Home-to-Work Transportation Controls. 86

TIGTA found that Criminal Investigation and the Small Business/Self-Employed (SB/SE)
Division operated their Home-to-Work Programs for more than eight years without proper
authorization from the Secretary of the Treasury. Additionally, only in this past year did
86
     TD 74-06, dated March 20, 2002, applies to all Department of the Treasury bureaus.

April 1, 2011 – September 30, 2011                                                        Page 59
                                                       
                         TIGTA Semiannual            Report to Congress
 

the SB/SE Division determine that its employees’ home-to-work use of a government
vehicle might result in a taxable fringe benefit to its employees.

Both CI and the SB/SE Division did not meet all recordkeeping requirements prescribed
by 31 U.S.C. § 1344 and Treasury Directive 74-06. Specifically, the Home-to-Work and
Extraordinary Use Vehicle Log used by special agents did not capture all use outside
their normal tour of duty. Limited guidance was available for special agents to use in
preparing this log and the Vehicle Expense Report. Mileage logs from fuel compliance
officers and fuel compliance agents were missing for some months, manual logs did not
always provide enough detail to determine whether home-to-work use occurred, and
total costs of the Fuel Compliance Home-to-Work Program were not documented.

Supervisory special agents and managers in Fuel Compliance were not closely
reviewing logs and reports for accuracy and indications of fraud or misuse. Costs of
accidents that were home-to-work related were not tracked in accordance with Treasury
Directive 74-06.

TIGTA recommended the Chief of CI, and the Commissioner of the SB/SE Division,
revise procedures to ensure that home-to-work transportation requests are completed in
a timely manner. TIGTA made other recommendations addressing recordkeeping,
internal controls, and taxable fringe-benefit determinations.

In response, IRS officials agreed with these recommendations and stated that they have
taken or plan to take action to improve internal controls.
Report Reference No. 2011-IE-R003

Inspection of the Agency-Wide Shared Services Fleet Program

This project was initiated as part of our recent inspection of the IRS Vehicle Home-to-
Work Programs. 87 The issues presented in this report are unique to the Agency-Wide
Shared Services (AWSS) Program and are not directly related to the home-to-work
issue we previously reviewed; therefore, we are reporting them separately.

TIGTA found that monthly bills from the General Services Administration (GSA) were
not always verified against receipts for repairs. New procedures that went into effect
October 1, 2010, should eliminate the possibility that duplicate or erroneous repair bills
could be paid. TIGTA also found that justifications were not always prepared as
required to substantiate the need for vehicles used less than the minimum miles
recommended by GSA. In addition, the requirement for certifying the validity of an
individual’s driver’s license was not included in AWSS guidance, as required by the
Department of the Treasury.




87
  TIGTA Inspection of the Internal Revenue Service’s Home-to-Work Programs (Reference Number:
2011-IE-R003), dated May 2011.

Page 60                                                        April 1, 2011 – September 30, 2011
 
                         TIGTA Semiannual            Report to Congress



TIGTA recommended that:

     •   The Director, Real Estate and Facilities Management (REFM), ensure that
         justifications are provided for vehicles used for fewer miles than those
         recommended in GSA guidelines; and
     •   The Internal Revenue Manual be revised to require drivers to certify that they are
         properly licensed to drive AWSS fleet vehicles.

In their response to the report, IRS officials stated that they agreed with TIGTA’s
recommendations. The AWSS Fleet Program manager will request that REFM territory
managers ensure that the business units provide appropriate written justifications.
REFM will revise the Motor Vehicle Internal Revenue Manual to require drivers to self-
certify that they possess a valid driver’s license on the mileage log. The AWSS vehicle
coordinators will review logs monthly.
Report Reference No. 2011-IE-R005

Follow-up Review of Controls Over Religious Compensatory Time

This project was a follow-up review to TIGTA’s February 2009 report 88 on the IRS’s
controls over religious compensatory time (RCT). TIGTA conducted this follow-up
inspection to determine if proposed corrective actions were implemented and if they
significantly reduced the potential for employees to accumulate excessive RCT
balances.

While the IRS has partially implemented corrective actions related to the
recommendations contained in TIGTA’s February 2009 inspection report, TIGTA
believes additional actions would further strengthen the controls to deter and prevent
abuse of RCT. TIGTA found that, between February 2008 and June 2010, the overall
number of employees with RCT balances decreased by approximately 33 percent, and
the number of employees with excessive RCT balances decreased by nearly 37
percent. TIGTA also found that only about two percent of IRS employees have RCT
balances, and the vast majority of these employees (about 81 percent) had relatively
low balances.

Although the issue of excessive balances is not widespread within the IRS, the
accumulation of excessive RCT balances increases the risk that they may be used for
unintended purposes. This includes earning the RCT and not routinely using it with the
intention of receiving a lump sum payment for the balance upon separation or retirement;
using RCT in place of annual or sick leave; or allowing employees to earn RCT in lieu of
overtime, compensatory time, or credit hours.

Additionally, TIGTA determined a few employees earned hundreds of overtime or credit
hours without first repaying the advanced RCT balances they were carrying. This is due

88
 TIGTA, To Prevent the Possible Widespread Abuse of Religious Compensatory Time, Additional
Controls are Needed (Reference Number 2009-IE-R002, dated February 27, 2009).

April 1, 2011 – September 30, 2011                                                       Page 61
                                                 
                       TIGTA Semiannual          Report to Congress
 

in part to the IRS’s decision not to include this requirement in its revised 2009 National
Agreement with the Nation Treasury Employees Union (NTEU).

TIGTA recommended the IRS Human Capital Officer modify procedures to:

    •   Require all employees (bargaining and non-bargaining) repay advanced RCT
        before approving voluntary requests to earn overtime, compensatory time, or
        credit hours; and
    •   Develop a standardized process and mechanism for requesting, authorizing, and
        documenting the use of RCT.

TIGTA further recommended that the IRS Human Capital Officer mandate that all
managers and timekeepers receive training on the regulations and IRS policies
concerning requesting and using RCT.

IRS management agreed with these recommendations affecting bargaining employees,
and plans to assess the status of RCT issues and consider proposing changes related
to RCT in negotiations for the next labor agreement between the IRS and NTEU, which
should start in October 2013.

IRS management agreed to consider mandatory RCT training for managers only, and
stated that they plan to use Internet communications to make both managers and
timekeepers aware of their responsibility to adhere to RCT requirements.
Report Reference No. 2011-IE-R004




Page 62                                                    April 1, 2011 – September 30, 2011
 
                         TIGTA Semiannual         Report to Congress




              TIGTA’s International Programs
In 2008, the IRS embarked on an effort to increase voluntary compliance among
taxpayers involved in cross-border transactions. This effort includes both structural and
operational changes. The IRS’s strategic initiatives include improving cooperation with
treaty partners and the international community, enhancing its partnership with tax
preparers involved in the preparation of international/U.S. territory returns, and detecting
and deterring financial criminal activity and abusive transactions that involve offshore
entities and cross-border transactions. TIGTA is committed to evolving its oversight
model to address the global expansion of Federal tax administration and related IRS
international initiatives.

To address this challenge, TIGTA developed a strategic approach for providing
oversight of the IRS’s international programs and activities through audits, inspections,
evaluations and law enforcement liaison and outreach. TIGTA’s International Program
will be implemented over a multi-year period as we increase our capability to address
the complex international tax administration environment.

International Outreach

TIGTA’s international outreach effort will advance its strategic objective of heightening
IRS integrity awareness among millions of U.S. citizens living abroad, including military
personnel stationed overseas, in order to provide a deterrent effect against waste,
fraud, and misconduct within Federal tax administration. It will also enhance TIGTA’s
investigative programs to identify and mitigate potential corruption in IRS international
operations.

TIGTA’s International Program will strive to work closely with IRS personnel assigned to
foreign countries to promote the economy, efficiency, and effectiveness of an
increasingly global system of U.S. tax administration. TIGTA will also seek to partner
with the U.S. Departments of State and Defense, and other U.S. Government agencies
to integrate TIGTA’s message of integrity in Federal tax administration into the broader
framework of the Government’s interaction with its citizens living abroad.

International Revenue Agency Partnerships/Law Enforcement
Liaison
TIGTA’s ability to execute its Federal tax administration oversight responsibilities
outside U.S. borders is critically dependent on its capacity to establish effective working
relationships with foreign revenue collection agencies in approximately 90 foreign
governments with whom the United States has a tax treaty or a Tax Information
Exchange Agreement. TIGTA’s International Program will seek to build partnerships
directly with these foreign governmental entities, in addition to international law
enforcement organizations, and prosecutorial entities in governments around the world.
TIGTA will also engage other U.S. Government agencies who share the organizational

April 1, 2011 – September 30, 2011                                                  Page 63
                                               
                       TIGTA Semiannual         Report to Congress
 

mission of establishing these effective U.S. international working relationships through
shared training, assistance, and other mutually beneficial international activities.

International Audit Activities
TIGTA’s work includes involving international tax administration as part of its annual
audit planning process. However, the amount of work conducted in this area in any
given year is always limited by other competing priorities. Recognizing the growing
importance of international tax administration, TIGTA created an International Tax
Program Strategy that laid out a uniform methodology to monitor the IRS’s efforts
around international tax administration. Since the implementation of this strategy,
TIGTA has issued several reports about international tax administration that have been
in previous TIGTA Semiannual Reports to Congress.

    •   New Legislation Could Affect Filers of the Report of Foreign Bank and
        Financial Accounts, but Potential Issues Are Being Addressed
        (Reference No. 2010-30-125, dated September 9, 2010).
    •   Improvements Are Needed to Verify Refunds to Nonresident Aliens Before
        the Refunds Are Sent Out of the United States
        (Reference No. 2010-40-121, dated September 15, 2010).
    •   Actions Are Being Taken to Address the Impact That International Financial
        Reporting Standards Will Have on Tax Administration
        (Reference No. 2010-30-112, dated September 8, 2010).
    •   Improvements Are Needed to Reduce Erroneous Foreign Earned Income
        Exclusion Claims (Reference No. 2010-40-091, dated August 16, 2010).
    •   Procedures Need to Be Developed for Collection Issues Associated With
        Individual Taxpayer Identification Numbers
        (Reference No. 2010-40-040, dated March 29, 2010).

For this six-month reporting period, TIGTA issued the following reports related to
international tax administration:

Improvements Are Needed to Ensure the Central Withholding Agreement
Program Fosters Nonresident Alien Withholding Compliance

Internal Revenue Code Section 1441 generally requires that any U.S. or foreign person
having control of certain U.S. source income must withhold 30 percent of the gross
income prior to any payments made to a nonresident alien (NRA) individual or
partnership. The purpose of a Central Withholding Agreement (CWA) is to reduce the
30 percent withholding tax rate to be more in line with an NRA’s annual projected tax
liability. However, if NRAs who enter into CWAs are allowed to improperly reduce their
withholding, the Federal Government’s interest may not be protected.

The IRS’s CWA Program management had taken positive actions to ensure that
sensitive information was not transmitted via e-mail to NRAs or their representatives.
However, managerial oversight of the CWA Program needed improvement. TIGTA

Page 64                                                   April 1, 2011 – September 30, 2011
 
                         TIGTA Semiannual       Report to Congress



found that there was no managerial guidance or quality review process to ensure that
cases were properly processed. In 25 of 133 closed cases, tax specialists did not take
timely and appropriate action. In 37 closed cases, documentation was missing and/or
incomplete. TIGTA found inconsistencies in 13 of 47 CWA closed cases with approving
and denying CWA applications based on the timeliness of the submission.

TIGTA also found that CWA specialists did not have detailed guidance for making a
determination of ordinary and necessary business expenses for justifying a reduction of
income for determining the proper withholding rate under CWAs. In addition, the
methodology for conducting site visits was inconsistent, as was the amount of
information captured in the site visitation reports. The CWA Program had not
established performance goals, and current measures were inadequate to determine
whether the Program was fostering NRA compliance.

TIGTA made several recommendations, including that the IRS:

   •   Establish performance goals and identify a method for measuring the level to
       which the CWA Program is fostering compliance;
   •   Establish a quality review process and managerial guidance to ensure effective
       oversight;
   •   Provide additional training to CWA tax specialists on evaluating ordinary and
       necessary business expenses submitted with the CWA requests; and
   •   Revise procedures to provide clearer guidance that includes a methodology for
       conducting site visits and preparing site visitation reports.

IRS management agreed with most of the recommendations and stated that they plan
to take appropriate corrective actions.
Reference No. 2011-30-117

The 2009 Offshore Voluntary Disclosure Initiative Increased Taxpayer
Compliance, but Some Improvements Are Needed

Taxpayers with undisclosed foreign accounts or assets who do not submit a voluntary
disclosure are noncompliant and run the risk of detection by the IRS. If caught, these
taxpayers face the imposition of substantial penalties, including the fraud and foreign
information return penalties, as well as an increased risk of criminal prosecution. By
making an offshore voluntary disclosure, taxpayers can become compliant, avoid
substantial civil penalties, and generally eliminate the risk of criminal prosecution.

The IRS’s voluntary disclosure practices were effective, and cases were being
appropriately assigned and verified even with the unusually high volume of disclosure
requests received and accepted. However, TIGTA found that some improvements were
needed.

TIGTA’s review of 60 closed voluntary disclosure cases showed that 18 cases had no
evidence of the taxpayers reconciling the unreported income in their offshore accounts

April 1, 2011 – September 30, 2011                                               Page 65
                                             
                        TIGTA Semiannual         Report to Congress
 

to their amended or newly filed delinquent tax returns. In 28 cases, information from the
taxpayers’ financial accounts either was not captured or was incorrectly transcribed on
the data collection system used for current and subsequent data mining efforts. In 31
cases, voluntary disclosure agreements were not printed on IRS watermarked paper or
initialed by revenue agents on each page. Thus, it was impossible to ensure that
taxpayers made no alterations to the original document.

As a result, TIGTA recommended that the IRS:

    •   Implement a requirement for taxpayers to provide a detailed reconciliation of
        unreported income;
    •   Develop a quality review process to ensure that all data relating to voluntary
        disclosures are properly transcribed for future data mining; and
    •   Require revenue agents to initial each page of the voluntary disclosure
        agreement before submitting the agreements to taxpayers for their signature.

IRS management agreed with two of TIGTA’s three recommendations. They stated that
a reconciliation of all unreported taxpayer income from offshore accounts is already a
requirement of the 2011 Offshore Voluntary Disclosure Initiative. They further stated
that they plan to take appropriate corrective action for developing a quality review
process to ensure that all data relating to voluntary disclosures are properly transcribed
for future data mining. IRS management disagreed with the recommendation to require
revenue agents to initial each page of the voluntary disclosure agreements before
submitting the agreements to taxpayers for their signature.
Reference No. 2011-30-118




Page 66                                                    April 1, 2011 – September 30, 2011
 
                             TIGTA Semiannual       Report to Congress




     American Recovery and Reinvestment Act
                    of 2009
The American Recovery and Reinvestment Act of 2009 (Recovery Act) 89 was enacted
on February 17, 2009. The Recovery Act presented significant challenges to all Federal
agencies as they move to implement provisions quickly while attempting to minimize
risk and meet increased standards for transparency and accountability. With its 56 tax
provisions (20 related to individual taxpayers and 36 related to business taxpayers), the
Recovery Act poses significant challenges to the IRS as the Nation’s tax collection
agency and administrator of the tax laws.

TIGTA has issued numerous reports related to the IRS’s efforts to implement Recovery
Act tax provisions. For this six-month reporting period, TIGTA issued the following
significant reports:

Individuals Who Are Not Authorized to Work in the United States Were Paid
$4.2 Billion in Refundable Credits

Many individuals who are not authorized to work in the United States, and thus not
eligible to obtain a Social Security Number (SSN) for employment, earn income in the
United States. The IRS provides such individuals with an Individual Taxpayer
Identification Number (ITIN) to facilitate their filing of tax returns. Although the law
prohibits aliens residing without authorization in the United States from receiving most
Federal public benefits, an increasing number of these individuals are filing tax returns
claiming the Additional Child Tax Credit (ACTC), a refundable tax credit intended for
working families. The payment of Federal funds through this tax benefit appears to
provide an additional incentive for aliens to enter, reside, and work in the United States
without authorization, which contradicts Federal law and policy to remove such
incentives.

Claims for the ACTC by ITIN filers have increased from $924 million in Processing Year
2005 (the calendar year in which the tax return was processed) to $4.2 billion in
Processing Year 2010. Legislation is needed to clarify whether refundable tax credits
such as the ACTC may be paid to those who are not authorized to work in the United
States.

The IRS’s Examination function does not effectively and efficiently work ITIN cases.
Additionally, employees in the Accounts Management Taxpayer Assurance Program
are not taking steps to notify taxpayers when it is obvious their SSNs and names have
been compromised.




89
     Pub. L. No. 111-5, 123 Stat. 115.

April 1, 2011 – September 30, 2011                                                 Page 67
                                                 
                           TIGTA Semiannual               Report to Congress
 

TIGTA also found a problem with some tax preparation software programs. These
programs automatically take the taxpayer identification number and enter it as the
identifying number for the taxpayer’s Wage and Tax Statements. This causes the Wage
and Tax Statements to be inaccurate for most ITIN filers.

TIGTA recommended that the IRS work with the Department of the Treasury to seek
clarification on whether refundable tax credits may be paid to individuals who are not
authorized to work in the United States. TIGTA also recommended that the IRS require
individuals filing with ITINs and claiming the ACTC to provide specific verifiable
documentation to support that their dependents meet the qualifications for the credit,
including residency, and that questionable Child Tax Credits (CTC) and ACTC claims
on ITIN returns are worked as effectively and efficiently as possible. In addition, TIGTA
recommended that the IRS ensure that taxpayers are notified when their SSNs are
compromised and that commercial tax-preparation software programs do not auto-
populate an ITIN onto Wage and Tax Statements.

IRS management agreed with these recommendations and stated that they plan to
discuss with the Department of the Treasury the issue of ITIN filers’ eligibility for the
ACTC. However, management did not agree to require additional documentation to
support CTC and ACTC claims on ITIN returns.
Reference No. 2011-41-061

IRS Accounting for American Recovery and Reinvestment Act Fund Expenditures
During the Period of October 1, 2009 through March 31, 2010

This report presented the results of TIGTA’s inspection to determine the IRS’s
compliance with OMB’s 90 Implementing Guidance 91 for the Recovery Act. The overall
objective of this inspection was to verify the accuracy of the IRS’s accounting and
timeliness of reporting Recovery Act procurement expenditures for the period October
1, 2009 through March 31, 2010.

The IRS was in substantial compliance with the OMB Implementing Guidance. For
Recovery Act expenditures, the IRS executed adequate internal controls to ensure
timely and accurate reporting; however, due to an oversight by the preparer, the IRS
incorrectly reported amounts totaling approximately $4 million on two of the 26 weekly
reports. IRS officials corrected these errors on later reports.

During the period October 1, 2009 through March 31, 2010, the IRS initiated
procurement actions purchasing goods and services totaling over $22 million. The IRS
spent almost $19 million on the Health Insurance Tax Credit Administration and

90
   OMB has the primary responsibility for developing government-wide rules and procedures to ensure
that funds are awarded and distributed in a prompt and fair manner; that uses of funds are transparent to
the public; and that steps are taken to mitigate waste, fraud, and abuse.
91
   M-09-10, Initial Implementing Guidance for the American Recovery and Reinvestment Act of 2009,
February 18, 2009, § 5.6, and M-09-15, Updated Implementing Guidance for the American Recovery
Reinvestment Act of 2009, April 3, 2009, § 5.6 and § 7.6.

Page 68                                                              April 1, 2011 – September 30, 2011
 
                         TIGTA Semiannual       Report to Congress



$3.5 million in Recovery Act administrative costs. Further, the IRS appropriately
obtained 100 percent of the more than $185,000 available for discounts on Recovery
Act-related procurements.

The IRS submitted timely financial reports fulfilling OMB’s requirement to transmit
weekly reports showing cumulative obligations and gross outlay activities. This process
assisted in ensuring unprecedented transparency into the IRS’s use of Recovery Act
funds.

TIGTA made no recommendations following this inspection.
Reference No. 2011-IE-R007




April 1, 2011 – September 30, 2011                                             Page 69
                                             
          TIGTA Semiannual   Report to Congress
 




Page 70                               April 1, 2011 – September 30, 2011
 
                             TIGTA Semiannual                  Report to Congress




      An Organization That Values Its People
TIGTA’s Special Agent Basic Training Program Accreditation

On April 7, 2011, the Federal Law Enforcement Training Accreditation (FLETA) Board
granted accreditation status to TIGTA’s Special Agent Basic Training Program. To
achieve accreditation, an agency must undergo a rigorous assessment of its academy
and/or program to ensure compliance with the FLETA standards. These professional
standards were developed to increase agency effectiveness and efficiency.

FLETA Board Member Angela Hrdlicka noted that TIGTA has the reputation for being
innovative and thorough in their documentation of meeting the FLETA standards.
Michael Radetic, TIGTA’s Assistant Special Agent in Charge, accepted the certificate
awarding accreditation.




Pictured from left to right: Special Agent Marvin Weindorff, Special Agent Jacquelyn Ellison, Assistant Special Agent
 in Charge Mike Radetic, Employee Development Specialist Kay Arthur, and Training Specialist Annette Scanlon.




April 1, 2011 – September 30, 2011                                                                         Page 71
                                                           
          TIGTA Semiannual   Report to Congress
 




Page 72                               April 1, 2011 – September 30, 2011
 
                         TIGTA Semiannual       Report to Congress




                    Congressional Testimony
During this reporting period, Inspector General J. Russell George testified before
Congress on three occasions and submitted written testimony to Congress on one
occasion. The following are summaries of his testimony.
 
On April 15, 2011, Mr. George testified before the House Committee on Appropriations,
Subcommittee on Financial Services and General Government on its “Budget hearing
with the Treasury Inspector General for Tax Administration.” Mr. George described how
TIGTA promotes accountability within the IRS by providing oversight of its budget and
identifying the most significant challenges the IRS faces. These challenges include:

    •   The security of IRS employees and infrastructure;
    •   The modernization of the IRS’s information technology systems;
    •   Human capital matters;
    •   Taxpayer rights; and
    •   Erroneous and improper payments and credits.

In the last category, Mr. George mentioned TIGTA’s report on the Earned Income Tax
Credit (EITC). This report revealed that the IRS failed to comply with a requirement to
provide quantifiable targets to reduce improper EITC payments. The IRS itself
estimates that 23 to 28 percent of these credits are wrongfully paid. In FY 2009, this
equated to $11 to $13 billion, which is the entire annual operating budget of the IRS.

Mr. George also discussed the Additional Child Tax Credit as an example of another
refundable credit not implemented effectively. In 2009, TIGTA reported a significant
increase in the Credit by filers who were unable to obtain SSNs. However, these
individuals filed for and received the Credit. For tax year 2000, these individuals
received $62 million; for tax year 2007, the amount received reached as high as $1.8
billion.

In addition, Mr. George addressed the Tax Gap, another serious challenge confronting
the IRS. A significant amount of income remains unreported and unpaid despite IRS
enforcement efforts and an estimated voluntary compliance rate of 84 percent. The IRS
estimated the gross Tax Gap for Tax Year 2001 – the most current estimate available –
to be approximately $345 billion. The IRS also faces significant challenges in obtaining
complete and timely compliance data and developing methods necessary to interpret
those data. Even with improved data collection, the IRS needs broader strategies and
better research to determine which actions are most effective in addressing taxpayer
noncompliance. The IRS’s strategy for reducing the Tax Gap largely depends on
funding for additional compliance resources as well as legislative changes.

Mr. George also apprised the Subcommittee of the President’s FY 2012 budget request
for TIGTA. Included in this request was a justification for an additional 29 Full-Time


April 1, 2011 – September 30, 2011                                               Page 73
                                             
                         TIGTA Semiannual            Report to Congress
 

Equivalents to handle oversight responsibilities of the IRS’s implementation of the
Affordable Care Act.

On May 25, 2011, Mr. George testified before the House Committee on Ways and
Means, Subcommittee on Oversight during its hearing on “Improper Payments in the
Administration of Refundable Tax Credits.” He stated that the IRS has annually
reported billions in EITC improper payments since it began reporting estimates to
Congress in 2002, with little improvement shown in reducing these payments.
Furthermore, the IRS’s June 14, 2010 report 92 to TIGTA did not include required
strategies or quantifiable targets to reduce EITC improper payments. IRS management
noted that it had not set reduction targets because it has to balance compliance and
enforcement resources among all income groups. Mr. George also highlighted the
Child Tax Credit and the Additional Child Tax Credit (ACTC). The appropriations for the
two credits in FY 2010 were $54.7 billion for the EITC and $22.7 billion for the ACTC. In
contrast, the IRS’s total FY 2012 budget request is $13.3 billion.

Although each of these refundable credits provides benefits to individuals, the
unintended consequence is that they are often the targets of unscrupulous individuals
who file erroneous claims for the credits. In essence, individuals can obtain money that
they did not earn and to which they are not entitled simply by claiming a refundable tax
credit. Refundable credits can result in tax refunds even if no income tax is paid or
withheld; that is, the credits can exceed the liability for the tax. In its June 14, 2010
report, the IRS noted that it has found that refundable credits of significant amounts
attract fraud.

Mr. George reported that in Tax Year 2000, 62,000 Individual Taxpayer Identification
Number (ITIN) filers received $62 million in ACTCs. This has since grown to 2.3 million
ITIN filers claiming ACTCs totaling $4.2 billion in 2010. 93 This increase is due in part to
changes in the law, which altered the eligibility criteria and calculation. Another reason
for the increase in claims is that individuals are filing returns for multiple years to obtain
the ACTC for prior-year tax returns, e.g., filing for tax years 2007, 2008, and 2009. In
2010, approximately 238,000 ITIN filers submitted over 608,000 tax returns for multiple
years and claimed just over $1 billion in ACTC on those tax returns.

As part of our Recovery-Act oversight, TIGTA assessed the IRS’s administration of the
Homebuyer Credit. The Worker, Homeownership, and Business Assistance Act of
2009 94 revised, extended, and expanded the Homebuyer Credit allowed by previous
acts to a broader range of home purchases and added new documentation
requirements. TIGTA recommended that the IRS require taxpayers to supply
documentation with their tax return to substantiate a home purchase. IRS management

92
   IRS, Initial Report on Earned Income Tax Credit (EITC) Improper Payments, pursuant to Executive
Order 13520: Reducing Improper Payments (June 14, 2010).
93
   Budget Hearing with the Treasury Inspector General for Tax Administration, Hearing Before the H.
Comm. on Appropriations, Subctm. on Financial Services and General Government,112th Cong. (Apr. 15,
2011) (statement of J. Russell George).
94
   Pub. L. No. 111-92, 123 Stat. 2984 (2009).

Page 74                                                         April 1, 2011 – September 30, 2011
 
                           TIGTA Semiannual               Report to Congress



initially responded that such a requirement would be burdensome for individuals and the
IRS. The IRS also stated that it did not have math error authority to disallow the credit
during tax return processing even if it did ask for documentation and did not receive it.
The IRS initially took no steps to obtain this math error authority. After the issuance of
TIGTA’s first interim report on that credit, 95 Congress passed legislation requiring
documentation for the credit and provided the IRS with math error authority to disallow
the credit if the documentation was not provided. 96

On June 8, 2011, Mr. George submitted written testimony to the Senate Committee on
Appropriations, Subcommittee on Financial Services and General Government on its
hearing on “FY 2012 I.R.S. Budget.” Mr. George noted that the IRS is the largest
component of the Department of the Treasury and has primary responsibility for
administering the Federal tax system. The IRS must strive to enforce the tax laws fairly
and efficiently while balancing service and education to promote voluntary compliance
and reduce taxpayer burden. To accomplish these efforts, the IRS requested in its
proposed FY 2012 budget approximately $13.3 billion 97 in total appropriated resources.
The total appropriations amount is an increase of $1.138 billion, or 9.4 percent, more
than the FY 2010 enacted level.

The Administration seeks funding increases from 3 to 26 percent over FY 2010 enacted
operating levels for all of the appropriation accounts. The budget request includes a net
increase in IRS staffing of an additional 5,100 employees.

The $1.138 billion increase consists of the following:

Changes to the Base

     •   Adjustment to Reach FY 2011 President’s Budget Level 98 – Increase of $402
         million, including a $123 million increase related to the Business Systems
         Modernization appropriation.
     •   Maintaining Current Levels – Increase of $86 million.
     •   Program Reinvestment – Increase of $1.5 million (one-time cost).

These increases are offset by a decrease of $190 million in efficiencies and savings,
including a $1 million decrease related to the Modernization appropriation.




95
   The Internal Revenue Service Faces Significant Challenges in Verifying Eligibility for the First-Time
Homebuyer Credit (Reference Number 2009-41-144, dated September 29, 2009).
96
   Worker, Homeownership, and Business Assistance Act of 2009, Pub. L. No. 111-92, 123 Stat. 2984
(2009).
97
   The Fiscal Year 2012 budget request also includes approximately $138 million from reimbursable
programs and $204 million from user fees for a total operating level of $13.6 billion.
98
   The initiatives included in the Fiscal Year 2011 budget submission are separate from the $839 million in
program increases included in the Fiscal Year 2012 budget submission.

April 1, 2011 – September 30, 2011                                                               Page 75
                                                      
                       TIGTA Semiannual          Report to Congress
 

Program Changes

    •   Program Increases – Increase of $839 million, including an increase of $52
        million in the Operations Support appropriation for costs related to maintenance
        of deployed Modernization systems. This $52 million increase is offset by a
        corresponding decrease of $52 million in the Modernization appropriation for FY
        2012.

On September 22, 2011, Mr. George testified before the House Committee on Ways
and Means Subcommittee on Select Revenue Measure and the Subcommittee on
Oversight during a joint hearing on “Energy Tax Policy and Tax Reform.” Mr. George
addressed the IRS’s administration of energy-related tax credits.

Specifically, he reported on nonrefundable credits and deductions enacted in the
Recovery Act to encourage:

    •   Individuals to purchase motor vehicles that operate on clean, renewable sources
        of energy;
    •   The purchase of energy-efficient property for an individual’s principal residence
        that is designed to reduce heat loss during cold months or heat gain during warm
        months;
    •   The purchase of renewable sources of energy for use in a home; and
    •   Additional deductions for State sales taxes and excise taxes for qualified new
        motor vehicle purchases.

He further stated that once tax legislation is enacted, the IRS reviews the law to
determine what actions it must take to implement the law to ensure that legislated
requirements will be satisfied. Actions taken by the IRS often include creating new tax
forms, updating publications, revising internal operating procedures, and updating
computer programs for processing tax returns.

Because credits and deductions have specific objectives and represent a significant
cost in forgone tax revenue, it is important that the IRS have processes in place to help
ensure that associated claims meet the criteria set forth in the law. The IRS uses
certain methods to verify the accuracy and eligibility of tax benefits and credits claimed
on tax returns. The validation process can occur either before or after a tax return is
processed and before funds have been released. Verifying the accuracy of claims and
eligibility for tax deductions and credits before a tax return has been processed and
prior to the release of funds is the most efficient and effective approach for the IRS to
prevent erroneous or improper claims. These preventive identification efforts include
the development of computer programs to detect errors. When the IRS detects errors, it
rejects the tax returns and sends them back to the transmitter to be corrected. Once a
tax return is received (if paper filed) or accepted (if electronically filed) by the IRS,
selected information from the tax return is validated and/or verified by the IRS. If a tax
return does not pass validation/verification, the tax return is forwarded to the IRS Error
Resolution function to be manually reviewed and corrected.

Page 76                                                   April 1, 2011 – September 30, 2011
 
                         TIGTA Semiannual       Report to Congress



Our reviews of the effectiveness of IRS processes to identify and prevent wrongful
claims for these energy-related credits and deductions identified erroneous claims for
millions of dollars in these credits and deductions.

For the Plug-in Electric and Alternative Motor Vehicle Credit, TIGTA recommended that
the IRS:

   •   Develop procedures to disallow credits for vehicles with nonqualifying years;
   •   Initiate actions to recover erroneous credits; and
   •   Either develop a coding system to identify vehicle makes and models or require
       the Vehicle Identification Number on the forms used to claim Plug-in Electric and
       Alternative Motor Vehicle Credits.

The IRS agreed with the recommendations and plans to update procedures to require a
review of the make, model, and date vehicles were in service to ensure that credits are
only distributed for qualifying vehicles.

For the Residential Energy Credit, TIGTA recommended that the IRS:

   •   Revise the tax form used to claim Residential Energy Credits to request specific
       information supporting key eligibility requirements;
   •   Examine the tax returns of the 362 individuals who appeared to be ineligible to
       claim the credit; and
   •   Implement processes to identify and review tax returns filed by prisoners or
       underage individuals to verify whether they qualify for the Residential Energy
       Credits claimed.

IRS officials agreed to revise the tax form and develop processes to identify claims
submitted by prisoners or underage individuals and agreed to review the returns of the
individuals we identified and audit those returns if warranted.




April 1, 2011 – September 30, 2011                                               Page 77
                                             
          TIGTA Semiannual   Report to Congress
 




Page 78                               April 1, 2011 – September 30, 2011
 
                                TIGTA Semiannual                   Report to Congress




                             Audit Statistical Reports
                       Reports With Questioned Costs
 TIGTA issued two audit reports with questioned costs during this semiannual reporting
 period. 99 The phrase “questioned costs” means costs that are questioned because of:

        •   An alleged violation of a provision of a law, regulation, contract, or other
            requirement governing the expenditure of funds;
        •   A finding, at the time of the audit, that such cost is not supported by adequate
            documentation (an unsupported cost); or
        •   A finding that expenditure of funds for the intended purpose is unnecessary or
            unreasonable.

 The phrase “disallowed cost” means a questioned cost that management, in a
 management decision, has sustained or agreed should not be charged to the
 Government.

                                      Reports With Questioned Costs
                                                                          Questioned      Unsupported
               Report Category                         Number               Costs100          Costs
                                                                        (in thousands)   (in thousands)
1. Reports with no management decision at
   the beginning of the reporting period                       6             $164,824          $82,147
2. Reports issued during the reporting period                  2              $28,656              $0

3. Subtotals (Item 1 plus Item 2)                              8             $193,480          $82,147
4. Reports for which a management decision
   was made during the reporting period.
   a. Value of disallowed costs                                0                   $0              $0

      b. Value of costs not disallowed                         0                   $0              $0
5. Reports with no management decision
   at the end of the reporting period (Item 3
   minus Item 4)                                               8             $193,480          $82,147

6. Reports with no management decision
   within six-months of issuance                               6             $164,824          $82,147




 99
      See Appendix II for identification of audit reports involved.
 100
       “Questioned costs” includes “unsupported costs.”

 April 1, 2011 – September 30, 2011                                                             Page 79
                                                            
                                  TIGTA Semiannual              Report to Congress
  


 Reports With Recommendations That Funds
            Be Put to Better Use
 TIGTA issued six audit reports during this semiannual reporting period with the
 recommendation that funds be put to better use. 101 The phrase “recommendation that
 funds be put to better use” means funds could be used more efficiently if management
 took actions to implement and complete the recommendation, including:

       •      Reductions in outlays;
       •      Deobligations of funds from programs or operations;
       •      Costs not incurred by implementing recommended improvements related to
              operations;
       •      Avoidance of unnecessary expenditures noted in pre-award reviews of contract
              agreements;
       •      Prevention of erroneous payment of the following refundable credits: Earned
              Income Tax Credit and Additional Child Tax Credit; or
       •      Any other savings that are specifically identified.

 The phrase “management decision” means the evaluation by management of the
 findings and recommendations included in an audit report, and the issuance of a final
 decision concerning its response to such findings and recommendations, including
 actions concluded to be necessary.

                     Reports With Recommendations That Funds Be Put to Better Use
                                                                                                 Amount
                                Report Category                                Number
                                                                                             (in thousands)
1. Reports with no management decision at the beginning of the reporting
     period                                                                        0                      $0
2. Reports issued during the reporting period                                      6              $6,886,325
3. Subtotals (Item 1 plus Item 2)                                                  6              $6,886,325
4. Reports for which a management decision was made during the reporting
     period 102
     a. Value of recommendations to which management agreed
           i. Based on proposed management action                                  5               $257,703
           ii. Based on proposed legislative action                                0                     $0
     b. Value of recommendations to which management did not agree                 2             $6,628,622
5. Reports with no management decision at the end of the reporting
     period (Item 3 minus Item 4)                                                  0                     $0
6. Reports with no management decision within 6 months of issuance                 0                     $0


 101
    See Appendix II for identification of audit reports involved.
 102
    Includes one report in which the IRS partially agreed with the values associated with the
 recommendations.


 Page 80                                                                   April 1, 2011 – September 30, 2011
  
                         TIGTA Semiannual           Report to Congress




Reports With Additional Quantifiable Impact
          on Tax Administration
In addition to questioned costs and funds put to better use, the Office of Audit has
identified measures that demonstrate the value of audit recommendations to tax
administration and business operations. These issues are of interest to IRS and the
Department of the Treasury executives, Congress, and the taxpaying public, and are
expressed in quantifiable terms to provide further insight into the value and potential
impact of the Office of Audit’s products and services. Including this information also
promotes adherence to the intent and spirit of the Government Performance and
Results Act (GPRA).

Definitions of these additional measures are:
Increased Revenue: Assessment or collection of additional taxes.
Revenue Protection: Proper denial of claims for refunds, including recommendations
that prevent erroneous refunds or efforts to defraud the tax system.
Reduction of Burden on Taxpayers: Decreases by individuals or businesses in the
need for, frequency of, or time spent on contacts, recordkeeping, preparation, or costs
to comply with tax laws, regulations, and IRS policies and procedures.
Taxpayer Rights and Entitlements at Risk: The protection of due process (rights)
granted to taxpayers by law, regulation, or IRS policies and procedures. These rights
most commonly arise when filing tax returns, paying delinquent taxes, and examining
the accuracy of tax liabilities. The acceptance of claims for and issuance of refunds
(entitlements) are also included in this category, such as when taxpayers legitimately
assert that they overpaid their taxes.
Taxpayer Privacy and Security: Protection of taxpayer financial and account
information (privacy). Processes and programs that provide protection of tax
administration, account information, and organizational assets (security).
Inefficient Use of Resources: Value of efficiencies gained from recommendations to
reduce cost while maintaining or improving the effectiveness of specific programs;
resources saved would be available for other IRS programs. Also, the value of internal
control weaknesses that resulted in an unrecoverable expenditure of funds with no
tangible or useful benefit in return.
Reliability of Management Information: Ensuring the accuracy, validity, relevance,
and integrity of data, including the sources of data and the applications and
processing thereof, used by the organization to plan, monitor, and report on its
financial and operational activities. This measure will often be expressed as an
absolute value, i.e., without regard to whether a number is positive or negative, of
overstatements or understatements of amounts recorded on the organization’s
documents or systems.

April 1, 2011 – September 30, 2011                                                Page 81
                                                 
                               TIGTA Semiannual                Report to Congress
 

Protection of Resources: Safeguarding human and capital assets, used by or in the
custody of the organization, from inadvertent or malicious injury, theft, destruction, loss,
misuse, overpayment, or degradation.

The number of taxpayer accounts and dollar values shown in the following chart were
derived from analyses of historical data, and are thus considered potential barometers
of the impact of audit recommendations. Actual results will vary depending on the
timing and extent of management’s implementation of the corresponding corrective
actions, and the number of accounts or subsequent business activities affected as of
the dates of implementation. Also, a report may have issues that affect more than one
outcome measure category.


         Reports With Additional Quantifiable Impact on Tax Administration
                                                   Number of
                                   Number of                       Dollar Value
      Outcome Measure Category               103    Taxpayer
                                   Reports                       (in thousands)
                                                    Accounts

      Increased Revenue                                5                 20,559           $2,435,132

      Revenue Protection                               5               2,382,460          $6,590,801

      Reduction of Burden on Taxpayers                 6               6,060,854             $9,053
      Taxpayer Rights and Entitlements
      at Risk                                         10                106,468             $30,894

      Taxpayer Privacy and Security                    2                 411,828                 $0

      Inefficient Use of Resources                     7                      0             $12,692
      Reliability of Management
      Information                                      7                      0            $734,551

      Protection of Resources                          2                      0                 $48

Management did not agree with the outcome measures in the following reports:
       •   Increased Revenue: Reference Numbers 2011-30-084, 2011-30-112, and
           2011-30-114;
       •   Revenue Protection: Reference Numbers 2011-40-059 and 2011-41-083;
       •   Reduction of Burden on Taxpayers: Reference Numbers 2011-40-058 and
           2011-30-112;
       •   Taxpayer Rights and Entitlements at Risk: Reference Numbers 2011-40-059
           and 2011-30-063;
       •   Inefficient Use of Resources: Reference Numbers 2011-20-044, 2011-20-074,
           2011-20-111, and 2011-20-099; and
       •   Reliability of Management Information: Reference Numbers 2011-10-041,
           2011-40-058, and 2011-10-125.
103
      See Appendix II for identification of audit reports involved.

Page 82                                                                 April 1, 2011 – September 30, 2011
 
                         TIGTA Semiannual       Report to Congress



The following reports contained quantifiable impacts other than the number of taxpayer
accounts and dollar value:

   •   Reduction of Burden on Taxpayers: Reference Number 2011-40-073;
   •   Taxpayer Rights and Entitlements at Risk: Reference Number 2011-30-093;
   •   Taxpayer Privacy and Security: Reference Number 2011-40-054;
   •   Reliability of Management Information: Reference Numbers 2011-10-047,
       2011-40-058, 2011-10-086, and 2011-10-125; and
   •   Protection of Resources: Reference Number 2011-10-086.




April 1, 2011 – September 30, 2011                                             Page 83
                                             
          TIGTA Semiannual   Report to Congress
 




Page 84                               April 1, 2011 – September 30, 2011
 
                               TIGTA Semiannual             Report to Congress




                Investigations Statistical Reports
                                Significant Investigative Achievements
                                      April 1, 2011 – September 30, 2011
      Complaints/Allegations Received by TIGTA

           Complaints against IRS Employees                                                 2,382
           Complaints against Non-Employees                                                 2,366
          Total Complaints/Allegations                                                      4,748
      Status of Complaints/Allegations Received by TIGTA
           Investigations Initiated                                                         1,560
           Referred to IRS for Action                                                        147
           Referred to IRS for Information Only                                             1,008
                                          104
           Referred to a Non-IRS Entity                                                        2
           Closed with No Referral                                                          1,367
           Closed with All Actions Completed                                                 726
          Total Complaints                                                                  4,748
      Investigations Opened and Closed
           Total Investigations Opened                                                      1,800
           Total Investigations Closed                                                      1,956
      Financial Accomplishments

           Embezzlement/Theft Funds Recovered                                         $65,346,296
           Court Ordered Fines, Penalties and Restitution                             $18,924,070
           Out-of-Court Settlements                                                            0
          Total Financial Accomplishments                                             $84,270,366




104
      A non-IRS entity includes other law enforcement entities or Federal agencies.
.


April 1, 2011 – September 30, 2011                                                              Page 85
                                                        
                              TIGTA Semiannual                 Report to Congress
 


                                   Status of Closed Criminal Investigations
                                                                             Non-
                               105                      Employee                                  Total
          Criminal Referrals                                               Employee
          Referred – Accepted for Prosecution                  33               46                   79
          Referred – Declined for Prosecution              384                 316               700
          Referred – Pending Prosecutorial
          Decision                                             14               34                   48
          Total Criminal Referrals                         431                 396               827
          No Referral                                      523                 571             1,094

                                         Criminal Dispositions 106
                                                                             Non-
                                                        Employee                                Total
                                                                           Employee
      Guilty                                                    19               72                  91
      Nolo Contendere (no contest)                                  2             0                  2
      Pre-trial Diversion                                           3             3                  6
                             107
      Deferred Prosecution                                          1             0                  1
      Not Guilty                                                    0             0                  0
                   108
      Dismissed                                                     4             7                  11
      Total Criminal Dispositions                               29               82              111
                                                                                               109
               Administrative Dispositions on Closed TIGTA Investigations
                                                                                                 Total
      Removed, Terminated or Other                                                                417
      Suspended/Reduction in Grade                                                                129
      Oral or Written Reprimand/Admonishment                                                      150
      Closed – No Action Taken                                                                     74
      Clearance Letter Issued                                                                      73
      Employee Resigned Prior to Adjudication                                                     126
                                                         110
      Non-Internal Revenue Service Employee Actions                                               589
      Total Administrative Dispositions                                                         1,558


105
    Criminal referrals include both Federal and State dispositions.
106
    Final criminal dispositions during the reporting period. This data may pertain to investigations referred
criminally in prior reporting periods and do not necessarily relate to the investigations referred criminally in
the Status of Closed Criminal Investigations table above.
107
    Generally in a deferred prosecution, the defendant accepts responsibility for his/her actions, and
complies with certain conditions imposed by the court. Upon the defendant’s completion of the
conditions, the court dismisses the case. If the defendant fails to fully comply, the court reinstates
prosecution of the charge.
108
    Court dismissed charges.
109
    Final administrative dispositions during the reporting period. This data may pertain to investigations
referred administratively in prior reporting periods and does not necessarily relate to the investigations
closed in the Investigations Opened and Closed table.
110
    Administrative actions taken by the IRS against non-IRS employees.

Page 86                                                                 April 1, 2011 – September 30, 2011
 
                                  TIGTA Semiannual                 Report to Congress




                                               Appendix I
                Statistical Reports - Other
       Audit Reports With Significant Unimplemented
                    Corrective Actions
    The Inspector General Act of 1978 requires identification of significant recommendations
    described in previous semiannual reports for which corrective actions have not been
    completed. The following list is based on information from the IRS Office of Management
    Control’s automated tracking system maintained by the Department of the Treasury’s
    management officials.

                 IRS                                              Report Title and Recommendation Summary
              Management                        Projected               (F = Finding Number (No.), R =
Reference      Challenge                       Completion                     Recommendation No.,
 Number          Area              Issued         Date                            P = Plan No.)
2005-40-026   Providing Quality    February                     Processes Used to Ensure the Accuracy of Information
              Taxpayer Service      2005                        for Individual Taxpayers on IRS.GOV Need
                 Operations                                     Improvement

                                                10/01/11        F-1, R-2, P-2. Enhance the IRS’s content management
                                                                software application to provide the ability to identify specific
                                                                content accessed or revised by individual users.

2005-20-024    Security of the    March 2005                    The Disaster Recovery Program Has Improved, But It
                   IRS                                          Should Be Reported as a Material Weakness Due to
                                                                Limited Resources and Control Weaknesses

                                                10/01/11        F-1, R-1, P-1, P-5. Report a disaster recovery program
                                                                material weakness to the Department of the Treasury as
                                                                part of the IRS’s Federal Managers’ Financial Integrity Act
                                                                of 1982 annual evaluation of controls and include any new
                                                                or currently underway activities in the corrective action plan.
2005-10-129   Providing Quality   September                     Progress Has Been Made, but Further Improvements
              Taxpayer Service      2005                        Are Needed in the Administration of the Low Income
                 Operations                                     Taxpayer Clinic Grant Program

                                                01/15/12        F-1, R-1, P-2. Establish goals and performance measures
                                                                for the Low Income Taxpayer Clinic program to assist
                                                                Congress and IRS in evaluating the success of the
                                                                program.
2007-10-082    Tax Exempt         May 2007                      Screening Tax-Exempt Organizations Filing
               Organizations                                    Information Provides Minimal Assurance That Potential
                                                                Terrorist-Related Activities Are Identified

                                                06/15/13        F-1, R-1, P-1. Develop and implement a long-term strategy
                                                                to automate the matching of Forms 1023 and 990
                                                                information against a consolidated terrorist watch list to
                                                                initially identify potential terrorist activities related to tax-
                                                                exempt organizations.




    April 1, 2011 – September 30, 2011                                                                               Page 87
                                                             
                                   TIGTA Semiannual             Report to Congress
     


                 IRS                                           Report Title and Recommendation Summary
              Management                         Projected           (F = Finding Number (No.), R =
Reference      Challenge                        Completion                 Recommendation No.,
 Number          Area               Issued         Date                        P = Plan No.)
2008-40-087   Complexity of the    March 2008                Individual Retirement Account Contributions and
                 Tax Law                                     Distributions Are Not Adequately Monitored to Ensure
                                                             Tax Compliance

                                                 12/15/11    F-1, R-1, P-1. Analyze Forms 5498 to identify the causes
                                                             of the errors and possible corrective actions.

2008-40-167   Tax Compliance         August                  The Withholding Compliance Program Is Improving
                 Initiatives          2008                   Taxpayer Compliance; However, Additional
                                                             Enforcement Actions Are Needed

                                                 12/15/13    F-2, R-1, P-1. Create a single data entry point for
                                                             processing Withholding Compliance Program cases and,
                                                             provide lock-in-letter issuance authority to other IRS
                                                             functions.

2009-40-024    Erroneous and       December                  The Earned Income Program Has Made Advances;
                  Improper           2008                    However, Alternatives To Traditional Compliance
                 Payments                                    Methods Are Needed to Stop Billions of Dollars in
                                                             Erroneous Payments

                                                 12/15/11    F-1, R-1, P-1. Conduct a study to identify alternative
                                                             processes that will expand the IRS’s ability to effectively
                                                             and efficiently identify and adjust erroneous Earned Income
                                                             Tax Credit (EITC) claims for which data show that the
                                                             taxpayer does not meet the EITC requirements.

2009-10-107       Improving        July 2009                 Controls Over Real Property Management Have
              Performance and                                Improved; However, Additional Efforts Are Needed to
              Financial Data for                             Address Planned Staffing Increases
                Program and
              Budget Decisions                   06/15/13    F-1, R-2, P-1. Develop a comprehensive national policy
                                                             regarding workstation sharing for the flexi-place program
                                                             and the ratio of flexi-place employees to a shared
                                                             workstation.
                                                 01/15/14    F-1, R-4, P-1. Develop procedures requiring that building
                                                             level projected space needs assessments include
                                                             consideration of the impact of workstation sharing, and be
                                                             periodically reconciled in total to agency-wide projected
                                                             staffing levels.
2009-40-112      Taxpayer            August                  Mortgage Interest Data Could Be Used to Pursue More
                Compliance            2009                   Nonfilers and Underreporters
                 Initiatives
                                                 12/15/11    F-1, R-1, P-1. Explore the feasibility of making greater use
                                                             of mortgage interest data to pursue additional nonfilers and
                                                             underreporters for audit.

2009-10-121       Improving        September                 The Taxpayer Advocate Service Should Reevaluate the
              Performance and        2009                    Roles of Its Staff and Improve the Administration of the
              Financial Data for                             Taxpayer Advocacy Panel
                Program and
              Budget Decisions                   11/15/11    F-2, R-1, P-1. Reevaluate the roles of the staff assigned to
                                                             assist the Panel and establish guidance to ensure that the
                                                             Panel functions independently.




    Page 88                                                                  April 1, 2011 – September 30, 2011
     
                                  TIGTA Semiannual                Report to Congress



                 IRS                                             Report Title and Recommendation Summary
              Management                       Projected               (F = Finding Number (No.), R =
Reference      Challenge                      Completion                     Recommendation No.,
 Number          Area              Issued        Date                            P = Plan No.)
2009-40-130      Processing       September                    Repeated Efforts to Modernize Paper Tax Return
                 Returns and        2009                       Processing Have Been Unsuccessful; However,
              Implementing Tax                                 Actions Can Be Taken to Increase Electronic Filing and
                Law Changes                                    Reduce Processing Costs
                During the Tax
                Filing Season                  02/15/14        F-1, R-2, P-1. Refocus the Modernized Submission
                                                               Processing Concept to include implementing a process to
                                                               convert paper-filed tax returns prepared by individuals
                                                               using a tax-preparation software package into an electronic
                                                               format.
2009-40-138      Taxpayer         September                    Combat Zone Indicators on Taxpayer Accounts Are
               Protection and       2009                       Frequently Inaccurate
                   Rights
                                               01/15/12        F-2, R-1, P-1. Improve the process for identifying joint filers
                                                               serving in the military to properly identify which individual(s)
                                                               is/are in a combat zone to ensure appropriate enforcement
                                                               actions are taken.
                                               01/15/12        F-2, R-2, P-1. Improve the process for ensuring that
                                                               Combat Zone indicators are reversed when an exit date is
                                                               received from the Department of Defense (DOD) for those
                                                               individuals who file a joint tax return but do not maintain the
                                                               same order of primary and secondary taxpayer.
                                               01/15/12        F-3, R-1, P-1. Discontinue providing the option to
                                                               taxpayers of self-identifying by annotating a tax return with
                                                               “Combat Zone” and continue to provide individuals with the
                                                               option of self-identifying by telephone or electronically.
                                               12/15/11        F-3, R-2, P-1. Take action to correct the 339,027 taxpayers
                                                               with inaccurate Combat Zone indicators what were
                                                               incorrectly reactivated.
                                               01/15/12        F-4, R-1, P-1. Develop a process to identify and resolve
                                                               unpostable records when entry and exit date information
                                                               provided by the DOD is unable to be posted to an
                                                               individual’s tax account.
                                               01/15/12        F-4, R-2, P-1. Take actions to resolve the 458 DOD
                                                               Combat Zone transactions posted to invalid Social Security
                                                               Numbers and revise the DOD validation process to ensure
                                                               accurate posting of entry and exit date information.
                                               12/15/11        F-5, R-1, P-1. Develop a process to validate Combat Zone
                                                               service at the time an individual self-identifies.
                                               01/15/12        F-5, R-2, P-1. Improve the process for individuals who self-
                                                               identify their Combat Zone service by email with the
                                                               establishment of a secure fillable form with the required
                                                               data fields.

2010-40-005   Providing Quality   December                     Individual Taxpayer Identification Numbers Are Being
              Taxpayer Service      2009                       Issued Without Sufficient Supporting Documentation

                                               08/15/12        F-3, R-1, P-1. Ensure the data on the Real-Time System
                                                               are accurate and validate the records that indicate an agent
                                                               submitted the application to ensure that the Individual
                                                               Taxpayer Identification Number Program has accurate and
                                                               reliable data to oversee the Program.
                                               08/15/12        F-3, R-2, P-1. Develop procedures and internal controls to
                                                               monitor the Real-Time System to ensure information
                                                               entered is accurate.


    April 1, 2011 – September 30, 2011                                                                             Page 89
                                                            
                                TIGTA Semiannual             Report to Congress
     


                 IRS                                        Report Title and Recommendation Summary
              Management                      Projected           (F = Finding Number (No.), R =
Reference      Challenge                     Completion                 Recommendation No.,
 Number          Area            Issued         Date                        P = Plan No.)
2010-40-017   Erroneous and      January                  Insufficient and Inexperienced Staff Could Reduce the
                 Improper         2010                    Ability to Detect and Stop Fraudulent Refunds
                Payments
                                              11/15/11    F-1, R-1, P-1. Perform a comprehensive analysis during
                                                          the 2010 Filing Season to determine the average time to
                                                          complete one unit of work for each of the transitioned
                                                          activities.

2010-30-023     Taxpayer        March 2010                Lien Determinations Were Untimely or Not Made
               Compliance                                 Appropriately For Over $1.4 Billion in Delinquent Taxes
                Initiatives
                                              12/15/11    F-3, R-1, P-1. Consider assessing liens on those modules
                                                          in the Queue with a balance due between $5,000 and
                                                          $25,000 that meet the study criteria before shelving.

2010-30-025     Taxpayer        March 2010                Employment Tax Compliance Could Be Improved With
               Compliance                                 Better Coordination and Information Sharing
                Initiatives
                                              01/15/12    F-1, R-1, P-1. Create an audit code to flag paper returns
                                                          that have an incomplete Form 8919 attached.
                                              01/15/12    F-1, R-4, P-1. Ensure that paper and electronically filed
                                                          returns with Forms 8919 attached are compared to filed
                                                          Forms SS-8 through a post-filing compliance program.
                                                          Ensure that paper returns flagged during processing are
                                                          reviewed and any noncompliance addressed.

2010-20-027     Taxpayer        March 2010                Additional Security Is Needed For Access to the
              Protection and                              Registered User Portal
                  Rights
                                              09/15/12    F-1, R-1, P-1. Require suitability checks on delegated
                                                          users who e-file tax returns or access the e-Services
                                                          incentive products and disable the principal consent feature
                                                          on e-Services that allows a user to propagate his or her
                                                          privileges to other users.
                                              09/15/12    F-1, R-3, P-1. Enhance the e-file application on the Third
                                                          Party Data Store to post the complete results of the
                                                          Automated Suitability Analysis Program’s spouse tax
                                                          compliance check.
                                              09/15/12    F-1, R-5, P-1. Make passwords more difficult to guess by
                                                          unauthorized individuals and decrease the use of Social
                                                          Security Numbers as usernames.
                                              09/15/12    F-1, R-6, P-1. Implement a control to allow users to answer
                                                          a series of challenge questions to unlock their accounts.

2010-20-028   Security of the   March 2010                Additional Security Controls Are Needed to Protect the
                  IRS                                     Automated Collection System

                                              12/01/11    F-1, R-3, P-1. Make the identity access provisioning and
                                                          management solution a top priority.




    Page 90                                                               April 1, 2011 – September 30, 2011
     
                                 TIGTA Semiannual                 Report to Congress



                 IRS                                             Report Title and Recommendation Summary
              Management                       Projected               (F = Finding Number (No.), R =
Reference      Challenge                      Completion                     Recommendation No.,
 Number          Area             Issued         Date                            P = Plan No.)
2010-30-032      Taxpayer        March 2010                    Collection Alternatives Were Available to Economically
                Compliance                                     Distressed Taxpayers, but Some New Processes Need
                 Initiatives                                   Improvement

                                               09/15/12        F-1, R-1, P-1, P-2. Submit a request to revise the computer
                                                               programming to allow taxpayers only one additional
                                                               automatic skip per 12-month period and include only
                                                               individual taxpayers in the processing routine.

2010-40-043      Taxpayer        March 2010                    A Service-wide Strategy Is Needed to Address Growing
                Compliance                                     Noncompliance With Individual Retirement Account
                 Initiatives                                   Contribution and Distribution Requirements

                                               10/15/12        F-1, R-1, P-1. Ensure a Service-wide strategy is developed
                                                               to address retirement provision noncompliance.

2010-40-045    Security of the   March 2010                    Telephone Authentication Practices Need
                   IRS                                         Improvement to Better Prevent Unauthorized
                                                               Disclosures

                                               07/15/14        F-3, R-1, P-1. Incorporate available technology to
                                                               authenticate callers in the queue as part of the
                                                               development of the Authentication Retention Project.

2010-20-044   Modernization of   May 2010                      Implementing Best Practices and Additional Controls
                 the IRS                                       Can Improve Data Center Energy Efficiency and the
                                                               Environmental and Energy Program

                                               12/15/11        F-1, R-1, P-1. Ensure policies and procedures are
                                                               established to evaluate and determine which best practices
                                                               to implement to improve data center energy efficiency.
                                               11/15/11        F-1, R-2, P-1. Ensure information technology equipment
                                                               energy use is measured in order to determine the energy
                                                               efficiency and savings from implementing energy
                                                               improvements.
                                               03/01/12        F-1, R-4, P-1. Ensure current and future data center space
                                                               needs are identified and plans developed to consolidate or
                                                               reduce excess data center space.
                                               11/15/14        F-1, R-5, P-1. Ensure energy audits are performed at the
                                                               data centers.

2010-20-056   Modernization of   June 2010                     Additional Efforts Are Needed to Implement the
                 the IRS                                       Electronics Stewardship Program and Maximize the
                                                               Energy Efficiency of Desktop Computer Equipment

                                               10/15/11        F-2, R-1, P-1. Implement an effective process to timely
                                                               review training records and ensure employees complete
                                                               required annual training by the June 30 due date.
                                               12/15/11        F-2, R-2, P-1. Develop a tracking system to support the
                                                               ongoing review of IRS efforts in acquiring electronic
                                                               products of which at least 95 percent are Electronic Product
                                                               Environmental Assessment Tool-registered.




    April 1, 2011 – September 30, 2011                                                                          Page 91
                                                            
                                TIGTA Semiannual            Report to Congress
     


                 IRS                                       Report Title and Recommendation Summary
              Management                     Projected           (F = Finding Number (No.), R =
Reference      Challenge                    Completion                 Recommendation No.,
 Number          Area            Issued        Date                        P = Plan No.)
2010-30-061      Taxpayer       June 2010                Plans Exist to Engage the Tax Preparer Community in
                Compliance                               Reducing the Tax Gap; However, Enhancements Are
                 Initiatives                             Needed

                                             01/15/14    F-1, R-1, P-1. Update the existing IRS Strategic Plans to
                                                         ensure all of the information in the plans as required by the
                                                         Government Performance and Results Act of 1993 and
                                                         Office of Management and Budget Circular A-11
                                                         (Preparation, Submission, and Execution of the Budget).
                                                         F-2, R-1, P-1. Define and include in the IRS Strategic Plan
                                             01/15/14    sufficient measures that will provide data that can be used
                                                         to monitor the IRS’s efforts to achieve objectives aimed at
                                                         strengthening partnerships with tax practitioners and paid
                                                         preparers to ensure effective tax administration.


2010-41-069    Implementing     June 2010                Additional Steps Are Needed to Prevent and Recover
              Health Care and                            Erroneous Claims for the First-Time Homebuyer Credit
              Other Tax Law
                 Changes                     12/15/11    F-1, R-1, P-1. Ensure that steps are taken to reconcile
                                                         prisoner files from year to year to account for individuals
                                                         known to be incarcerated in a given year but not included
                                                         on the current year’s prisoner file.

2010-40-062   Erroneous and     July 2010                Better Use of Available Third-Party Data Could Identify
                 Improper                                and Prevent More Than One Billion Dollars in
                Payments                                 Potentially Erroneous Refunds

                                             01/15/12    F-1, R-3, P-1. Work with the Department of the Treasury,
                                                         Office of Tax Policy, to obtain limited math error authority so
                                                         that the IRS can freeze refunds while contacting taxpayers
                                                         with a questionable age for certain filing statuses, taxpayers
                                                         shown as deceased based on Social Security
                                                         Administration information, and taxpayers with questionable
                                                         EITC claims based on age difference.




    Page 92                                                               April 1, 2011 – September 30, 2011
     
                                TIGTA Semiannual                Report to Congress



                 IRS                                           Report Title and Recommendation Summary
              Management                     Projected               (F = Finding Number (No.), R =
Reference      Challenge                    Completion                     Recommendation No.,
 Number          Area            Issued        Date                            P = Plan No.)
2010-20-084   Security of the    August                      More Actions Are Needed to Correct the Security Roles
                  IRS             2010                       and Responsibilities Portion of the Computer Security
                                                             Material Weakness

                                             03/01/12        F-1, R-1, P-1. Update the Internal Revenue Manual (IRM)
                                                             to include all information technology security roles in
                                                             existence at the IRS and the related responsibilities for
                                                             each of these roles; establish recurring processes and
                                                             communications to ensure security roles and
                                                             responsibilities in the IRM are periodically reviewed and
                                                             updated and alignment between the IRM and the training
                                                             curriculum is maintained; and establish a process to
                                                             periodically collect, update, and review security role-related
                                                             procedures and guidelines to ensure day-to-day
                                                             procedures align with current IRS policy.
                                             02/01/12        F-2, R-1, P-1. Develop an effective and repeatable method
                                                             to identify all IRS and contract employees performing in
                                                             established information technology security roles; include
                                                             all IRS and contract employees performing in information
                                                             technology security roles in the population for potential
                                                             selection in the compliance assessments; and develop
                                                             adequate procedures to validate compliance with current
                                                             security role-related responsibilities through compliance
                                                             assessments that incorporate supporting evidence of
                                                             proper execution of assigned responsibilities.
                                             09/30/12        F-3, R-1, P-1. Ensure adequate and accurate metrics are
                                                             established that assess progress and can be analyzed to
                                                             develop actions to further improve implementation of
                                                             security roles and responsibilities policy.

2010-40-091   Globalization      August                      Improvements Are Needed to Reduce Erroneous
                                  2010                       Foreign Earned Income Exclusion Claims

                                             01/15/12        F-1, R-4, P-1. Include programming to forward tax returns
                                                             to the Error Resolution System for correction if the
                                                             individual incorrectly computes the foreign earned income.

2010-30-095     Taxpayer         August                      The Collection Field Function Did Not Take All
               Compliance         2010                       Appropriate Collection Actions Prior to Closing In-
                Initiatives                                  Business Taxpayer Accounts as Currently Not
                                                             Collectible

                                             10/15/11        F-1, R-1, P-2. Ensure training is provided with additional
                                                             emphasis on the importance of securing, verifying, and
                                                             analyzing financial information.
                                             02/15/12        F-1, R-2, P-1. Ensure the Integrated Collection System and
                                                             IRM are updated to include verification of income and
                                                             expense requirements.

2010-30-104     Taxpayer        September                    Currency Report Data Can Be a Good Source for Audit
               Compliance         2010                       Leads
                Initiatives
                                             06/15/13        F-1, R-1, P-1. Explore the feasibility of making greater use
                                                             of Currency Transaction Reports to pursue additional
                                                             nonfilers and underreporters for audit.



    April 1, 2011 – September 30, 2011                                                                          Page 93
                                                          
                                  TIGTA Semiannual              Report to Congress
     


                 IRS                                           Report Title and Recommendation Summary
              Management                       Projected             (F = Finding Number (No.), R =
Reference      Challenge                      Completion                   Recommendation No.,
 Number          Area              Issued        Date                          P = Plan No.)
2010-40-108   Providing Quality   September                  Toll-Free Telephone Access Exceeded Expectations,
              Taxpayer Service      2010                     But Access for Hearing- and Speech-Impaired
                                                             Taxpayers Could Be Improved

                                                01/15/13     F-1, R-1, P-1. Revise the various taxpayer instructions,
                                                             including notices, for calling the IRS to clearly explain that
                                                             the Tele-Typewriter/Telecommunications Device
                                                             (TTY/TDD) number is for hearing- and speech-impaired
                                                             individuals.
                                                01/15/12     F-1, R-2, P-1. Revise the various taxpayer publications and
                                                             IRS pages to include the Federal Relay Service website
                                                             and toll-free telephone number as a means to
                                                             communicate with the IRS.
                                                01/15/12     F-1, R-3, P-1. Determine whether it would be more efficient
                                                             to move the Atlanta, Georgia, workstation to Dallas, Texas,
                                                             or Indianapolis, Indiana, where the majority of the TTY/TDD
                                                             calls are received and have the two sites serve as each
                                                             other’s backup.

2010-40-121      Taxpayer         September                  Improvements Are Needed to Verify Refunds to
                Compliance          2010                     Nonresident Aliens Before the Refunds Are Sent Out of
                 Initiatives                                 the United States

                                                12/15/11     F-1, R-3, P-1. Determine whether it would be feasible to
                                                             require payers issuing multiple Forms 1042-S to issue a
                                                             single summary Form 1042-S at the end of the calendar
                                                             year to simplify reporting for the United States business and
                                                             third-party payer and decrease taxpayer burden.
                                                10/15/11     F-2, R-1, P-1. Use the Foreign Country Codes on Form
                                                             1040NR to ensure that the correct tax rate has been
                                                             applied.
                                                01/15/12     F-3, R-2, P-1. Clarify instructions on what constitutes
                                                             United States source income in United States Tax Guide
                                                             for Aliens (Publication 519) and Withholding of Tax on
                                                             Nonresident Aliens and Foreign Entities (Publication 515) in
                                                             regard to income from multi-level marketing companies.

2010-40-127      Taxpayer         September                  It Will Take Years to Implement the Return Preparer
                Compliance          2010                     Program and to Realize Its Impact
                 Initiatives
                                                06/15/12     F-1, R-1, P-1. Provide sufficient resources to verify
                                                             professional credentials for all attorneys and Certified
                                                             Public Accountants applying for a Preparer Tax
                                                             Identification Number (PTIN).
                                              P1: 04/15/13   F-1, R-2, P-1, P-2. Establish controls to ensure PTIN
                                              P2: 09/15/12   applicants with domestic addresses are United States
                                                             citizens or legal aliens, and the Social Security Number of
                                                             the PTIN applicant is not the Social Security Number of a
                                                             deceased person.
                                                09/15/12     F-1, R-3, P-1. Complete the study comparing the four
                                                             preparer programs to gain an understanding of the basis for
                                                             the requirements and if they should apply to each program,
                                                             to ensure consistencies in the requirements and suitability
                                                             testing among the program, and to identify any overlaps,
                                                             including user fees, among the programs.



    Page 94                                                                   April 1, 2011 – September 30, 2011
     
                              TIGTA Semiannual               Report to Congress



                 IRS                                        Report Title and Recommendation Summary
              Management                  Projected               (F = Finding Number (No.), R =
Reference      Challenge                 Completion                     Recommendation No.,
 Number          Area          Issued       Date                            P = Plan No.)
2011-30-005     Taxpayer      December                    Actions Are Needed in the Identification, Selection, and
               Compliance       2010                      Examination of Individual Tax Returns With Rental Real
                Initiatives                               Estate Activity

                                          07/15/13        F-1, R-1, P-1. Conduct an analysis to determine the
                                                          population of tax returns with rental real estate activity that
                                                          meets the criteria of the Compliance Initiative Program.
                                          02/15/12        F-2, R-1, P-1. Revise the instructions for Form 8582 to
                                                          require all taxpayers with prior year unallowed Passive
                                                          Activity Losses to submit the form with their tax returns.
                                          02/15/12        F-2, R-2, P-1. Ensure the information taxpayers provide to
                                                          report the net amount of income earned or losses incurred
                                                          from being a real estate professional is transcribed.

2011-40-009   Erroneous and   December                    Significant Problems Still Exist With Internal Revenue
                 Improper       2010                      Service Efforts to Identify Prisoner Tax Refund Fraud
                Payments
                                          12/15/11        F-2, R-3, P-1. Revise prisoner filters to verify the validity of
                                                          wages and withholding associated with prisoners
                                                          incarcerated for a year who filed tax returns claiming a
                                                          refund.
                                          01/15/12        F-3, R-1, P-1. Develop a process to assess the reliability
                                                          (accuracy and completeness) of data received from Federal
                                                          and State Prisons.

2011-41-011   Recovery Act     January                    Recovery Act: Individuals Received Millions of Dollars
                                2011                      in Erroneous Plug-In Electric and Alternative Motor
                                                          Vehicle Credits

                                          01/15/12        F-1, R-2, P-1. Initiate actions to recover the $4.5 million in
                                                          Plug-in Electric and Alternative Motor Vehicle Credits
                                                          claimed by the 2,710 individuals TIGTA identified as having
                                                          erroneously claimed these credits.
                                          01/15/12        F-1, F-3, P-1. Initiate actions to recover the more than $1.4
                                                          million in Plug-in Electric and Alternative Motor Vehicle
                                                          Credits claimed by 589 individuals that TIGTA identified as
                                                          having erroneously claimed credits for vehicles with
                                                          nonqualifying in-service dates.
                                          01/15/12        F-1, F-4, P-2. Develop a process to ensure individuals are
                                                          not erroneously claiming vehicles with nonqualifying makes
                                                          and models.
                                          01/15/12        F-1, R-5, P-1. Initiate actions to recover the $27.1 million in
                                                          Plug-in Electric and Alternative Motor Vehicle Credits
                                                          claimed by 9,621 individuals TIGTA identified as having
                                                          erroneously claimed credit for vehicles with a nonqualifying
                                                          make and model.
                                          01/15/12        F-2, R-2, P-1. Initiate actions to recover the $779,000 in
                                                          Plug-in Electric and Alternative Motor Vehicle Credits
                                                          claimed by 129 individuals TIGTA identified as having
                                                          erroneously claimed multiple credits for the same vehicle.
                                          01/15/12        F-2, R-3, P-1. Develop processes to ensure prisoners do
                                                          not receive erroneous Plug-in Electric and Alternative Motor
                                                          Vehicle Credits.




    April 1, 2011 – September 30, 2011                                                                        Page 95
                                                       
                                  TIGTA Semiannual           Report to Congress
     


                 IRS                                        Report Title and Recommendation Summary
              Management                      Projected           (F = Finding Number (No.), R =
Reference      Challenge                     Completion                 Recommendation No.,
 Number          Area              Issued       Date                        P = Plan No.)
2011-40-014      Taxpayer          January                The Income Verification Express Services Program
               Protection and       2011                  Needs Improvements to Better Protect Tax Return
                   Rights                                 Information

                                              01/15/13    F-1, R-1, P-1. Develop and enforce minimum requirements
                                                          for the Income Verification Express Services (IVES)
                                                          Program that would help ensure participants are suitable to
                                                          have a working relationship with the IRS and receive
                                                          taxpayer information from the IVES Program.
                                              09/15/12    F-1, R-3, P-1. Within one year of revising Form 13803,
                                                          contact and obtain a completed Form 13803 from all
                                                          current IVES Program participants.
                                              01/15/12    F-1, R-4, P-1. Revise Forms 4506-T and 4506T-EZ to
                                                          allow taxpayers to limit lending institutions’ disclosure of
                                                          their tax return information to non-affiliated third parties only
                                                          if it is in the course of processing or selling their loan.
2011-20-012    Security of the    February                Additional Security Is Needed for the Taxpayer Secure
                   IRS             2011                   Email Program

                                              07/01/12    F-1, R-1, P-1. Continue the acquisition of a data leakage
                                                          prevention system to ensure full deployment by April 2012.

2011-40-022   Providing Quality   February                The Taxpayer Assistance Centers Are Not Located to
              Taxpayer Service     2011                   Effectively Serve the Maximum Number of Taxpayers

                                              12/15/11    F-1, R-2, P-1. Identify opportunities to better align the
                                                          Taxpayer Assistance Centers with taxpayer needs and
                                                          complete the evaluative process in the Geographic
                                                          Footprint Initiative, including a cost-benefit analysis, return-
                                                          on-investment, taxpayer impact, stakeholder input, and
                                                          communication plan.

2011-40-023    Erroneous and      February                Reduction Targets and Strategies Have Not Been
                  Improper         2011                   Established to Prevent the Issuance of Billions of
                 Payments                                 Dollars in Improper Earned Income Tax Credit
                                                          Payments Each Year

                                              09/15/13    F-1, R-1, P-1. Establish quantifiable reduction targets and
                                                          strategies to meet those targets.
                                              09/15/13    F-2, R-1, P-1. Use the National Research Program sample
                                                          to estimate instances where the IRS incorrectly pays less in
                                                          EITC than the taxpayer claims (underpayments).




    Page 96                                                                 April 1, 2011 – September 30, 2011
     
                                TIGTA Semiannual                 Report to Congress



                 IRS                                            Report Title and Recommendation Summary
              Management                      Projected               (F = Finding Number (No.), R =
Reference      Challenge                     Completion                     Recommendation No.,
 Number          Area            Issued         Date                            P = Plan No.)
2011-30-020     Taxpayer        March 2011                    Taxpayer Payments Were Improperly Transferred to
              Protection and                                  the Excess Collection File
                  Rights
                                              06/15/12        F-1, R-2, P-1. Request revisions to Form 8758 to include a
                                                              dedicated line for managerial approval (signature) and date
                                                              for all transfers of $100,000 or more.
                                              01/15/13        F-2, R-1, P-1. Request programming changes to
                                                              systemically issue Letter 2765C when taxpayers submit
                                                              payments after the Assessment Statute Expiration Date in
                                                              advance of an examination adjustment or with an amended
                                                              return.
                                              09/15/12        F-2, R-2, P-1. Request revisions to Letter 2765C to clarify
                                                              how to file a claim for refund and include Form 843 when
                                                              Letter 2765C is sent to the taxpayers.

2011-40-031   Security of the   March 2011                    System Validations Are Insufficient to Prevent the
                  IRS                                         Unauthorized Use of Electronic Filing

                                              02/15/12        F-1, R-1, P-1. Periodically match Social Security
                                                              Administration records.
                                              02/15/12        F-1, R-3, P-1. Ensure calls to the E-Help Desk that are
                                                              closed with the “Compromised EFIN” Solution are referred
                                                              by the IRS for further analysis and/or investigation.
                                              02/15/12        F-1, R-6, P-1. Implement a process to ensure Transmitters
                                                              are following IRS e-file guidelines and regulations.

2011-41-035   Recovery Act      March 2011                    Administration of the First-Time Homebuyer Credit
                                                              Indicates a Need for Improved Controls Over
                                                              Refundable Credits

                                              04/15/12        F-2, R-1, P-1. Develop a method similar to that used by
                                                              TIGTA to identify improper claims for purchases from
                                                              related persons and conduct examinations as appropriate
                                                              to ensure the Credits are recovered.
                                              04/15/12        F-3, R-1, P-1. Perform a review of the claims with invalid
                                                              addresses that TIGTA identified and correspond with
                                                              taxpayers in order to validate the home purchases.
                                              04/15/12        F-4, R-1, P-1. Modify the programming for the filter to
                                                              identify taxpayers who did not purchase a home so that it
                                                              identifies all claims meeting the specified criteria.
                                              04/15/12        F-5, R-1, P-1. Identify those claims for which valid
                                                              acquisition dates were not supplied and initiate post-refund
                                                              examinations (including the use of soft notices) to ensure
                                                              refunds for the invalid claims are recovered.




    April 1, 2011 – September 30, 2011                                                                          Page 97
                                                           
                          TIGTA Semiannual           Report to Congress
 


                       Other Statistical Reports
      The Inspector General Act of 1978 requires Inspectors General
                            to address the following issues:

                       Issue                                     Result for TIGTA

    Access to Information
                                                   As of September 30, 2011, there were no
    Report unreasonable refusals of information
                                                   instances where information or assistance
    available to the agency that relate to
                                                   requested by the Office of Audit was
    programs and operations for which the
                                                   unreasonably refused.
    Inspector General has responsibilities.

    Disputed Audit Recommendations
    Provide information on significant             As of September 30, 2011, there were no
    management decisions in response to audit      instances where significant recommendations
    recommendations with which the Inspector       were disputed.
    General disagrees.

    Revised Management Decisions
    Provide a description and explanation of the   As of September 30, 2011, no significant
    reasons for any significant revised            management decisions were revised.
    management decisions made during the
    reporting period.

    Audit Reports Issued in the Prior
    Reporting Period With No Management
    Response
    Provide a summary of each audit report         As of September 30, 2011, there were no
    issued before the beginning of the current     prior reports where management’s response
    reporting period for which no management       was not received.
    response has been received by the end of
    the current reporting period.

    Review of Legislation and Regulations
    Review existing and proposed legislation       TIGTA’s Office of Chief Counsel reviewed 387
    and regulations, and make                      proposed regulations and legislative requests
    recommendations concerning the impact of       during this reporting period.
    such legislation or regulations.




Page 98                                                        April 1, 2011 – September 30, 2011
 
                         TIGTA Semiannual                 Report to Congress




                                      Appendix II
                         Audit Products
               April 1, 2011- September 30, 2011
                                      Audit Products
Reference
 Number                                                Report Title
                April 2011
                Millions of Dollars in Questionable Qualified Motor Vehicle Deductions Are Being
2011-41-037
                Allowed
                Processes Were Not Established to Verify Eligibility for Residential Energy Credits
2011-41-038
                (Revenue Protection: $397,158)
                The Interactive Tax Law Assistant Helps Assistors Provide Accurate Answers to
2011-40-043
                Taxpayer Inquiries
                Collection Employees Adhered to Fair Tax Collection Practices During Fiscal Year
2011-10-045
                2010
                Fiscal Year 2011 Statutory Audit of Compliance With Legal Guidelines Prohibiting the
2011-30-040     Use of Illegal Tax Protester and Similar Designations (Taxpayer Rights and
                Entitlements: 38 taxpayers impacted)
                May 2011
                Security Over Databases Could Be Enhanced to Ensure Taxpayer Data Are Protected
2011-20-044
                (Inefficient Use of Resources: $1,113,850)
                Employees Are Provided Sufficient Information on Their Tax Responsibilities, but
                Additional Actions Are Needed to Detect All Noncompliant Employees (Reliability of
2011-10-047
                Information: 133 instances of IRS employee noncompliance not identified by the
                Employee Tax Compliance Program)
                Challenges Remain to Balance Revenue Officer Staffing With Attrition and Workload
2011-30-039
                Demands
                Fiscal Year 2011 Review of Compliance With Legal Guidelines When Conducting
2011-30-049
                Seizures of Taxpayers’ Property
                The Employee Plans Function Has Improved the Process for Selecting Retirement
2011-10-050
                Plans for Examination
                Challenges Remain When Processing Undeliverable Mail and Preventing Violations of
2011-30-051
                Taxpayers’ Rights During the Lien Due Process

2011-20-046     Access Controls for the Automated Insolvency System Need Improvement

                Limitations in the Sample Size for the Internal Revenue Service’s Employment Tax
2011-10-034
                Study May Impact the Ability to Determine Compliance Levels
                Successfully Processing Large Corporate Tax Returns Electronically Was a Major
2011-30-048     Accomplishment, but Eliminating More Compliant Returns From the Audit Stream Is a
                Work in Progress
                Some Taxpayers Were Not Appropriately Notified When Their Personally Identifiable
2011-40-054     Information Was Inadvertently Disclosed (Taxpayer Privacy and Security: 653
                taxpayers impacted and 815 disclosure records not controlled in IRS tracking systems)

April 1, 2011 – September 30, 2011                                                             Page 99
                                                    
                           TIGTA Semiannual              Report to Congress
 

                  Improvements Are Needed in the Voluntary Closing Agreement Process for Public
2011-10-042
                  Employers
                  Challenges Continue With Reporting Complete and Accurate Information in the
2011-10-041       Federal Financial Management Improvement Act Remediation Plan (Reliability of
                  Information: Reported and actual resource estimate difference of $697,894,000)
                  June 2011
                  The Direct Pay Build America Bond Compliance Check Program Has Yet to Result in
    2011-11-053   Wide-Scale Examinations
                  Fiscal Year 2011 Statutory Audit of Compliance With Notifying Taxpayers of Their
                  Rights When Requested to Extend the Assessment Statute (Taxpayer Rights and
    2011-30-055   Entitlements: 272 taxpayers impacted)
    2011-1C-033   Facilities Utilization of Professional Office Space
    2011-1C-056   Incurred Cost Audit for Fiscal Year Ended September 29, 2006
    2011-1C-064   Post-Award Accounting System
                  Control Weaknesses Over Amended Returns Allowed Some Inappropriate Claims for
    2011-41-057   the First-Time Homebuyer Credit to Be Allowed (Funds Put to Better Use: $9,246,464)
                  The Identification and Evaluation of Systemic Advocacy Projects Designed to Resolve
    2011-10-052   Broad-Based Taxpayer Problems Can Be Improved
                  Corrective Actions to Address the Disaster Recovery Material Weakness Are Being
    2011-20-060   Completed
                  July 2011
                  Taxpayers Do Not Always Receive Quality Responses When Corresponding About
                  Tax Issues (Funds Put to Better Use: $2,121,590; Taxpayer Burden: 5,505,260
2011-40-058
                  taxpayers impacted; Reliability of Information: 1,562,475 taxpayer correspondence
                  cases with incorrect category codes)
                  Some Taxpayer Responses to Math Error Adjustments Were Not Worked Timely and
                  Accurately (Revenue Protection: $39,521,235 and 34,635 taxpayers impacted;
2011-40-059
                  Taxpayer Burden: 16,006 taxpayers impacted; Taxpayer Rights and Entitlements:
                  $29,161,010 and 39,580 taxpayers impacted)
                  Individuals Who Are Not Authorized to Work in the United States Were Paid $4.2
2011-41-061
                  Billion in Refundable Credits
                  Procedures Allowed Inconsistent Processing of Streamlined Installment Agreements
2011-30-063
                  (Taxpayer Rights and Entitlements: $1,056,399 and 15,037 taxpayers impacted)
2011-30-071       Trends in Compliance Activities Through Fiscal Year 2010
                  The Taxpayer Advocate Service Can More Effectively Ensure Low Income Taxpayer
                  Clinics Are Appropriately Using Grant Funds (Reliability of Information: $33,800,000 in
2011-10-067
                  grant funds awarded without assurance the funds are serving the population intended
                  by Congress)
                  The Internal Revenue Service Provides Helpful and Accurate Tax Law Assistance, but
2011-40-070
                  Taxpayers Experience Lengthy Wait Times to Speak With Assistors
                  Trends in Criminal Investigation’s Enforcement Activities Showed Improvements for
2011-30-068
                  Fiscal Year 2010, With Gains in Most Performance Indicators
                  Plans for the Implementation of Merchant Card Reporting Could Result in Burden for
2011-40-065
                  Taxpayers and Problems for the Internal Revenue Service
                  Additional Actions and Data Are Needed to Further Analyze the Size and Skills of the
2011-10-072
                  Acquisition Workforce
                  Fiscal Year 2011 Statutory Review of Disclosure of Collection Activity With Respect to
2011-30-077
                  Joint Returns
                  Fiscal Year 2011 Statutory Audit of Compliance With Legal Guidelines Restricting the
2011-30-069
                  Use of Records of Tax Enforcement Results

Page 100                                                             April 1, 2011 – September 30, 2011
 
                         TIGTA Semiannual               Report to Congress



                Progress Has Been Made, but Additional Improvements to the E-Help Desk Are
                Needed to Support Expanding Electronic Products and Services (Taxpayer Privacy
2011-40-073     and Security: 411,175 taxpayers impacted; Inefficient Use of Resources: $8,098,185;
                Taxpayer Burden: 14,030 international callers who lacked a toll-free option for calling
                the e-help Desk)
                August 2011
                Additional Improvements Are Needed in the Office of Appeals Collection Due Process
2011-10-062     Program to Ensure Statutory Requirements Are Met (Increased Revenue: 3,196
                taxpayer accounts; Taxpayer Rights and Entitlements: 16,213 taxpayer accounts)
                Service Operations Command Center Management Can Do More to Benefit From
2011-20-078
                Implementing the Information Technology Infrastructure Library
                Affordable Care Act: The Tax Exempt and Government Entities Division’s Planning
2011-10-085
                Efforts for the Health Care Reform Legislation
                Controls Over Costs and Building Security Related to Outsourced Office Support
                Services Need to Be Improved (Inefficient Use of Resources: $861,689; Protection of
2011-10-086
                Resources: 39,659 IRS employees and 14 IRS facilities; Reliability of Information: 97
                inventory items not re-inventoried after relocation)
                Increased Call Demand and Limited Resources Continue to Adversely Affect the Toll-
2011-40-087
                Free Telephone Level of Service
2011-1C-027     Fiscal Year Ending March 31, 2007, Incurred Cost Audit
2011-1C-066     Post-Award Accounting System
2011-1C-079     Billing System Controls
                Fiscal Year 2010 Compliance With Requirements Applicable to the Contractor’s
2011-1C-080
                Research and Development Program (Questioned Costs: $87,320)
2011-1C-081     Indirect and Other Direct Cost System
2011-1C-082     Fiscal Year 2011 Through Fiscal Year 2014 Civil Group Forward Pricing Rates
2011-1C-092     Post-Award Accounting System Survey
                The Human Capital Office Improved the Hiring Process, but Additional Actions Can Be
2011-10-089
                Taken to Better Monitor Hiring Timelines
                Accuracy of Tax Returns, the Quality Assurance Processes, and Security of Taxpayer
2011-40-094
                Information Remain Problems for the Volunteer Program
                The IRS2GO Smartphone Application Is Secure, but Development Process
2011-20-076
                Improvements Are Needed
                Controls Over the Purchase Card Program Were Not Effective in Ensuring Appropriate
2011-10-075
                Use (Protection of Resources: $48,390)
                September 2011
                Risk Management Efforts Could Be Improved With Clearly Defined Procedures and
2011-10-096
                Expanded Information Sharing
                The Office of Disclosure Continues to Improve Compliance With the Freedom of
                Information Act Requirements (Taxpayer Rights and Entitlements: 45 responses to
2011-30-093
                Freedom of Information Act and Privacy Act requests not processed within statutory
                timeframes)
                The Modernized e-File Release 6.2 Included Enhancements, but Improvements Are
2011-20-088
                Needed for Tracking Performance Issues and Security Weaknesses
                Additional Steps Are Needed to Better Ensure Audits Are Expanded to Prior and/or
2011-30-084     Subsequent Year Returns When Substantial Taxes May Be Owed (Increased
                Revenue: $67,600,000 and 1,407 taxpayers impacted)




April 1, 2011 – September 30, 2011                                                            Page 101
                                                    
                       TIGTA Semiannual              Report to Congress
 

              Using Soft Notices to Address Reporting Discrepancies Has Merit, but Cost and
2011-30-091
              Benefit Questions Remain
              Legislative Requirements Were Met When Awarding Credits and Grants for the
2011-40-100
              Qualifying Therapeutic Discovery Project Program
              First-Time Homebuyer Credit Repayment Notices Were Incorrect, and the Method
2011-41-097   Used to Identify Dispositions Is Unreliable (Taxpayer Burden: 31,453 taxpayers
              impacted; Inefficient Use of Resources: $135,333)
              National Research Program Audits of Individuals Are Closely Monitored, but the
2011-30-102
              Quality of Tests for Unreported Income Is a Concern
              Billions of Dollars in Education Credits Appear to Be Erroneous (Funds Put to Better
2011-41-083   Use: $6,829,500,000; Revenue Protection: $6,437,600,000 and 2,204,321 taxpayers
              impacted)
2011-30-090   Fiscal Year 2011 Statutory Review of Restrictions on Directly Contacting Taxpayers

              Affordable Care Act: Efforts to Implement the Small Business Health Care Tax Credit
2011-40-103
              Were Mostly Successful, but Some Improvements Are Needed
              The Modernization and Information Technology Services Organization Is Effectively
2011-20-105
              Planning for the Implementation of the Affordable Care Act
              The Administration of Recruitment and Retention Incentives Has Improved, but
2011-10-107
              Additional Actions Should Be Taken
              The Employee Plans Function Should Continue Its Efforts to Obtain Needed
2011-10-108
              Retirement Plan Information
              The Customer Account Data Engine 2 Database Implementation Project Made
2011-20-110
              Progress in Design Activities, but Improvements Are Needed
              Treasury Inspector General for Tax Administration – Federal Information Security
2011-20-116
              Management Act Report for Fiscal Year 2011
              The Internal Revenue Service Adequately Prepared for and Responded to the Austin
2011-10-098
              Incident
              The 2009 Offshore Voluntary Disclosure Initiative Increased Taxpayer Compliance, but
2011-30-118
              Some Improvements Are Needed
              Affordable Care Act: The Number of Taxpayers Filing Tanning Excise Tax Returns Is
2011-40-115
              Lower Than Expected
              Mainframe Computer Performance Is Being Actively Monitored, but Defined-Service
2011-20-074   Agreements and Software Licensing Can Be Improved (Inefficient Use of Resources:
              $580,358)
              Continued Centralization of the Windows Environment Would Improve Administration
2011-20-111
              and Security Efficiencies (Inefficient Use of Resources: $1,200,000)
              Security Controls Over Wireless Technology Were Generally in Place; However,
2011-20-101
              Further Actions Can Improve Security
              Reducing the Processing Time Between Balance Due Notices Could Increase
2011-30-112   Collections (Increased Revenue: $1,817,174,265; Taxpayer Burden: $9,053,150 and
              466,544 taxpayers impacted)
2011-40-124   Many Investment Theft Loss Deductions Appear to Be Erroneous
              Collection Actions Were Not Always Pursued on Cases Returned From the Private
2011-30-114
              Debt Collection Program (Increased Revenue: $546,758,000)




Page 102                                                        April 1, 2011 – September 30, 2011
 
                         TIGTA Semiannual              Report to Congress



                Management Oversight of the Small Business/Self-Employed Division’s Fuel
                Compliance Fleet Card Program Should Be Strengthened (Reliability of Information:
2011-10-125     $2,799,237 in fleet credit card transactions without adequate records to quantify
                inappropriate charges and 10 fleet vehicles missing from the IRS’s asset inventory
                system)
2011-1C-104     Post-Award Accounting System
                The Customer Account Data Engine 2 Is Making Progress Toward Achieving Daily
2011-20-109
                Processing, but Improvements Are Warranted to Ensure Full Functionality

2011-1C-119     Post-Award Accounting System

2011-1C-120     Post-Award Accounting System

2011-1C-121     Pre-Award Survey of a Prospective Contractor’s Accounting System
                Final Incurred Cost Proposal for Fiscal Year Ending April 2, 2004 (Questioned Costs:
2011-1C-122
                $28,568,742)
                Noncompliance With Cost Accounting Standard 405, Accounting for Unallowable
2011-1C-123
                Costs
                The Passage of Late Legislation and Incorrect Computer Programming Delayed
                Refunds for Some Taxpayers During the 2011 Filing Season (Funds Put to Better Use:
                $32,639,130; Increased Revenue: $3,600,000 and 15,956 taxpayers impacted;
2011-40-128
                Revenue Protection: $112,800,000 and 143,504 taxpayers impacted; Taxpayer Rights
                and Entitlements: $675,063 and 2,765 taxpayers impacted; Taxpayer Burden: 41,591
                taxpayers impacted)
2011-1C-129     Pre-Award Accounting System Audit

2011-1C-130     Pre-Award Accounting System Audit

2011-20-106     Annual Assessment of the Internal Revenue Service Information Technology Program
                Steps Can Be Taken to Enhance the Quality of Audits Involving Small Corporate
2011-30-113
                Returns

2011-40-126     Controls Over Refunds to Certain Taxpayers Could Be Improved

                Low Participation and Tax Return Volumes Continue to Hinder the Transition of
2011-40-131
                Individual Income Tax Returns to the Modernized e-File System
                Contract Files Lacked Sufficient Information to Support Determinations of Present
2011-10-095
                Responsibility
                The Mainframe Databases Reviewed Met Security Requirements; However,
2011-20-099     Automated Security Scans Were Not Performed (Inefficient Use of Resources:
                $702,560)
                Improvements Are Needed to Ensure the Central Withholding Agreement Program
2011-30-117
                Fosters Nonresident Alien Withholding Compliance
                The Customer Account Data Engine 2 Program Management Office Implemented
2011-20-127     Systems Development Guidelines; However, Process Improvements Are Needed to
                Address Inconsistencies (Funds Put to Better Use: $ 11,537,356)
                Procurements Were Not Processed in Compliance With the American Recovery and
                Reinvestment Act of 2009 (Reliability of Information: $58,000 of Recovery Act
2011-11-132
                procurement actions not reported timely to the Department of the Treasury or the
                Office of Management and Budget)



April 1, 2011 – September 30, 2011                                                          Page 103
                                                   
           TIGTA Semiannual   Report to Congress
 




Page 104                               April 1, 2011 – September 30, 2011
 
                            TIGTA Semiannual             Report to Congress




                                       Appendix III
      TIGTA’s Statutory Reporting Requirements
TIGTA issued 21 audit reports required by statute dealing with the adequacy and security
of IRS technology during this reporting period. In FY 2011, TIGTA completed its 13th round
of statutory reviews that are required annually by the IRS Restructuring and Reform Act of
1998 (RRA 98). It also completed its annual review of the Federal Financial Management
Improvement Act of 1996 (FFMIA), and its annual review of the IRS’s Office of National
Drug Control Policy (ONDCP) Detailed Accounting Submission and Assertions. The
following table reflects the FY 2011 statutory reviews.

       Reference to                Explanation of the
    Statutory Coverage                                         Comments/TIGTA Audit Status
                                       Provision

  Enforcement Statistics         Requires TIGTA to           Ref. No: 2011-30-069, July 2011
                                 evaluate the IRS’s          The IRS achieved full compliance with
  Internal Revenue Code          compliance with             Section 1204(a) requirements. TIGTA
  (I.R.C.)                       restrictions under RRA 98   identified no violations of RRA 98 Section
  Section (§) 7803(d)(1)(A)(i)   § 1204 on the use of        1204(a) in performance evaluation
                                 enforcement statistics to   documents for the 145 employees
                                 evaluate IRS employees.     reviewed. TIGTA’s review found that
                                                             managers had not included record of tax
                                                             enforcement results (ROTERs) in
                                                             employees’ performance evaluation
                                                             documents.

                                                             Also, the IRS achieved full compliance
                                                             with Section 1204(b) and (c)
                                                             requirements. The IRS evaluated all
                                                             employees on the fair and equitable
                                                             treatment of taxpayers and prepared
                                                             quarterly self-certifications showing
                                                             whether or not ROTERs were used to
                                                             evaluate employees.

                                                             In a judgmental sample of 32 employees,
                                                             nine (28 percent) did not understand the
                                                             term “retention standard,” and 13 (41
                                                             percent) were not sure they had received
                                                             training on the retention standard.

                                                             For FY 2011, the IRS’s mandatory RRA
                                                             98 Section 1204 training for managers
                                                             and employees was launched through the
                                                             Enterprise Learning Management
                                                             System. Training delivery was staggered
                                                             from March 1, 2011 to September 30,
                                                             2011, to accommodate the operating and
                                                             functional divisions’ workload.



April 1, 2011 – September 30, 2011                                                             Page 105
                                                     
                                 TIGTA Semiannual                 Report to Congress
 

         Reference to                  Explanation of the
      Statutory Coverage                                               Comments/TIGTA Audit Status
                                           Provision

    Restrictions on Directly         Requires TIGTA to              Ref. No: 2011-30-090, September 2011
    Contacting Taxpayers             evaluate the IRS’s             TIGTA varied the scope of its review this
                                     compliance with                year to include discussions with, and
    I.R.C. § 7803(d)(1)(A)(ii)       restrictions under I.R.C.      analysis of, information received from tax
                                     § 7521 on directly             representatives and personnel from the
                                     contacting taxpayers who       IRS’s Large Business and International
                                     have indicated they prefer     (LB&I) Division who reached out to TIGTA
                                     their representatives be       about concerns they had over potential
                                     contacted.                     unreported direct contact violations.
                                                                    TIGTA also evaluated a judgmental
                                                                    sample of 2,168 large corporate audits
                                                                    that were open in the LB&I Division at the
                                                                    time of this review. TIGTA’s results
                                                                    indicated that the IRS may be at greater
                                                                    risk of infringing upon the direct contact
                                                                    provisions during audits than the small
                                                                    number of complaints filed with TIGTA’s
                                                                    Office of Investigations indicate.

                                                                    Twelve tax representatives provided
                                                                    written accounts of their experiences
                                                                    where they believed examiners were
                                                                    starting audits without the authorized
                                                                    representative or insisting on interviewing
                                                                    taxpayers after they had secured
                                                                    representation. In addition, three IRS
                                                                    employees told TIGTA that some
                                                                    examiners routinely contacted taxpayers
                                                                    initially when starting an audit regardless
                                                                    of whether a valid Power of Attorney and
                                                                    Declaration of Representative (Form
                                                                    2848) was filed with the IRS. Further,
                                                                    TIGTA’s review of 20 open large
                                                                    corporate audits found four instances
                                                                    where examiners contacted taxpayers to
                                                                    begin the audit even though the Form
                                                                    2848 was in IRS files.




Page 106                                                                    April 1, 2011 – September 30, 2011
 
                                TIGTA Semiannual                Report to Congress



       Reference to                   Explanation of the
    Statutory Coverage                                               Comments/TIGTA Audit Status
                                          Provision

  Filing of a Notice of Lien        Requires TIGTA to             Ref. No: 2011-30-051, May 2011
                                    evaluate the IRS’s            TIGTA reviewed a statistically valid
  I.R.C. § 7803(d)(1)(A)(iii)       compliance with required      sample of 125 Federal Tax Liens filed for
                                    procedures under I.R.C. §     the 12-month period ending June 30,
                                    6320 upon the filing of a     2010, and determined that the IRS mailed
                                    notice of lien.               nearly every lien notice in a timely
                                                                  manner as required by Internal Revenue
                                                                  Code Section 6320. However, TIGTA
                                                                  could not determine if all notices were
                                                                  mailed timely. This could result in
                                                                  violations of taxpayers' rights.

                                                                  In addition, the IRS did not always follow
                                                                  its own regulations for notifying taxpayers’
                                                                  representatives of the filing of lien notices.
                                                                  IRS regulations require taxpayer
                                                                  representatives be given copies of all
                                                                  correspondence issued to the taxpayer.
                                                                  For four of the 30 cases in the statistically
                                                                  valid sample for which the taxpayer had
                                                                  an authorized representative, the IRS did
                                                                  not notify the taxpayer’s representative of
                                                                  the lien filing. TIGTA estimated that
                                                                  32,552 taxpayers may have been
                                                                  adversely affected because the IRS did
                                                                  not follow requirements to notify the
                                                                  taxpayers and their representatives of the
                                                                  taxpayers’ rights related to liens.

                                                                  When an initial lien notice is returned
                                                                  undeliverable and a different address is
                                                                  available for the taxpayer, the IRS does
                                                                  not always send the lien notice to the
                                                                  taxpayer’s last known address. TIGTA
                                                                  identified cases for which a new lien
                                                                  notice should have been sent to the
                                                                  taxpayer’s updated address because IRS
                                                                  systems reflected the updated address
                                                                  prior to the lien filing. These cases could
                                                                  involve legal violations because the IRS
                                                                  did not meet its statutory requirement to
                                                                  send lien notices to the taxpayer’s last
                                                                  known address.




April 1, 2011 – September 30, 2011                                                                     Page 107
                                                         
                             TIGTA Semiannual                   Report to Congress
 

         Reference to              Explanation of the
      Statutory Coverage                                             Comments/TIGTA Audit Status
                                       Provision

    Extensions of the            Requires TIGTA to                Ref. No: 2011-30-055, June 2011
    Statute of Limitations       include information              TIGTA’s case review of 72 taxpayers with
    for Assessment of Tax        regarding extensions of          statute extensions showed that the IRS is
                                 the statute of limitations       compliant with Internal Revenue Code
    I.R.C. § 7803(d)(1)(C)       for assessment of tax            Section 6501(c)(4)(B). However, case
                                 under I.R.C. § 6501 and          files for four of the 72 taxpayers (5.6
    I.R.C. § 6501(c)(4)(B)       the provision of notice to       percent) in the statistical sample did not
                                 taxpayers regarding the          contain documentation to indicate
                                 right to refuse or limit the     whether taxpayers were directly advised
                                 extension to particular          of their rights before consenting to extend
                                 issues or a particular           the time to assess tax, but the taxpayers’
                                 period of time.                  representative signed the Consent to
                                                                  Extend the Time to Assess Tax (Form
                                                                  872) and was notified of taxpayer rights
                                                                  regarding extending the assessment
                                                                  statute of limitations. Although
                                                                  notification to the taxpayers’
                                                                  representatives appears to meet the
                                                                  intent of the law, the IRS’s internal
                                                                  procedures require notification to be
                                                                  provided to both the taxpayer and the
                                                                  representative. TIGTA estimated that 136
                                                                  taxpayers’ files did not contain
                                                                  documentation to show the taxpayers
                                                                  were directly advised of their rights when
                                                                  assessment statutes were extended.
                                                                  TIGTA is 95 percent confident that the
                                                                  range of taxpayers’ files without this
                                                                  documentation is between six and 265.

                                                                  TIGTA also identified cases in which IRS
                                                                  employees improperly used an outdated
                                                                  version of the Form 872, which did not
                                                                  contain a statement detailing the
                                                                  taxpayers’ rights. When TIGTA brought
                                                                  this issue to management’s attention,
                                                                  management took immediate action to
                                                                  correct the problem.

                                                                  In addition, TIGTA’s statistical sample of
                                                                  72 taxpayers included 42 taxpayers’ files
                                                                  containing authorizations for third-party
                                                                  representation. TIGTA’s review found
                                                                  that four of the 42 taxpayers’ (9.5 percent)
                                                                  files did not contain documentation that
                                                                  the taxpayers’ representatives were
                                                                  provided with the required notifications.
                                                                  TIGTA estimated that 136 taxpayers’ files
                                                                  were not documented to show that
                                                                  taxpayers’ representatives were given
                                                                  copies of the written communications.
                                                                  TIGTA is 95 percent confident that the

Page 108                                                                  April 1, 2011 – September 30, 2011
 
                                TIGTA Semiannual                Report to Congress



       Reference to                   Explanation of the
    Statutory Coverage                                               Comments/TIGTA Audit Status
                                          Provision
                                                                  range of taxpayers’ files without this
                                                                  documentation is between six and 265.




  Levies                            Requires TIGTA to             Ref. No: 2011-30-036, March 2011
                                    evaluate the IRS’s            The IRS is protecting taxpayers’ rights
  I.R.C. § 7803(d)(1)(A)(iv)        compliance with required      when issuing systemically generated and
                                    procedures under I.R.C. §     manually prepared levies. TIGTA
                                    6330 regarding levies.        reviewed 30 systemically generated
                                                                  levies identified through the Automated
                                                                  Collection System and Integrated
                                                                  Collection System and determined that
                                                                  systemic controls were effective to ensure
                                                                  that the taxpayers were given notice of
                                                                  their appeal rights at least 30 calendar
                                                                  days prior to the issuance of the levies.
                                                                  In addition, TIGTA identified 60 manual
                                                                  levies issued by employees on those
                                                                  same systems and determined that all the
                                                                  taxpayers were given notice of their
                                                                  appeal rights at least 30 calendar days
                                                                  prior to issuance of the levies.



  Collection Due Process            Requires TIGTA to             Ref. No: 2011-10-062, August 2011
                                    evaluate the IRS’s            TIGTA identified areas in which Appeals
  I.R.C. § 7803(d)(1)(A)(iii)       compliance with required      can improve its processing of Collection
  and (iv)                          procedures under I.R.C.       Due Process cases. Specifically, Appeals
                                    §§ 6320 and 6330              did not always grant taxpayers the correct
                                    regarding taxpayers’ rights   type of hearing. TIGTA found significantly
                                    to appeal lien or levy        more errors related to the Collection
                                    actions.                      Statute Expiration Dates on taxpayer
                                                                  accounts than during prior audits. TIGTA
                                                                  also found that Appeals personnel are still
                                                                  not always documenting their impartiality
                                                                  or the legal verification statement in their
                                                                  case files.




April 1, 2011 – September 30, 2011                                                                   Page 109
                                                          
                                 TIGTA Semiannual            Report to Congress
 

         Reference to                  Explanation of the
      Statutory Coverage                                            Comments/TIGTA Audit Status
                                           Provision

    Seizures                         Requires TIGTA to           Ref. No: 2011-30-049, May 2011
                                     evaluate the IRS’s          TIGTA reviewed a random sample of 50
    I.R.C. § 7803(d)(1)(A)(iv)       compliance with required    of the 578 seizures conducted from July
                                     procedures under I.R.C.     1, 2009, through June 30, 2010, to
                                     §§ 6330 through 6344        determine whether the IRS was
                                     when conducting seizures.   complying with legal and internal
                                                                 guidelines when conducting each seizure.
                                                                 In the majority of seizures, the IRS
                                                                 followed all guidelines, and TIGTA did not
                                                                 identify any instances in which the
                                                                 taxpayers were adversely affected.

                                                                 However, TIGTA found instances in
                                                                 which:

                                                                     •   The amount of the liability for
                                                                         which the seizure was made was
                                                                         not correct on the notice of
                                                                         seizure provided to the taxpayer.
                                                                         (I.R.C. § 6335(a))
                                                                     •   The sale of the seized property
                                                                         was not advertised as required.
                                                                         (I.R.C. § 6335(b))
                                                                     •   Expenses and proceeds resulting
                                                                         from the seizure were not
                                                                         properly applied to the taxpayer’s
                                                                         account.
                                                                         (I.R.C. § 6342(a))
                                                                 When legal and internal guidelines are
                                                                 not followed, it could result in the abuse of
                                                                 taxpayers’ rights.

                                                                 Over the past several years, the IRS has
                                                                 implemented procedures and controls
                                                                 significantly improving compliance with
                                                                 legal and internal guidelines.




Page 110                                                                 April 1, 2011 – September 30, 2011
 
                              TIGTA Semiannual                Report to Congress



       Reference to                 Explanation of the
    Statutory Coverage                                               Comments/TIGTA Audit Status
                                        Provision

  Taxpayer Designations –         An evaluation of the IRS’s      Ref. No: 2011-30-040, April 2011
  Illegal Tax Protester           compliance with                 The IRS has not reintroduced past Illegal
  Designation and Nonfiler        restrictions under RRA 98       Tax Protester codes or similar
  Designation                     § 3707 on designation of        designations on taxpayer accounts. In
                                  taxpayers.                      addition, the Internal Revenue Manual no
  I.R.C. § 7803(d)(1)(A)(v)                                       longer contains any Illegal Tax Protester
                                                                  references. However, TIGTA found that
                                                                  out of approximately 3.6 million records
                                                                  and cases, there were 38 instances in
                                                                  which 34 employees had referred to
                                                                  taxpayers as “Tax Protester,”
                                                                  “Constitutionally Challenged,” or other
                                                                  similar designations in case narratives on
                                                                  the computer systems analyzed.



  Disclosure of Collection        Requires TIGTA to review        Ref. No: 2011-30-077, July 2011
  Activities With Respect         and certify whether the         IRS procedures provide employees with
  to Joint Returns                IRS is complying with           sufficient guidance for handling joint filer
                                  I.R.C. § 6103(e)(8) to          collection activity information requests.
  I.R.C. § 7803(d)(1)(B)          disclose information to an      However, TIGTA could not determine
                                  individual filing a joint       whether the IRS fully complied with I.R.C.
  I.R.C. § 6103(e)(8)             return on collection activity   § 6103(e)(8) requirements when
                                  involving the other             responding to written collection activity
                                  individual filing the return.   information requests from joint filers. IRS
                                                                  management information systems did not
                                                                  separately record or monitor joint filer
                                                                  requests, and there was no legal
                                                                  requirement for the IRS to do so. Further,
                                                                  TIGTA did not recommend the creation of
                                                                  a separate tracking system.



  Taxpayer Complaints             Requires TIGTA to include       Statistical results on the number of
                                  in each of its Semiannual       taxpayer complaints received are shown
  I.R.C. § 7803(d)(2)(A)          Reports to Congress the         on page 85.
                                  number of taxpayer
                                  complaints received and
                                  the number of employee
                                  misconduct and taxpayer
                                  abuse allegations received
                                  by IRS or TIGTA from
                                  taxpayers, IRS employees
                                  and other sources.




April 1, 2011 – September 30, 2011                                                                   Page 111
                                                          
                             TIGTA Semiannual                Report to Congress
 

         Reference to              Explanation of the
      Statutory Coverage                                            Comments/TIGTA Audit Status
                                       Provision

    Administrative or Civil      Requires TIGTA to include       Ref. No: 2011-10-045, April 2011
    Actions With Respect to      information regarding any       No Fair Tax Collection Practices
    the Fair Tax Collection      administrative or civil         violations were identified for cases on the
    Practices Act of 1996        actions with respect to         IRS Human Capital Office Workforce
                                 violations of the fair debt     Relation’s Automated Labor and
    I.R.C. § 7803(d)(1)(G)       collection provision of         Employee Relations Tracking System that
                                 I.R.C. § 6304, including a      were closed in FY 2010. In addition, no
    I.R.C. § 6304                summary of such actions,        cases were identified that were miscoded
                                 and any resulting               as Fair Tax Collection Practices violations
    RRA 98 § 3466                judgments or awards             and should not have been or that should
                                 granted.                        have been coded as violations but were
                                                                 not. Further, there were no civil actions
                                                                 resulting in monetary settlements paid to
                                                                 taxpayers because of a Fair Tax
                                                                 Collection Practices violation.




    Denial of Requests for       Requires TIGTA to include       Ref. No: 2011-30-093, September 2011
    Information                  information regarding           The IRS continued to improve the
                                 improper denial of              accuracy and completeness of its
    I.R.C. § 7803(d)(1)(F)       requests for information        responses to requests for information
                                 from the IRS, based on a        covered by the FOIA. IRS Disclosure
    I.R.C. § 7803(d)(3)(A)       statistically valid sample of   personnel continued to follow required
                                 the total number of             procedures on all 61 FOIA/Privacy Act
                                 determinations made by          requests that TIGTA reviewed. The IRS
                                 the IRS to deny written         also properly adhered to the legal
                                 requests to disclose            requirements under I.R.C. § 6103 in all 65
                                 information to taxpayers        requests that TIGTA reviewed.
                                 on the basis of I.R.C.
                                 § 6103 or 5 U.S.C.              Since FY 2000, the IRS has made
                                 § 552(b)(7).                    significant improvement in responding
                                                                 timely to FOIA/Privacy Act requests. The
                                                                 increase in responsiveness may, in part,
                                                                 be due to the continued decrease in the
                                                                 numbers of FOIA/Privacy Act requests
                                                                 received since TIGTA’s first review in FY
                                                                 2000.




Page 112                                                                 April 1, 2011 – September 30, 2011
 
                           TIGTA Semiannual               Report to Congress



       Reference to              Explanation of the
    Statutory Coverage                                         Comments/TIGTA Audit Status
                                     Provision

  Adequacy and Security of     Requires TIGTA to            Information Technology Reviews:
  the Technology of the IRS    evaluate the IRS’s           Ref. No. 2011-20-001, November 2010
                               adequacy and security of     Ref. No. 2011-20-006, December 2010
  I.R.C. § 7803(d)(1)(D)       its technology.              Ref. No. 2011-20-007, February 2011
                                                            Ref. No. 2011-20-060, June 2011
                                                            Ref. No. 2011-20-078, August 2011
                                                            Ref. No. 2011-20-076, August 2011
                                                            Ref. No. 2011-20-074, September 2011
                                                            Ref. No. 2011-20-088, September 2011
                                                            Ref. No. 2011-20-099, September 2011
                                                            Ref. No. 2011-20-105, September 2011
                                                            Ref. No. 2011-20-106, September 2011
                                                            Ref. No. 2011-20-109, September 2011
                                                            Ref. No. 2011-20-110, September 2011
                                                            Ref. No. 2011-20-127, September 2011

                                                            Security Reviews:
                                                            Ref. No. 2011-20-003, November 2010
                                                            Ref. No. 2011-20-012, February 2011
                                                            Ref. No. 2011-20-044, May 2011
                                                            Ref. No. 2011-20-046, May 2011
                                                            Ref. No. 2011-20-101, September 2011
                                                            Ref. No. 2011-20-111, September 2011
                                                            Ref. No. 2011-20-116, September 2011




April 1, 2011 – September 30, 2011                                                         Page 113
                                                    
                             TIGTA Semiannual                 Report to Congress
 

         Reference to                Explanation of the
      Statutory Coverage                                             Comments/TIGTA Audit Status
                                         Provision

    Federal Financial              Requires TIGTA to report       Ref. No: 2011-10-041, May 2011
    Management                     to Congress instances          The IRS continues to face challenges with
    Improvement Act of 1996        when the IRS has not met       becoming compliant with the FFMIA.
    (FFMIA)                        the intermediate target        TIGTA’s review of the IRS’s September
                                   dates established in its       30, 2010, FFMIA remediation plan found
    31 U.S.C. § 3512               remediation plan and the       that the IRS did not include any
                                   reasons why those dates        remediation actions for the Customer
                                   were not met.                  Account Data Engine 2 (CADE 2). TIGTA
                                                                  believed these actions should have been
                                                                  included in the remediation plan because
                                                                  CADE 2 is the key piece of the IRS’s
                                                                  strategy to address its material weakness
                                                                  related to unpaid assessments.
                                                                  Additionally, the IRS continues to
                                                                  experience difficulty in reporting complete
                                                                  and accurate resource estimates for
                                                                  several other actions included in the
                                                                  remediation plan. Without appropriate
                                                                  estimates, the remediation actions could
                                                                  be delayed due to insufficient resources
                                                                  being available when needed.




    Office of National Drug        Requires TIGTA to              Ref. No: 2011-10-021, January 2011
    Control Policy (ONDCP)         express a conclusion           TIGTA reviewed the IRS’s ONDCP
    Detailed Accounting            about the reliability of the   Detailed Accounting Submission and
    Submission and                 IRS’s ONDCP detailed           Performance Summary Report for FY
    Assertions                     accounting submission          2010, which ended September 30, 2010.
                                   and assertions.                The IRS is responsible for preparing this
    National Drug Enforcement                                     report. Based on the review, nothing
    Policy 21 U.S.C. § 1704(d)                                    came to TIGTA’s attention that caused it
    and the Office of National                                    to believe that the assertions in the report
    Drug Control Policy Circular                                  were not appropriately presented in all
    entitled Annual Accounting                                    material respects in accordance with
    of Drug Control Funds,                                        ONDCP-established criteria. The IRS
    dated April 18, 2003.                                         reported that it expended $61.3 million on
                                                                  ONDCP-related activities and completed
                                                                  405 ONDCP-related cases that resulted
                                                                  in convictions in FY 2010. The IRS also
                                                                  reported that it participated in 405
                                                                  ONDCP-related cases that resulted in
                                                                  convictions, with an 82.3 percent
                                                                  conviction rate.




Page 114                                                                  April 1, 2011 – September 30, 2011
 
                         TIGTA Semiannual              Report to Congress




                                     Appendix IV
                         Section 1203 Standards
In general, the Commissioner of Internal Revenue shall terminate the employment of any IRS
employee if there is a final administrative or judicial determination that, in the performance of
official duties, such employee committed any misconduct violations outlined below. Such
termination shall be a removal for cause on charges of misconduct.

Misconduct violations include:

   •   Willfully failing to obtain the required approval signatures on documents authorizing the
       seizure of a taxpayer’s home, personal belongings, or business assets;
   •   Providing a false statement under oath with respect to a material matter involving a
       taxpayer or taxpayer representative;
   •   Violating, with respect to a taxpayer, taxpayer representative, or other employee of the
       IRS, any right under the Constitution of the United States, or any civil right established
       under Title VI or VII of the Civil Rights Act of 1964; Title IX of the Education
       Amendments of 1972; Age Discrimination in Employment Act of 1967; Age
       Discrimination Act of 1975; Section 501 or 504 of the Rehabilitation Act of 1973; or Title I
       of the Americans with Disabilities Act of 1990;
   •   Falsifying or destroying documents to conceal mistakes made by any employee with
       respect to a matter involving a taxpayer or taxpayer representative;
   •   Committing assault or battery on a taxpayer, taxpayer representative, or other employee
       of the IRS, but only if there is a criminal conviction or a final judgment by a court in a civil
       case, with respect to the assault or battery;
   •   Violating the Internal Revenue Code of 1986, as amended (the Code), the Department
       of the Treasury regulations, or policies of the IRS (including the Internal Revenue
       Manual) for the purpose of retaliating against or harassing a taxpayer, taxpayer
       representative, or other employee of the IRS;
   •   Willfully misusing provisions of § 6103 of the Code for the purpose of concealing
       information from a congressional inquiry;
   •   Willfully failing to file any return of tax required under the Code on or before the date
       prescribed therefore (including any extensions), unless such failure is due to reasonable
       cause and not to willful neglect;
   •   Willfully understating Federal tax liability, unless such understatement is due to
       reasonable cause and not to willful neglect; and
   •   Threatening to audit a taxpayer for the purpose of extracting personal gain or benefit.

The Commissioner of Internal Revenue may mitigate the penalty of removal for the misconduct
violations outlined above. The exercise of this authority shall be at the sole discretion of the
Commissioner and may not be delegated to any other officer. The Commissioner, in his/her
sole discretion, may establish a procedure that will be used to decide whether an individual
should be referred to the Commissioner for determination. Any mitigation determination by the
Commissioner in these matters may not be appealed in any administrative or judicial
proceeding.

April 1, 2011 – September 30, 2011                                                          Page 115
                                                    
           TIGTA Semiannual   Report to Congress
 




Page 116                               April 1, 2011 – September 30, 2011
 
                         TIGTA Semiannual        Report to Congress




                                     Appendix V
   Implementing Section 989C of the Dodd-Frank
    Wall Street Reform and Consumer Protection
     Act Inspector General Peer Review Activity
      April 1, 2011 through September 30, 2011

Last Peer Review Conducted on TIGTA Office of Investigations

On September 12, 2011, the United States Social Security Administration, Office of the
Inspector General, began its review of TIGTA’s Office of Investigations. It is anticipated
that this review will be completed by October 31, 2011.




April 1, 2011 – September 30, 2011                                               Page 117
                                              
           TIGTA Semiannual   Report to Congress
 




Page 118                               April 1, 2011 – September 30, 2011
 
                         TIGTA Semiannual       Report to Congress




                                     Appendix VI
                Data Tables Provided by the IRS
The memorandum copied below is the IRS’s transmittal to TIGTA. The tables that
follow the memorandum contain information that the IRS provided to TIGTA and consist
of IRS employee misconduct reports from the IRS Automated Labor and Employee
Relations Tracking System (ALERTS) for the period from April 1, 2011 through
September 30, 2011. Also, data concerning substantiated RRA 98 §1203 allegations
for the same period are included. IRS management conducted inquiries into the cases
reflected in these tables.




April 1, 2011 – September 30, 2011                                          Page 119
                                             
                            TIGTA Semiannual             Report to Congress
  


 Reports of Employees Misconduct for the Period
 April 1, 2011 through September 30, 2011
          Summary by Disposition Groups
             (Tables Provided by the IRS)
       Disposition             TIGTA          Administrative     Employee       Background        Totals
                           Investigations        Cases             Tax         Investigations
                                                                  Matter
                                                                  Cases
 Removal                                30                  71             6                  2         109
 Separation of
 Probationary Employees                   3                 90             4                 14         111
 Separation of Temporary
 Employees                                2                  3             0                  3          9
 Resignation/Retirement                 42                 123            18                 40         223
 Suspensions                           116                 265           103                  3         487
 Reprimands                            143                 436           396                 28    1,003
 Counseling                             16                 162           421                 81      680
 Alternative Discipline                 29                  56            27                  1         113
 Clearance                              69                 164             8                            241
 Closed Without Action                 179                 181            86               149          595
 Closed Without Action
 (Caution Statement)                   174                 156           133               212          675
 Forwarded to TIGTA                                         23                               1           24
 Suspended – Waiting
 Supplemental                             2                                                              2
 Termination for
 Abandonment of Position                                    91                                           91
 Termination for Other
 Than Job Abandonment                                        6                                           6
 Case Suspended Pending
 Employee Return to Duty                                                   4                             4
 Prosecution Pending for
 TIGTA ROI’s                              8                                                              8

 Total                                 813               1,827        1,207*               534     4,381

Notes:
 *Columns containing numbers of two or less and protected by I.R.C. Section 6103 are annotated with a 0.

Source: Automated Labor and Employee Relations Tracking System (ALERTS)
This report is being produced in accordance with 26 USC 7803(d)(2) and § 4(a)2 of Treasury Delegation
Order 115-01, January 14, 1999
Extract Date: Monday, October 03, 2011            Report ID = T1R3a


 Page 120                                                           April 1, 2011 – September 30, 2011
  
                          TIGTA Semiannual              Report to Congress



  Reports of Employee Misconduct for the Period
    April 1, 2011 through September 30, 2011
                National Summary
           (Tables Provided by the IRS)

                                                            Cases Closed
                                 Conduct
  Inventory           Opening                                                              Closing
                                  Cases                                         Non-
  Case Type          Inventory                  Conduct                                   Inventory
                                 Received        Issues
                                                                Duplicates    Conduct
                                                                               Issues


TIGTA
Investigations
ROI 111                    476            874          (813)            (0)         (0)          537

Administrative
Case 112                   564          1,825         (1,827)          (17)        (13)          532

Employee Tax
Compliance
Case 113                   508          1,301         (1,207)          (15)         (0)          587

Background
Investigations 114         193            476          (534)            (0)         (0)          135


Total                    1,741          4,476         (4,381)          (32)        (13)         1,791

Source: Automated Labor and Employee Relations Tracking System (ALERTS)

This report is being produced in accordance with 26 USC 7803(d)(2) and § 4(a)2 of Treasury
Delegation Order 115-01, January 14, 1999
Extract Date: Monday, October 03, 2011         Report ID = T1R1




111
    TIGTA Investigations (ROI) - Any matter involving an employee in which TIGTA conducted an
investigation into alleged misconduct and referred a ROI to IRS for appropriate action.
112
    Administrative Case - Any matter involving an employee in which management conducted an inquiry
into alleged misconduct.
113
    Employee Tax Compliance Case - Any conduct matter that is identified by the Employee Tax
Compliance program which becomes a matter of official interest.
114
    Background Investigation - Any matter involving a National Background Information Center
investigation into an employee’s background that is referred to management for appropriate action.

April 1, 2011 – September 30, 2011                                                         Page 121
                                                   
                                 TIGTA Semiannual              Report to Congress
       


                        Summary of Substantiated
                      I.R.C. Section 1203 Allegations
                  Recorded in ALERTS for the Periods
                April 1, 2011 through September 30, 2011
                       (Tables Provided by the IRS)
                                                                   Removed          Penalty         In
                                    Resigned/      Probation
§ 1203 Violation      Removals                                     On Other        Mitigated    Personnel        Total
                                     Retired       Separation                          115
                                                                   Grounds                       Process

Seizure Without
Approval                   0              0              0              0              0             0            0
False Statement
Under Oath                 0              0              0              0              0             0            0
Constitutional &
Civil Rights Issues        0              0              0              0              0             0            0
Falsifying or
Destroying
Records                    0              0              0              0              0             0            3

Assault or Battery
                           0              0              0              0              0             0            0
Retaliate or
Harass                     0              0              0              0              0             0            1

Misuse of § 6103
                           0              0              0              0              0             0            0
Failure to Timely
File/ Under-
statement of Tax
Liability                  0              3              0             16              24           31            75
Threat to Audit for
Personal Gain              0              0              0              0              0             0            0

Totals                     0             4*              0             18*             24          32*            79

 Notes:
   *Columns containing numbers of two or less and protected by I.R.C. Section 6103 are annotated with a 0.

 Source: Automated Labor and Employee Relations Tracking System (ALERTS) and 1203 Review
 Board records.
 Extract Date: Tuesday, October 04, 2011



      115
        The cases reported as “Removals” and “Penalty Mitigated” do not reflect the results of any third party
      appeal.


      Page 122                                                               April 1, 2011 – September 30, 2011
       
                         TIGTA Semiannual        Report to Congress




                        Glossary of Acronyms
 ACTC                    Additional Child Tax Credit

 AIS                     Automated Insolvency System
                         Automated Labor and Employee Relations Tracking
 ALERTS
                         System
 AWSS                    Agency-Wide Shared Services

 CAU                     Caution Upon Contact

 CADE                    Customer Account Data System

 CI                      Criminal Investigation Division

 CQC                     Controlled Quality Corporation

 CTC                     Child Tax Credits

 CWA                     Central Withholding Agreement

 DOD                     Department of Defense

 EFIN                    Electronic Filing Identification Number

 EITC                    Earned Income Tax Credit

 FBI                     Federal Bureau of Investigation

 FFMIA                   Federal Financial Management Improvement Act of 1996

 FLETA                   Federal Law Enforcement Training Accreditation

 FY                      Fiscal Year

 GPO                     Government Printing Office

 GSA                     General Services Administration


April 1, 2011 – September 30, 2011                                         Page 123
                                              
             TIGTA Semiannual          Report to Congress
 


    I&E      Inspections and Evaluations

    I.R.C.   Internal Revenue Code

    IRM      Internal Revenue Manual

    ITIN     Individual Taxpayer Identification Number

    IVES     Income Verification Express Services

    LB&I     Large Business and International Division

    MITS     Modernization and Information Technology Services

    NRA      Nonresident Alien

    NTEU     Nation Treasury Employees Union

    OA       Office of Audit

    OEP      Office of Employee Protection

    OI       Office of Investigation

    OMB      Office of Management and Budget

    ONDCP    Office of National Drug Control Policy

    PDT      Potentially Dangerous Taxpayer

    PFD      Procurement Fraud Division

    PII      Personally Identifiable Information

    POWER    Protecting Our Workers and Ensuring Reemployment

    PTIN     Preparer Tax Identification Number

    RCT      Religious Compensatory Time



Page 124                                        April 1, 2011 – September 30, 2011
 
                         TIGTA Semiannual        Report to Congress




 REFM                    Real Estate and Facilities Management

 RO                      Revenue Officers

 ROTERs                  Record of Tax Enforcement Results

 RRA 98                  IRS Restructuring and Reform Act of 1998

 SAR                     Semiannual Report

 SB/SE                   Small Business/Self-Employed

 SAMC                    Situational Awareness Management Center

 SDS                     Strategic Data Services Division

 SHARE                   Safety, Health, and Return to Employment

 TE/GE                   Tax Exempt and Government Entities

 TIGTA                   Treasury Inspector General for Tax Administration

 TIRC                    Threat Information and Critical Response Initiative

 TTY/TDD                 Tele-Typewriter/Telecommunications Device

 UNAX                    Unauthorized Access

 U.S.                    United States




April 1, 2011 – September 30, 2011                                             Page 125
                                              
           TIGTA Semiannual       Report to Congress
 




Page 126                      =            April 1, 2011 – September 30, 2011
 
                         TIGTA Semiannual       Report to Congress




April 1, 2011 – September 30, 2011                                   Page 127
                                             
